<html>
<title> - NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 112-578]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-578

                       NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

              S. 1897                               S. 2286

              S. 2158                               S. 2316

              S. 2229                               S. 2324

              S. 2267                               S. 2372

              S. 2272                               S. 3078

              S. 2273                               S. 3300

                               __________

                             JUNE 27, 2012



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-377 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Beehan, Thomas L., Mayor, City of Oak Ridge, and Chairman, Energy 
  Communities Alliance, Oak Ridge, TN............................    27
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Carter, Derb S. Jr., Director, North Carolina Office, Southern 
  Environmental Law Center.......................................    38
Frost, Herbert, Associate Director, Natural Resources Stewardship 
  and Science, National Park Service, Department of the Interior.     3
Judge, Warren, Chairman, Dare County Board of Commissioners, 
  County of Dare, NC.............................................    31
Kolb, Ingrid, Director, Office of Management, Department of 
  Energy.........................................................    16
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    53

 
                       NATIONAL PARKS LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:03 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we have the hearing come to 
order?
    This is a hearing Senator Udall would normally Chair. He's 
the Chair of the Subcommittee on National Parks. But he's not 
able to do it today. So I'm going to go ahead.
    We're considering 12 bills that cover a variety of National 
Park related issues. In the interest of time I won't read the 
bill titles. Instead I'll include the complete list of bills in 
the hearing record.
    I'd like to briefly comment on one of the bills which is S. 
3300. That's a bill that I've introduced along with Senators 
Cantwell and Murray and Alexander and Udall, of New Mexico, to 
establish the Manhattan Project National Historical Park. This 
is a multi-state National Park with units in New Mexico, 
Tennessee and Washington.
    The Manhattan Project which was a top secret effort to 
create an atomic bomb during the Second World War has been 
described as the single, most significant event of the 20th 
century. While its legacy is complicated, it changed the course 
of history and is of national and international significance. 
For those reasons I believe it's important for future 
generations to learn about it and from it. By establishing 
these sites in Los Alamos and Hanford and Oak Ridge as a 
National Park, it's my hope that visitors will soon have 
improved public access and a better understanding of the 
historical significance of the Manhattan Project. There's 
strong local support in Los Alamos.
    In fact I'm advised that Heather McClenahan is here. 
Where's Heather? She is the Executive Director of the Los 
Alamos Historical Society. She's testifying in the House side 
on this same legislation tomorrow, as I understand it.
    So there is strong support in Los Alamos. I understand 
there is also similar local enthusiasm in Washington State and 
in Tennessee. We have worked for several months with the Park 
Service and the Department of Energy to try to find the 
appropriate language to allow the Park Service to protect and 
interpret the historic resources while not interfering with the 
mission of the Department of Energy.
    We'll continue to work with the agencies to perfect the 
bill as necessary. I hope we can get the bill ready for mark up 
in the near future.
    So let me call on Senator Murkowski for any statement she 
has before I introduce our witnesses.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. As you are 
filling in for the Chair of the Subcommittee here, I am filling 
in for the ranking member, Senator Paul, who is also not able 
to make it.
    I appreciate the opportunity though to speak to a couple of 
the bills that are on the calendar here this afternoon.
    S. 2272 and S. 2273, both focus on probably the most 
storied and photographed geographic feature in, certainly in 
Alaska and perhaps in the country. Mount McKinley is the 
tallest mountain in the United States. We, as Alaskans, aren't 
shy about reminding folks about how big and how beautiful it is 
and that it is ours.
    In Alaska that mountain is referred to as something else. 
We don't refer to it as Mount McKinley. We just call it Denali. 
That's what we've always called it.
    Denali is an Alaskan native word, an Athbascan word. It 
means the ``high one.'' As you think about this incredible 
mountain, you think that's pretty appropriately named.
    All S. 2272 does it make that name official. I know that 
the name Mount McKinley has some special significance to the 
folks in Ohio because of President William McKinley. My 
response to those folks is you're more than welcome to go right 
on referring to the mountain as Mount McKinley, just as 
Alaskans have always referred to the mountain as Denali. All 
that's changing is that the Alaskan name is becoming, 
technically, correct for an Alaskan landmark.
    The other bill that I've introduced that is on the calendar 
today is S. 2273. It's also a renaming piece of legislation. It 
also revolves around the history of Denali.
    Next June will mark the 100th year anniversary of the first 
successful summit of the mountain. It's probably well past time 
that we did something to permanently honor the man who did 
that. The gentleman's name was Walter Harper. He's an Alaska 
native. He was the first person to reach the summit of Denali. 
He did it on Sunday, June 7, 1913.
    So what this legislation does is renames the Talkeetna 
Ranger Station in Alaska to the Walter Harper Talkeetna Ranger 
Station. It's a station. This is the station where anybody who 
is planning on climbing the mountain has to stop to get their 
permit, get their mountain orientation. So it seems fitting to 
me that hopeful Denali climbers get their mountain orientation 
at a building named for the first man to ever successfully do 
the same climb.
    Now clearly these are little bills in the big picture of 
things that we do around here. I understand that. But I also 
understand, as I know the Chairman does, that it's the little 
things that sometimes matter a great deal to our communities.
    Making Denali the name that Alaskans use anyway, the 
official name of America's tallest mountain means something to 
Alaska.
    Honoring a man like Walter Harper by renaming the ranger 
station that serves as the base for all National Parks? 
operation in Denali National Park, also means something.
    So I thank the Chairman for giving me the chance to speak 
on these 2 bills. Will look forward to the comments from the 
witnesses.
    The Chairman. Alright. We have 2 panels.
    Our first panel is two Administration witnesses.
    Mr. Herbert Frost, who is the Associate Director of the 
National Resource Stewardship and Sciences in the National Park 
Service in the Department of Interior. Thank you for being 
here.
    Ms. Ingrid Kolb is the Director of the Office of Management 
in the Department of Energy. Thank you for being here.
    So why don't you folks proceed in which ever order you'd 
like. Give us your views on the various bills pending before 
the committee today. Then we'll have some questions.

    STATEMENT OF HERBERT FROST, ASSOCIATE DIRECTOR, NATURAL 
   RESOURCES STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Frost. Mr. Chairman, thank you for the opportunity to 
appear before the subcommittee today to present the Department 
of the Interior's view on the 12 bills that are on today's 
agenda. I would like to submit our full statements on each of 
these bills for the record and summarize the Department's 
views.
    The Chairman. We'll include the full statement for these 2 
witnesses and the witnesses on the second panel as well.
    Mr. Frost. The Administration supports S. 3300. This bill 
would establish the Manhattan Project National Historical Park 
in Oak Ridge, Tennessee, Los Alamos, New Mexico and Hanford, 
Washington. This legislation would enable the National Park 
Service to work in partnership with the Department of Energy to 
ensure the preservation of key resources associated with the 
Manhattan Project and to increase public awareness and 
understanding of this consequential effort.
    We appreciate the language specifically providing for 
amendments to the initial agreement and the broad range of 
authority for the Secretary of the Interior as these provisions 
will give the National Park Service the flexibility to shape 
the park over time and to provide the promotion and education 
and interpretation related to the Park's purpose. We are 
continuing to review the bill for any amendments that might be 
needed.
    The Department supports the following 3 bills with 
amendments which are described in our full statements.
    S. 1897, which would revise the boundaries of Gettysburg 
National Military Park to include the Gettysburg Train Station.
    S. 2229, which would authorize the issuance of right-of-way 
permits for natural gas pipelines in Glacier National Park.
    S. 2324, which would authorize a study of a segment of the 
Neches River in the State of Texas for the potential addition 
to the National Wild and Scenic River system.
    The Department also supports S. 2316, which would designate 
the Salt Pond Visitor Center at Cape Cod National Seashore as 
the Thomas P. O'Neill, Jr. Salt Pond Visitor Center.
    The Department has no objections to S. 2272 or S. 2273.
    S. 2272 would designate a mountain in the State of Alaska 
as Mount Denali.
    S. 2273 would designate the Talkeetna Ranger Station in 
Talkeetna, Alaska as the Walter Harper Talkeetna Ranger 
Station.
    The Department recommends that the committee defer action 
on S. 2286 and S. 2158.
    S. 2158 would establish the Fox-Wisconsin Heritage Parkway 
National Heritage Area. The National Park Service has made a 
preliminary finding that the feasibility study does not 
demonstrate that the proposed area meets the National Heritage 
Area study interim criteria. The NPS anticipates completing its 
final review of the study within 1 month.
    S. 2286 would designate certain segments of the Farmington 
River and Salmon Brook in the State of Connecticut as 
components of the National Wild and Scenic River System. We 
recommend not taking action on the bill until the study is 
completed.
    S. 2267 would reauthorize funding for the Hudson River 
Valley National Heritage Area for 10 years. We recommend that 
S. 2267 be amended to authorize an extension to the Heritage 
Area's funding until we have completed an evaluation and report 
on its accomplishments and the future role of the National Park 
Service in the Heritage Area. We also recommend enacting a 
Heritage Area program legislation that standardizes timeframes 
and funding for designated National Heritage Areas.
    S. 3078 would direct the Secretary of the Interior to 
install in the area of the World War II Memorial a suitable 
plaque or inscription with the words President Franklin D. 
Roosevelt prayed on July 6, 1944, the morning of D-Day. The 
Department appreciates the efforts of Senator Portman to work 
with the National Park Service on this legislation. If directed 
by Congress pursuant to this legislation, the Park Service will 
work to find an appropriate location for the plaque in 
accordance with the Commemorative Works Act process, as 
directed in Section Three of this legislation. We support the 
continued application of the Commemorative Works Act as a 
vehicle for citing and designing the plaque including important 
design reviews and public consultation.
    S. 2372 would overturn the off road vehicle management plan 
at Cape Hatteras National Seashore and reinstate the defunct 
interim strategy. The Department strongly opposes S. 2372 
because we believe that the final ORV management plan and 
special regulation will allow appropriate public use and access 
at the seashore to the greatest extent possible while also 
ensuring wildlife protection, providing a variety of visitor 
use experiences, minimizing conflicts among various users and 
promoting the safety of all visitors.
    Mr. Chairman, this concludes my statement. I'd be pleased 
to answer any questions.
    [The prepared statement of Mr. Frost follows:]

   Prepared Statement of Herbert Frost, Associate Director, Natural 
Resources Stewardship and Science, National Park Service, Department of 
                              the Interior
                                s. 1897
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1897, a bill to add the historic Lincoln Train Station in the 
Borough of Gettysburg and 45 acres at the base of Big Round Top to 
Gettysburg National Military Park in the Commonwealth of Pennsylvania.
    The Department supports enactment of this legislation with a 
technical amendment.
    Gettysburg National Military Park protects major portions of the 
site of the largest battle waged during this nation's Civil War. Fought 
in the first three days of July 1863, the Battle of Gettysburg resulted 
in a victory for Union forces and successfully ended the second 
invasion of the North by Confederate forces commanded by General Robert 
E. Lee. Historians have referred to the battle as a major turning point 
in the war--the ``High Water Mark of the Confederacy.'' It was also the 
Civil War's bloodiest single battle, resulting in over 51,000 soldiers 
killed, wounded, captured or missing.
    The Soldiers' National Cemetery within the park was dedicated on 
November 19, 1863, when President Abraham Lincoln delivered his 
immortal Gettysburg Address. The cemetery contains more than 7,000 
interments including over 3,500 from the Civil War. The park currently 
includes nearly 6,000 acres, with 26 miles of park roads and over 1,400 
monuments, markers, and memorials.
    Gettysburg's Lincoln Train Station was built in 1858 and is listed 
on the National Register of Historic Places. The station served as a 
hospital during the Battle of Gettysburg, and the wounded and the dead 
were transported from Gettysburg through this station in the aftermath 
of battle. President Abraham Lincoln arrived at this station when he 
visited to give the Gettysburg Address.
    Gettysburg National Military Park's 1999 General Management Plan 
called for expanding cooperative relationships and partnerships with 
the Borough of Gettysburg and other sites ``to ensure that resources 
closely linked to the park, the battle, and the non-combatant civilian 
involvement in the battle and its aftermath are appropriately protected 
and used.'' In particular, the plan stated that the National Park 
Service would initiate ``cooperation agreements with willing owners, 
and seek the assistance of the Borough of Gettysburg and other 
appropriate entities to preserve, operate and manage the Wills House 
and Lincoln Train Station.''
    The Borough of Gettysburg Interpretive Plan called for the Lincoln 
Train Station to be used as a downtown information and orientation 
center for visitors--where all park visitors would arrive after coming 
downtown--to receive information and orientation to downtown historic 
attractions, including the David Wills House. This is the house where 
Lincoln stayed the night before delivering the Gettysburg Address. The 
Interpretive Plan also called for rehabilitation of the Wills House, 
which was added to the park's boundary through Public Law 106-290 in 
October 2000, and is now a historic house museum in the borough and an 
official site within Gettysburg National Military Park. Through a 
Memorandum of Understanding, the David Wills House is operated by the 
Gettysburg Foundation in conjunction with the National Park Service.
    The Lincoln Train Station is next to the downtown terminus of 
Freedom Transit, Gettysburg's shuttle system, which started operations 
in July 2009 with a grant from the Federal Transit Administration in 
the Department of Transportation.
    In 2006, the Borough of Gettysburg completed rehabilitation of the 
Lincoln Train Station with funds from a Commonwealth of Pennsylvania 
grant. Due to a lack of funds, however, the borough has been unable to 
operate a visitor information and orientation center there. Through 
formal vote of the Borough Council, the Borough of Gettysburg has asked 
the National Park Service to take over the ownership and operations of 
the train station. The anticipated acquisition cost for the completely 
rehabilitated train station is approximately $772,000, subject to an 
appraisal by the federal government. It is expected that funding to 
acquire this land would not come from federal appropriations but would 
be provided by non-governmental entities.
    The park has a preliminary commitment from the Gettysburg 
Convention and Visitor Bureau (CVB) to provide all staffing 
requirements for operations of an information and orientation center in 
the train station, thereby alleviating the park of staff costs. 
Anticipated operating costs for the train station that will be the 
responsibility of the NPS are limited to utility costs, with the rest 
being paid by the Gettysburg CVB. In the event that the Gettysburg CVB 
is unable to provide staffing and funding for operations, the NPS would 
seek another park partner to cover these costs and requirements.
    This legislation would also add 45 acres near Big Round Top along 
Plum Run in Cumberland Township, Pennsylvania, to the boundary of the 
park. The 45-acre tract of land is adjacent to the Gettysburg National 
Military Park and is within the Battlefield Historic District. The land 
is at the southern base of Big Round Top at the southern end of the 
Gettysburg battlefield. There were cavalry skirmishers in this area 
during the Battle of Gettysburg, July 1863, but the real significance 
is environmental. The tract has critical wetlands and wildlife habitat 
related to Plum Run. Wayne and Susan Hill donated it to the Gettysburg 
Foundation in April 2009. The Gettysburg Foundation plans to donate fee 
title interest in the parcel to the National Park Service once it is 
within the park boundary. It abuts land already owned by the National 
Park Service.
    The maps referenced on page two of the legislation have been 
updated and are being submitted for the record. Our technical amendment 
is to update the map reference to reflect a date of ``January 2010'' 
for both maps.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or members of the committee may have regarding 
the Department's position on S.1897.
                                s. 2158
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before your committee to present the Department 
of the Interior's views on S. 2158, a bill to establish the Fox-
Wisconsin Heritage Parkway National Heritage Area, and for other 
purposes.
    The Department recommends that the committee defer action on S. 
2158. The National Park Service (NPS) has made a preliminary finding 
that the feasibility study, conducted by the Fox-Wisconsin Heritage 
Parkway, does not demonstrate that the proposed area meets the 
Service's national heritage area study interim criteria. The NPS 
anticipates completing its final review of the study within one month.
    In addition, the Department recommends deferring action on S. 2158 
until program legislation is enacted that establishes criteria to 
evaluate potentially qualified national heritage areas and a process 
for the designation and administration of these areas. There are 
currently 49 designated national heritage areas, yet there is no 
authority in law that guides the designation and administration of 
these areas. Program legislation would provide a much-needed framework 
for evaluating proposed national heritage areas, offering guidelines 
for successful planning and management, clarifying the roles and 
responsibilities of all parties, and standardizing timeframes and 
funding for designated areas.
    S. 2158 would establish the Fox-Wisconsin Heritage Parkway National 
Heritage Area (NHA), with the Fox-Wisconsin Heritage Parkway, a non-
profit organization, as the local coordinating entity. The legislation 
includes standard language for national heritage area designation bills 
regarding the proposed area's administration, management plan, and 
funding. The proposed Fox-Wisconsin Heritage Parkway NHA runs through 
parts of 15 counties throughout Wisconsin and marks the path of Father 
Jacques Marquette's and Louis Joliet's exploration from the Great 
Lakes, through Wisconsin, to the Mississippi River, in 1673. Their 
voyage eventually led to the establishment of European settlements in 
the Mississippi River corridor. The proposed Fox-Wisconsin Heritage 
Parkway NHA includes approximately 1,400 square miles of land in 
central and southeastern Wisconsin, including Brown, Calumet, Columbia, 
Crawford, Dane, Fond du Lac, Grant, Green Lake, Iowa, Marquette, 
Outagamie, Richland, Sauk, Waushara, and Winnebago counties.
    Prior to beginning any effort to designate an area as a national 
heritage area, the National Park Service recommends that interested 
community members or organizations undertake a feasibility study to 
assess several factors, including: whether the landscape has an 
assemblage of natural, cultural, historic and scenic resources that, 
when linked together, tell a nationally important story; whether an 
organization exists with the financial and organizational capacity to 
coordinate heritage area activities; and, whether the level of support 
for designation exists within the region.
    The Fox-Wisconsin Heritage Parkway organization prepared a 
feasibility study in 2010. It did a great deal of research and 
planning, and conducted extensive civic engagement activities across 
the area which involved numerous organizations, agencies, businesses, 
and individuals in discussions about the potential heritage area. 
Although the National Park Service considers a strong level of 
community support and a solid organizational framework to be important 
ingredients for a successful heritage area, the primary consideration 
for the NPS is whether a proposed area contains an assemblage of 
natural, cultural, historic and scenic resources that, when linked 
together, tell a nationally important story. The preliminary finding of 
the NPS is that the proposed area does not meet this criteria.
    This concludes my prepared remarks, Mr. Chairman. I would be happy 
to answer any questions you or any other members of the Subcommittees 
may have regarding this bill.
                                s. 2229
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2229, a bill to authorize the issuance of right-of-way permits for 
natural gas pipelines in Glacier National Park, and for other purposes.
    The Department supports S. 2229 with amendments. The Department 
testified in support of H.R. 4606, an identical bill, before the House 
Subcommittee on National Parks, Forests and Public Lands on June 8, 
2012. S. 2229 would provide authority for the National Park Service to 
grant a right-of-way permit for any natural gas pipeline that is 
located within Glacier National Park as of March 1, 2012, subject to 
certain conditions.
    Currently, there is only one natural gas pipeline that runs through 
Glacier National Park. It was built in 1962 with the permission of the 
park superintendent, who may not have known that there was no authority 
to issue a permit for a gas pipeline. The pipeline passes within the 
park boundary for approximately 3.5 miles in the right-of-way for U.S. 
Highway 2. The line is near the southwestern boundary of the park, and 
in close proximity both to the Middle Fork of the Flathead River, which 
is designated as a Wild and Scenic River, and the Great Bear 
Wilderness, managed by the U.S. Forest Service as part of the Flathead 
National Forest. The pipeline provides natural gas to Kalispell, 
Montana, and the Flathead Valley, as well as to some park facilities. 
In 1990, a renewal of the permit was requested. The superintendent at 
the time recognized that he did not have the proper authority to permit 
this pipeline. NorthWestern Energy, which owns and operates this 
pipeline, recently sought a legislative solution to provide the 
necessary authority.
    In 2008, the Flathead National Forest received a request from 
NorthWestern Energy to place another gas line alongside the existing 
pipeline (a practice known as twinning). That new line would also pass 
through Glacier National Park. NorthWestern Energy recently advised the 
National Park Service that it does not plan to take action on this 
proposal. However, if this proposal is revived at some point in the 
future, we would be concerned about potential impacts to park resources 
including the viewshed along US Highway 2, the Wild and Scenic River 
Corridor, recommended wilderness, and vegetation. We are, therefore, 
supportive of limiting permitting authority to the existing natural gas 
pipeline, as provided for in the legislation.
    We recommend amending the legislation in two ways. First, S. 2229 
would allow the permitting of a 100-foot right-of-way (50 feet on 
either side of centerline of the pipeline) through the park. We 
recommend allowing the width of the proposed right-of-way to be 
determined cooperatively by the National Park Service and NorthWestern 
Energy, and described in a permit issued subsequent to the legislation, 
rather than codified in the legislation itself. This approach would be 
consistent with legislation passed in 2002 for existing and new natural 
gas transmission lines in Great Smoky Mountains National Park and in 
2005 natural gas pipeline legislation for Delaware Water Gap National 
Recreation Area. And second, we recommend amending the bill to provide 
consistency with laws (including regulations) and policies applicable 
to rights-of-way for natural gas pipelines within units of the National 
Park System by deleting the reference to 16 U.S.C. 5, because that law 
addresses utility rights-of-way for other types of utilities than 
natural gas pipelines. We would be happy to provide the Committee with 
suggested language for these amendments.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any additional questions you may have.
                                s. 2267
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2267, a bill to reauthorize the Hudson River Valley National 
Heritage Area (NHA).
    The Department recognizes the important work of the Hudson River 
Valley National Heritage Area to preserve heritage resources in Hudson 
River Valley between Yonkers and Troy, New York. We recommend that S. 
2267 be amended to authorize an extension for heritage area program 
funding until we have completed an Evaluation and Report on the 
accomplishments of the area and the future role of the National Park 
Service; and until heritage area program legislation is enacted that 
standardizes timeframes and funding for designated national heritage 
areas. Consistent with congressional directives in the FY 2009 and FY 
2010 Interior Appropriations Acts, the Administration proposed in the 
FY 2013 Budget focusing most national heritage area grants on recently 
authorized areas and reducing and/or phasing out funds to well-
established recipients to encourage self-sufficiency. The Department 
would like to work with Congress to determine the future federal role 
when heritage areas reach the end of their authorized eligibility for 
heritage program funding. We recommend that Congress enact national 
heritage legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    S. 2267, as introduced, would extend the authorization of federal 
funding for Hudson River Valley for an additional 10 years.
    The Hudson River Valley National Heritage Area was established in 
1996 by Public Law 104-333. The heritage area includes 250 communities 
in ten counties bordering the Hudson River for 154 miles of tidal 
estuary. This includes three million acres of the Hudson Highlands, the 
Catskill Mountains, rolling farmland and compact villages, as well as 
small cities and hamlets. The region extends from the confluence of the 
Mohawk and Hudson Rivers, south to the northern border of New York 
City.
    The mission of this national heritage area is to recognize, 
preserve and promote the natural and cultural resources of the Hudson 
River Valley. This is accomplished through a voluntary partnership with 
communities and citizens, and local, state and federal agencies 
emphasizing public access, economic development, regional planning and 
interpretive programs.
    Public Law 104-333 designated the Hudson River Valley Greenway 
Communities Council and the Greenway Heritage Conservancy, Inc. as the 
local coordinating entities for the NHA. The heritage area management 
entities facilitate public private partnerships for the preservation of 
heritage resources and work closely with National Park Service (NPS) 
staff at Roosevelt-Vanderbilt National Historic Sites. The heritage 
area's work focuses on regional initiatives for heritage programming, 
interpretation, and education, preservation and resource stewardship, 
heritage development and infrastructure, and planning and design.
    During its 15 years of existence, the Hudson River Valley National 
Heritage Area has a significant record of achievement. It has taken the 
lead on initiatives such as Heritage Weekend which gives visitors the 
opportunity to discover--or rediscover--many historic, architectural 
and natural treasures in the state. The heritage area staff has worked 
tirelessly to connect sites and schools together to create place-based 
curriculum that can be replicated and used by others through a website 
that provides academic resources regarding the heritage and culture of 
the Hudson River Valley. The staff has facilitated the creation of 
region-wide ``shows'' focusing on the NHA's nature and culture sub-
themes, printed map and guides, and advanced a graphic identity at 
partner sites. They continue to help communities and trail groups 
establish a system of trails that link cultural and historic sites, 
parks, open spaces, and community centers as well as providing public 
access to the Hudson River.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for Federal 
funding for the heritage area instead of reauthorizing the heritage 
area. While the Hudson River Valley National Heritage Area faces a 
sunset for its Federal funding, its National Heritage Area designation 
will not sunset.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 2272
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2272, a bill to designate a 
mountain in the State of Alaska as Mount Denali.
    The National Park Service appreciates the long history and public 
interest for both the name Mount McKinley and the traditional 
Athabascan name, Denali. The Department respects the choice made by 
this legislation, and does not object to S. 2272.
    Located in what is now Denali National Park and Preserve, the 
highest peak in North America has been known by many names. The 
National Park Service's administrative history of the park notes that, 
``The Koyukon called it Deenaalee, the Lower Tanana named it 
Deenaadheet or Deennadhee, the Dena'ina called it Dghelay Ka'a, and at 
least six other Native groups had their own names for it.
    ``In the late 18th century various Europeans came calling, and 
virtually everyone who passed by was moved to comment on it. The 
Russians called it Bulshaia or Tenada, and though explorers from other 
nations were less specific, even the most hard-bitten adventurers were 
in awe of its height and majesty.
    ``No American gave it a name until Densmore's Mountain appeared in 
the late 1880s, and the name that eventually stuck--Mount McKinley--was 
not applied until the waning days of the nineteenth century,'' a 
gesture of support to then-President William McKinley.
    In 1975, the State of Alaska officially recognized Denali as the 
name of the peak, and requested action by the U.S. Board on Geographic 
Names to do the same.
    In 1980, Congress changed the name of Mount McKinley National Park 
to Denali National Park and Preserve (P.L. 96-487, Section 202), but 
did not act on the name change for the mountain.
    Mr. Chairman, this concludes my testimony, and I would be happy to 
answer any questions you or other members may have.
                                s. 2273
    Mr. Chairman, thank you for the opportunity to testify on S. 2273, 
which would designate the Talkeetna Ranger Station in Talkeetna, 
Alaska, as the Walter Harper Talkeetna Ranger Station.
    As the 100th anniversary of the 1913 summit climb of Walter Harper 
approaches, the National Park Service has no objection to S. 2273, 
which would name the Denali National Park and Preserve's South District 
Ranger Station in Talkeetna, Alaska, as the Walter Harper Talkeetna 
Ranger Station.
    Mr. Harper grew up in Alaska, a child of Arthur Harper, a Scottish 
trader and prospector, and Jennie Harper, an Athabascan Indian from the 
Koyukuk region. As a young man, he served as an interpreter and guide 
for the far-flung ministry of Hudson Stuck, an Episcopal archdeacon.
    He joined Stuck on an arduous trip in 1913 to reach the summit of 
North America's highest peak. For nearly three months, the group moved 
slowly south from Fairbanks and into the high mountains of the Alaska 
Range. On June 7, 1913, Walter Harper, 21, became the first man to set 
foot on the summit of Denali, the Athabascan name for the peak, meaning 
the High One. The archdeacon's journal described their approach: ``With 
keen excitement we pushed on. Walter, who had been in the lead all day, 
was the first to scramble up; a Native Alaskan, he is the first human 
being to set foot upon the top of Alaska's greatest mountain, and he 
had well earned the honor.''
    Since 1913, thousands of climbers have aimed for the summit. Unlike 
Mr. Harper, today the vast majority begin their expeditions with an 
airplane ride out of Talkeetna on the south side of the Alaska Range. 
The National Park Service ranger station there serves as an orientation 
center for climbers and other visitors to the Denali region. The 
community is proud of its varied history as a railroad town, a jumping 
off point for miners, and in the past several decades as the take-off 
point for climbing expeditions.
    Mr. Chairman, this concludes my testimony, and I would be happy to 
answer any questions you or other members may have.
                                s. 2286
    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to present the views of the Department of the Interior 
on S. 2286, a bill to amend the Wild and Scenic Rivers Act to designate 
certain segments of the Farmington River and Salmon Brook in the State 
of Connecticut as components of the Wild and Scenic Rivers System, and 
for other purposes.
    The Department has preliminarily concluded through the National 
Park Service's draft study of the Lower Farmington River and Salmon 
Brook that the segments proposed for designation under this bill are 
eligible for inclusion into the National Wild and Scenic Rivers System. 
However, we recommend that the committee defer action on S. 2286 until 
the study is completed, which is consistent with the Department's 
general policy on legislation designating additions to the Wild and 
Scenic Rivers System when a study of the subject is pending.
    S. 2286 would designate 35.3 miles of the Farmington River and the 
entire 26.4 miles of its major tributary, Salmon Brook, as part of the 
Wild and Scenic Rivers System, to be administered by the Secretary of 
the Interior. The segments would be managed in accordance with the 
Lower Farmington River and Salmon Brook Management Plan (June 2011) 
with the Secretary coordinating administration and management with a 
locally based management committee, as specified in the plan. The bill 
would authorize the Secretary to enter into cooperative agreements with 
the State of Connecticut, the adjoining communities, and appropriate 
local planning and environmental organizations. S. 2286 would also make 
an adjustment to the upper Farmington Wild and Scenic River, which was 
designated in 1994, by adding 1.1 miles to the lower end of that 14-
mile designation.
    S. 2286 would complete the wild and scenic river designation of the 
Farmington River in Connecticut by designating all of the mainstem 
Farmington River segments found to meet the criteria of eligibility and 
suitability. At the same time, S. 2286 would provide for the continued 
operation of one existing hydroelectric facility--Rainbow Dam in 
Windsor--and allow for potential hydroelectric development of existing 
dams in the Collinsville stretch of the river, which is currently the 
subject of an active Federal Energy Regulatory Commission (FERC) 
licensing proceeding sponsored by the Town of Canton.
    P.L. 109-370, the Lower Farmington River and Salmon Brook Study Act 
of 2005, authorized the study of the segments proposed for designation 
in S. 2286. The National Park Service conducted the study in close 
cooperation with the adjoining communities, the State of Connecticut, 
the Farmington River Watershed Association, the Stanley Black & Decker 
Corporation (owner of Rainbow Dam) and other interested local parties. 
Although the Wild and Scenic Rivers Act requires the development of a 
comprehensive river management plan within three years of the date of 
designation, it has become the practice of the National Park Service to 
prepare this plan as part of a study of potential wild and scenic 
rivers when much of the river runs through private lands. This allows 
the National Park Service to consult widely with local landowners, 
federal and state land management agencies, local governments, river 
authorities, and other groups that have interests related to the river 
prior to any recommendation for designation. Early preparation of the 
plan also assures input from these entities as well as users of the 
river on the management strategies that would be needed to protect the 
river's resources.
    Technical assistance provided as a part of the study made possible 
the development of the Lower Farmington River and Salmon Brook 
Management Plan (June 2011). This plan is based primarily around local 
partner actions designed to guide the management of the Lower 
Farmington River and Salmon Brook with or without a National Wild and 
Scenic River designation.
    While the study has not been finalized, it has preliminarily 
concluded that the proposed segments of the Lower Farmington River and 
Salmon Brook are eligible and suitable for inclusion in the National 
Wild and Scenic Rivers System because of their free-flowing nature and 
outstandingly remarkable geology, water quality, biological diversity, 
cultural landscape, recreation values and local authority to protect 
and enhance these values. These findings substantiate the widely held 
view of the Farmington River as Connecticut's premier free-flowing 
river resource for a diversity of natural and cultural values, 
including one of New England's most significant whitewater boating 
runs, regionally unique freshwater mussel populations, and outstanding 
examples of archaeological and historical sites and districts spanning 
Native American, colonial and early manufacturing periods. Salmon Brook 
is, in its own right, highly significant for outstanding water quality, 
significant cold water fishery, and Atlantic salmon restoration 
potential.
    If S. 2286 is enacted, the Lower Farmington River and Salmon Brook 
would be administered as a partnership wild and scenic river, similar 
to several other designations in the Northeast, including the upper 
Farmington River and the Eightmile River in Connecticut. This approach 
emphasizes local and state management solutions, and has proven 
effective as a means of protecting outstandingly remarkable natural, 
cultural and recreational resource values without the need for direct 
federal management or land acquisition.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                s. 2316
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 2316, a bill to designate the Salt Pond Visitor 
Center at Cape Cod National Seashore as the ``Thomas P. O'Neill, Jr. 
Salt Pond Visitor Center'', and for other purposes.
    The Department supports enactment of S. 2316.
    S. 2316 would recognize the contributions that former Speaker 
Thomas (Tip) P. O'Neill, Jr. made toward the protection of the Cape Cod 
National Seashore by naming the Salt Pond Visitor Center after him. In 
1958, Representative Tip O'Neill became one of the first members to 
support protection of lands on Cape Cod as a national seashore through 
introduction of legislation in the 85th Congress. This important 
legislation proposed establishing a 40-mile long national park so every 
American had the ability to enjoy the marshes, ponds, and wildlife, and 
pristine sandy beach of Cape Cod.
    Representative O'Neill continued these efforts by cosponsoring 
bills in the 86th and 87th Congress, testifying at hearings, and 
advocating for support of the legislation that led to Public Law 87-
126, which established Cape Cod National Seashore when it was signed 
into law by 2 President John F. Kennedy on August 7, 1961. Tip O'Neill 
publicly acknowledged that the legislation to establish the national 
seashore was a group effort and praised the commitment and the 
contributions of Rep. Edward Boland, Rep. James Burke, Rep. Hastings 
Keith and President Kennedy.
    The national seashore was formally established in 1966 and 
Representative O'Neill attended the May 30, 1966 dedication of the Salt 
Pond Visitor Center. Tip O'Neill, Jr. and his family maintained a home 
in Harwich Port, on Cape Cod and he was a frequent visitor to the 
national seashore during his tenure in Congress and during his 
retirement years.
    While the National Park Service Management Policies 2006 state that 
the National Park Service will discourage and curtail the use and 
proliferation of commemorative works, there are two exceptions. One is 
when Congress specifically authorizes an exception and the other is 
when there is a compelling justification for the recognition, there is 
a strong association between the park and the person being 
commemorated, and at least five years have elapsed since the death of 
the person.
    Tip O'Neill's more than fifty-year commitment to public service, 
including 34 years as a Member of Congress has made him an honored and 
esteemed friend to the mission of the National Park Service in 
preserving and protecting our nation's natural, historic, and cultural 
resources. We believe this legislation is an appropriate way to 
recognize Thomas P. O'Neill's role in protecting the national parks of 
Massachusetts and his relationship to Cape Cod National Seashore.
    Mr. Chairman this concludes my statement and I will be happy to 
answer any questions that members of the committee may have.
                                s. 2324
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2324, a bill to amend the Wild and Scenic Rivers Act to designate a 
segment of the Neches River in the State of Texas for potential 
addition to the National Wild and Scenic River System, and for other 
purposes.
    The Department supports S. 2324, with amendments. The river segment 
proposed for study exhibits the types of qualities and resource values 
that could make it a worthy and important candidate for potential 
addition to the National Wild and Scenic Rivers System. However, we 
believe priority should be given to the 36 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic Rivers System that have not yet 
been transmitted to Congress.
    This bill would designate a 225-mile segment of the main stem of 
the Neches River from the dam forming Lake Palestine in Anderson and 
Cherokee Counties, Texas, to the flood pool elevation of the B.A. 
Steinhagen Reservoir in Jasper and Tyler Counties, Texas, to be studied 
for potential addition to the National Wild and Scenic Rivers System. 
This portion of the Neches River retains much of its wild character, 
and is mostly in a free-flowing state. The upper Neches River corridor 
contains exceptional wildlife habitat and its location in the heart of 
the Central Flyway makes it a crucial migratory pathway for ducks, 
geese, and songbirds. While portions of the river's bottomland hardwood 
forests have produced timber for decades, they are among the least 
disturbed in Texas. This section of the Neches River also provides 
vital habitat for fish and other aquatic animals and supports high-
quality boating, fishing and a variety of outdoor recreational 
activities. Wild and Scenic River designation could support all these 
attributes.
    While the segment of the river that is proposed for study flows 
through the Neches River National Wildlife Refuge, the Angelina and 
Davey Crockett National Forests, and State-managed lands, much of this 
segment of the river runs through private lands. If this portion of the 
Neches River were designated as a Wild and Scenic River, a 
comprehensive management plan would be needed and would be developed as 
part of the study. Although the Wild and Scenic Rivers Act requires the 
development of a comprehensive river management plan within three years 
of the date of designation, it has become the practice of the National 
Park Service to prepare this plan as part of a study of potential wild 
and scenic rivers when much of the river runs through private lands. 
This allows the National Park Service to consult widely with local 
landowners, federal and state land management agencies, local 
governments, river authorities, and other groups that have interests 
related to the river prior to any recommendation for designation. Early 
preparation of the plan also assures input from these entities as well 
as users of the river on the management strategies that would be needed 
to protect the river's resources.
    We believe there is strong local support for protecting the river 
system and for studying the river for potential inclusion in the 
National Wild and Scenic Rivers System. Based on this local support and 
the presence of significant natural, cultural and recreational 
resources, the National Park Service believes that a Wild and Scenic 
River study conducted in close partnership with local communities and 
established partners is consistent with the purposes of the Wild and 
Scenic Rivers Act.
    We recommend amending the legislation by removing the provisions 
under Section 2 related to private property and recreation. It is 
premature to place restrictions on the ability of the National Park 
Service to administer the river before we have completed a study 
determining whether the river can meet the requirements for designation 
and before we have identified the types of preservation or management 
strategies that are necessary and appropriate to protect the river's 
resources. We would be happy to provide the Committee with suggested 
language for these amendments.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any additional questions you may have.
                                s. 2372
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2372, a bill entitled ``to authorize pedestrian 
and motorized vehicular access in Cape Hatteras National Seashore 
Recreational Area, and for other purposes.''
    The Department strongly opposes S. 2372. This bill would reinstate 
the 2007 Interim Protected Species Management Strategy (Interim 
Strategy) governing off-road vehicle (ORV) use at Cape Hatteras 
National Seashore (Seashore). In response to a lawsuit challenging its 
adequacy, the Interim Strategy was modified by a court-approved Consent 
Decree on April 30, 2008. The Seashore was managed under the Consent 
Decree through 2011. Meanwhile, the final ORV Management Plan / 
Environmental Impact Statement (EIS), and special regulation went into 
effect on February 15, 2012.
    The Department supports allowing appropriate public use and access 
at the Seashore to the greatest extent possible, while also ensuring 
protection for the Seashore's wildlife and providing a variety of 
visitor use experiences, minimizing conflicts among various users, and 
promoting the safety of all visitors. We strongly believe that the 
final ORV management plan and special regulation will accomplish these 
objectives far better than the defunct Interim Strategy.
    The final ORV management plan for the first time provides long-term 
guidance for the management of ORV use and the protection of affected 
wildlife species at the Seashore. The plan is designed to not only 
provide diverse visitor experience opportunities, manage ORV use in a 
manner appropriate to a unit of the National Park System, and provide a 
science-based approach to the conservation of protected wildlife 
species, but also to adapt to changing conditions over the life-span of 
the plan. It includes a five-year periodic review process that will 
enable the NPS to systematically evaluate the plan's effectiveness and 
make any necessary changes.
    The Seashore's dynamic coastal processes create important habitats, 
including breeding sites for many species of beach-nesting birds, among 
them the federally listed threatened piping plover, the state-listed 
threatened gull-billed tern, and a number of species of concern 
including the common tern, least tern, black skimmer, and the American 
oystercatcher. All of these species experienced declines in breeding 
population at Cape Hatteras over the 10-20 years prior to the 
implementation of the Consent Decree in 2008. For example, in 1989 the 
Seashore had 15 breeding pairs of piping plovers; and by 2001-2005, 
that number had dropped to only 2-3 pairs attempting to nest each year. 
The numbers of colonial waterbird nests within the Seashore also 
plummeted from 1,204 nests in 1999 to 320 nests in 2007.
    Under the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, and 
National Park Service (NPS) regulations and policies, the NPS has an 
affirmative responsibility to conserve and protect all of these 
species, as well as the other resources and values of the Seashore. 
Executive Order 11644 (1972), amended by Executive Order 11989 (1977), 
requires the NPS to issue regulations to designate specific trails and 
areas for ORV use based upon resource protection, visitor safety, and 
minimization of conflicts among uses of agency lands. The regulation 
that the NPS subsequently promulgated (36 C.F.R. Sec.  4.10) requires 
the NPS to designate any routes or areas for ORV use by special 
regulation and in compliance with Executive Order 11644.
    The special regulation that went into effect on February 15 brings 
the Seashore into compliance with that regulation and with the 
Executive Orders and other applicable laws and policies, after many 
years of non-compliance. In addition to resource impacts, the approved 
plan addresses past inconsistent management of ORV use, user conflicts, 
and safety concerns in a comprehensive and consistent manner.
    The Interim Strategy was never intended to be in place over the 
long-term. At the time it was developed, the Seashore had no consistent 
approach to species protection and no ORV management plan or special 
regulation in place. While the Interim Strategy took an initial step 
toward establishing a science-based approach, key elements such as 
buffer distances for American oystercatchers and colonial waterbirds, 
and the lack of night driving restrictions during sea turtle nesting 
season, were inconsistent with the best available science. The 2006 
USFWS biological opinion for the Interim Strategy indicated that it 
would cause adverse effects to federally listed species, but found no 
jeopardy to those species mainly because of the limited duration of 
implementation (expected to be no later than the end of 2009). 
Similarly, the 2007 NPS Finding of No Significant Impact (FONSI) for 
the Interim Strategy indicated the action had the potential to 
adversely impact federally listed species and state-listed species of 
concern, but found that a more detailed analysis (an EIS) was not 
needed because of the limited period of time that the Interim Strategy 
would be implemented.
    By contrast, the species-specific buffer distances and the night 
driving restrictions contained in both the Consent Decree and in the 
plan/EIS are based on scientific studies and peer-reviewed management 
guidelines such as the U.S. Fish and Wildlife Service (USFWS) Piping 
Plover and Loggerhead Turtle Recovery Plans, and the U.S. Geological 
Survey (USGS) Open-File Report 2009-1262 (also referred to as the 
``USGS protocols,'') on the management of species of special concern at 
the Seashore. Buffer distances for state-listed species are based on 
relevant scientific studies recommended by the North Carolina Wildlife 
Resources Commission, USFWS, and USGS.
    Although breeding success depends on a number of factors, with the 
measures in place under the Consent Decree, there has been a striking 
improvement in the condition of protected beach-nesting wildlife 
species. The Seashore has experienced a record number of piping plover 
pairs and fledged chicks, American oystercatcher fledged chicks, least 
tern nests, and improved nesting results for other species of colonial 
waterbirds. The number of sea turtle nests also significantly 
increased, from an annual average of 77.3 between 2000-2007 to an 
average of 129 between 2008-2011. These improvements occurred even 
though many miles of beach remained open, unaffected by species 
protection measures, and Seashore visitation numbers remained stable.
    During the preparation of the EIS for the management plan, the NPS 
evaluated the potential environmental impacts of long-term 
implementation of the Interim Strategy. The analysis determined that if 
the Interim Strategy were continued into the future, it would result in 
long-term, moderate to major adverse impacts to piping plovers, 
American oystercatchers, and colonial waterbirds, and long-term, major 
adverse impacts to sea turtles. Impacts to sea turtles and three 
species of colonial waterbirds had the potential to rise to the level 
of ``impairment,'' which would violate the National Park Service 
Organic Act.
    Because the number of nesting birds has increased significantly 
since 2007, if the Interim Strategy were to be reinstated, it could be 
counterproductive to visitor access. Many popular destinations, such as 
Cape Point and the inlet spits, would still experience resource 
protection closures, particularly when highly mobile piping plover and 
American oystercatcher chicks are present. Several of the beach-nesting 
bird species at the Seashore may renest several times during the same 
season if eggs or very young chicks are lost. Under the Consent Decree, 
with its science-based buffers, there has been a noticeable reduction 
in the number of renesting attempts for piping plovers and American 
oystercatchers, which means the duration of closures is typically 
shorter. No matter which management approach is in effect, the birds 
will continue to attempt to nest at these sites, even if resource 
protection is inadequate, because that is where the most suitable 
habitat is located. The Interim Strategy would allow a higher level of 
human disturbance in proximity to nests and chicks at these key sites, 
which increases the chances that nests and young chicks will be lost, 
which in turn increases the likelihood that birds will renest one or 
more time at those sites. This could extend the length of time that any 
particular site would be closed due to breeding activity, even if the 
apparent size of the closure is smaller than that under the ORV plan or 
Consent Decree.
    In addition to reinstating the Interim Strategy, S. 2372 provides 
authority for additional restrictions only for species listed as 
``endangered'' under the Endangered Species Act of 1973, and only for 
the shortest possible time and on the smallest possible portions of the 
Seashore. This would conflict with numerous other laws and mandates 
including the National Park Service Organic Act, the Migratory Bird 
Treaty Act, the Seashore's enabling act, the aforementioned Executive 
Orders, and NPS regulations implementing these laws, which provide for 
the protection of other migratory bird species and other park 
resources.
    S. 2372 also provides that the protection of endangered species at 
Cape Hatteras shall not be greater than the restrictions in effect for 
that species at any other national seashore. Species protection 
measures cannot reasonably be compared from seashore to seashore 
without considering the specific circumstances at each site and the 
context provided by the number and variety of protected species 
involved, the levels of ORV use, and the underlying restrictions 
provided by the respective ORV management plans and special 
regulations. Even though Cape Hatteras has a wider variety of beach 
nesting wildlife species than Cape Cod or Assateague, for example, its 
plan actually allows for a much higher level of ORV use on larger 
portions of the Seashore. It would be neither reasonable nor 
biologically sound for Cape Hatteras to use less protective measures if 
they were designed for a location where the level of ORV use is much 
lower to begin with. Nor does it appear that such an arbitrary approach 
could possibly comply with the ``peer-reviewed science'' requirement 
imposed elsewhere in the bill. The Cape Hatteras plan was specifically 
designed to be effective for the circumstances at Cape Hatteras.
    The bill would require, to the maximum extent possible, that 
pedestrian and vehicle access corridors be provided around closures 
implemented to protect wildlife nesting areas. This concept was 
thoroughly considered during the preparation of the plan and EIS. The 
plan already allows for such access corridors when not in conflict with 
species protection measures. But because of the Seashore's typically 
narrow beaches, and the concentrations of nests at the best available 
habitat near the inlets and Cape Point, nesting areas are often close 
to the shoreline, and access corridors cannot always be allowed without 
defeating the fundamental purpose of such closures, which is to protect 
beach-nesting wildlife. Several species of shorebirds that nest at the 
Seashore have highly mobile chicks, which can move considerable 
distances from nests to foraging sites. Inadequate resource closures in 
the past have resulted in documented cases of human-caused loss or 
abandonment of nests and chick fatalities. Corridors that cut through a 
resource closure area would essentially undermine the function of the 
closure and render it compromised or even useless.
    Finally, the final ORV management plan/EIS and special regulation, 
are the products of an intensive five-year long planning process that 
included a high level of public participation through both the National 
Environmental Policy Act (NEPA) process and negotiated rulemaking, 
including four rounds of public comment opportunities. The NPS received 
more than 15,000 individual comments on the draft plan/EIS and more 
than 21,000 individual comments on the proposed special regulation. In 
completing the final ORV management plan/EIS and special regulation, 
the NPS considered all comments, weighed competing interests and 
ensured compliance with all applicable laws.
    Mr. Chairman, that concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
                                s. 3078
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
3078, a bill which directs the Secretary of the Interior to install in 
the area of the World War II Memorial in the District of Columbia a 
suitable plaque or an inscription with the words that President 
Franklin Delano Roosevelt prayed with the United States on June 6, 
1944, the morning of D-Day.
    The Department appreciates the importance of faith in the lives of 
Americans across this country, the leadership of President Roosevelt, 
and the courage and sacrifices of Americans during World War II and 
today. The World War II Memorial recognizes a period of unprecedented 
national unity during the defining moment of the twentieth century, and 
is devoted to the service, commitment, and shared sacrifice of 
Americans.
    The Department appreciates the efforts by the sponsor, Senator Rob 
Portman, to work with the National Park Service (NPS) on this 
legislation. S. 3078 proposes adding a commemorative work in the area 
of the existing World War II Memorial. We support the continued 
application of the Commemorative Works Act (CWA). Section 2 of this 
bill states that the Secretary of the Interior shall design, procure, 
prepare and install the plaque or inscription, thus allowing the NPS to 
determine the placement and design of the plaque. However, Section 3 of 
the bill requires a different method of designing and locating the 
memorial through the CWA. The CWA process incorporates important design 
reviews and public consultation. We support retaining the CWA as the 
vehicle for siting and designing this plaque.
    The World War II Memorial was authorized on May 23, 1993, by Public 
Law 103-32. In 1994, Congress approved its placement in the area 
containing the National Mall in Public Law 103-422. Its location at the 
site of the Rainbow Pool was approved in 1995 by the NPS on behalf of 
the Secretary of the Interior, the Commission of Fine Arts (CFA), and 
the National Capital Planning Commission (NCPC). In July 1997, the CFA 
and the NCPC reaffirmed prior approvals of the Rainbow Pool site in 
recognition of the significance of World War II as the single-most 
defining event of the 20th Century for Americans and the world. Even 
so, there were challenges to the establishment of this memorial. The 
design we see today was painstakingly arrived upon after years of 
public deliberations and spirited public debate.
    The National Capital Memorial Advisory Commission (NCMAC) reviewed 
a proposal similar to the one before the Committee today at its meeting 
on September 14, 2011, and determined that no additional elements 
should be inserted into this carefully designed Memorial. The American 
Battle Monuments Commission (ABMC), charged by the Congress in Public 
Law 103-32 to design and build the World War II Memorial, is 
represented on the NCMAC, and thus concurred with that determination.
    If directed by Congress pursuant to this legislation, the NPS will 
work to find an appropriate location for the plaque in accordance with 
the CWA process, as directed in Section 3 of this legislation.
    That concludes our prepared testimony on S. 3078, and we would be 
happy to answer any questions you may have.
                                s. 3300
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 3300, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, Tennessee, Los 
Alamos, New Mexico, and Hanford, Washington, and for other purposes.
    The Administration supports S. 3300. The development of the atomic 
bomb through the Manhattan Project was one of the most transformative 
events in our nation's history: it ushered in the atomic age, changed 
the role of the United States in the world community, and set the stage 
for the Cold War. This legislation would enable the National Park 
Service to work in partnership with Department of Energy to ensure the 
preservation of key resources associated with the Manhattan Project and 
to increase public awareness and understanding of this consequential 
effort.
    S. 3300 would require the establishment of the Manhattan Project 
National Historical Park as a unit of the National Park System within 
one year of enactment, during which time the Secretary of the Interior 
and the Secretary of Energy would enter into an agreement on the 
respective roles of the two departments. The unit would consist of one 
or more named resources located in Oak Ridge, Los Alamos, or Hanford. 
The National Historical Park would be established by the Secretary of 
the Interior by publication of a Federal Register notice within 30 days 
after the agreement is made between the two secretaries.
    The bill would authorize the Secretary of the Interior to acquire 
the named resources in Oak Ridge, Los Alamos, or Hanford. It would also 
allow the Secretary to acquire land in the vicinity of the park for 
visitor and administrative facilities. The bill would provide authority 
for the Secretary to enter into agreements with other Federal agencies 
to provide public access to, and management, interpretation, and 
historic preservation of, historically significant resources associated 
with the Manhattan Project; to provide technical assistance for 
Manhattan Project resources not included within the park; and to enter 
into cooperative agreements and accept donations related to park 
purposes. The Secretary of Energy would be authorized to accept 
donations to help preserve and provide access to Manhattan Project 
resources.
    S. 3300 is based on the recommendations developed through the 
special resource study for the Manhattan Project Sites that was 
authorized by Congress in 2004 and transmitted to Congress in July 
2011. The study, which was conducted by the National Park Service in 
consultation with the Department of Energy, determined that resources 
at Oak Ridge, Los Alamos, and Hanford, met the National Park Service's 
criteria of national significance, suitability, feasibility, and the 
need for Federal management for designation as a unit of the National 
Park System. S. 3300 assigns the respective roles and responsibilities 
of the National Park Service and the Department of Energy as envisioned 
in the study: the National Park Service would use its expertise in the 
areas of interpretation and education to increase public awareness and 
understanding of the story, while the Department of Energy would 
maintain full responsibility for operations, maintenance, and 
preservation of historic Manhattan Project properties already under its 
jurisdiction, along with full responsibility for any environmental and 
safety hazards related to the properties.
    Because the Department of Energy would maintain and operate the 
primary facilities associated with the Manhattan Project National 
Historical Park, the study estimated that the National Park Service's 
annual operation and maintenance costs for the three sites together 
would range from $2.45 million to $4 million. It also estimated that 
completing the General Management Plan for the park would cost an 
estimated $750,000. Costs of acquiring lands or interests in land, or 
developing facilities, would be estimated during the development of the 
General Management Plan. The Department of Energy has not yet assessed 
fully the operational difficulties in terms of security and public 
health and safety, applicable statutory and regulatory requirements, 
and the potential new cost of national park designation at the 
sensitive national security and cleanup sites.
    The Department anticipates that the initial agreement between the 
two departments likely would be fairly limited in scope, given the 
bill's one-year timeframe for executing an agreement that would enable 
the Secretary of the Interior to establish the Manhattan Project 
National Historical Park. We appreciate the language specifically 
providing for amendments to the agreement and a broad range of 
authorities for the Secretary of the Interior, as these provisions 
would give the National Park Service the flexibility to shape the park 
over time and to maximize the promotion of education and interpretation 
related to the park's purpose.
    The flexibility is particularly important because managing a park 
with such complex resources, in partnership with another Federal 
agency, at three sites across the country, will likely bring 
unanticipated challenges. Fortunately, we have already begun a 
partnership with the Department of Energy regarding the Manhattan 
Project resources through our coordinated work on the study. If this 
legislation is enacted, we look forward to building a stronger 
partnership that will enable us to meet the challenges ahead.
    While we support S. 3300, there are some areas where we would like 
to recommend amendments, and we are continuing to review the bill for 
any technical issues. We would be happy to work with the committee to 
develop the appropriate language and will provide our recommendations 
in the near future.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you may have.

    The Chairman. Thank you very much.
    Ms. Kolb, go right ahead.

STATEMENT OF INGRID KOLB, DIRECTOR OF THE OFFICE OF MANAGEMENT, 
                      DEPARTMENT OF ENERGY

    Ms. Kolb. Thanks.
    Mr. Chairman and members of the subcommittee, my name is 
Ingrid Kolb. I serve as the Director of the Office of 
Management at the U.S. Department of Energy. One of the primary 
responsibilities of my organization is to ensure that the 
cultural resources and historic preservation activities across 
the Department are coordinated.
    We are also the office that's leading the effort to 
coordinate with the National Park Service on the proposed 
Manhattan Project National Historical Park. I'm very pleased to 
be here today to discuss the proposed park and the proposed S. 
3300.
    The Manhattan Project National Park Study Act, Public Law 
108-340 directed the Secretary of the Interior, in consultation 
with the Department of Energy, to conduct a special resource 
study to determine the flexibility of designating one or more 
Manhattan Project sites as a unit of the National Park Service. 
A park, the legislation noted, would have to be compatible with 
maintaining the security, productivity and management goals of 
the Department of Energy as well as public health, safety and 
security.
    In preparing the study the Department's Office of 
Management was an active partner with the National Park Service 
and our staff fully participated by providing information, 
input, advice and comments. Following public meetings, 
extensive assessments of potential Park boundaries and 
assessments of the integrity of the historical resources, the 
Department and the National Park Service agreed that a park was 
feasible, that it met the suitability requirements for creating 
a new park and that it should be established.
    In October 2010 the National Park Service Director, 
Jonathan Jarvis, concurred on the study which contained a 
recommendation for a 3 site park at Oak Ridge, Tennessee, 
Hanford, Washington and Los Alamos, New Mexico. The Department 
of Energy would continue to manage and maintain its properties 
and control access to them and ensure safety and security. The 
National Park Service would provide interpretation, consult 
with the Department on preservation issues and establish 
visitor center and station rangers within the 3 communities.
    In March 2011, Deputy Secretary of Energy, Dan Poneman, 
concurred on the findings of the study and provided assurances 
to the National Park Service that the Department would retain 
full access control to its properties in accordance with its 
mission and security requirements.
    In a letter to the Park Service the Deputy Secretary wrote 
and I quote. ``We look forward to collaborating with the 
National Park Service should Congress pass legislation 
establishing a Manhattan Project Park.'' He also noted that the 
Department of Energy is proud of its Manhattan Project heritage 
and recognizes that this partnership with the National Park 
Service would bring one of the most significant events in the 
20th Century to a wider public audience.
    In July 2011, the Secretary of the Interior, along with the 
Department of Energy's concurrence, submitted a letter to the 
Congress recommending the establishment of the Manhattan 
Project National Historic Park. The establishment of this park 
will represent a new era for the Department of Energy 
particularly in certain areas of our sites that have been 
largely off limits to the public to date due to national 
security concerns and potential impacts to our ongoing 
missions. The Department has not yet assessed fully the 
operational difficulties in terms of security and public health 
and safety and applicable statutory and regulatory requirements 
and the potential new costs of such a park.
    However, the proposed legislation, we believe, would 
provide the Department and the Department of the Interior with 
the necessary flexibility to establish timelines, boundaries 
and a suitable management plan for establishing the park. We 
welcome the leadership, Mr. Chairman, that you have shown in 
this area and the subcommittee in telling the important story 
of the Manhattan Project. We look forward to working with you 
and the Subcommittee as this legislation advances.
    That concludes my testimony. I'm happy to answer any 
questions you may have.
    [The prepared statement of Ms. Kolb follows:]

  Prepared Statement of Ingrid Kolb, Director, Office of Management, 
                          Department of Energy
    Mr. Chairman and Members of the Subcommittee, my name is Ingrid 
Kolb. I serve as the Director, Office of Management at the U.S. 
Department of Energy. As part of our programmatic responsibilities, the 
Office of Management coordinates cultural resources and historic 
preservation activities across the Department and is the lead office 
coordinating DOE participation in the proposed Manhattan Project 
National Historical Park. I am pleased to be here today to discuss the 
proposed park and S. 3300, a bill to establish the Manhattan Project 
National Historical Park.
    The Manhattan Project National Park Study Act, Public Law 108-340, 
directed the Secretary of the Interior, in consultation with the 
Secretary of Energy, to conduct a special resource study to determine 
the feasibility of designating one or more Manhattan Project sites as a 
unit of the National Park Service. A park, the legislation noted, would 
have to be compatible with ``maintaining the security, productivity, 
and management goals of the Department of Energy,'' as well as public 
health and safety. In preparing the study, the Department's Office of 
Management was an active partner with the National Park Service, and 
its staff participated fully, providing information, input, and 
comments.
    Following public meetings at the sites, extensive assessments of 
potential park boundaries and integrity of historical resources, the 
Department and the National Park Service agreed that a park was 
feasible, met the suitability requirement for creating a new park, and 
should be established. In October 2010, National Park Service Director 
concurred on the study, which contained the recommendation for a three-
site park in Oak Ridge Tennessee, Hanford, Washington, and Los Alamos, 
New Mexico, in partnership with the Department of Energy. The 
Department of Energy would continue to manage and maintain its 
properties and control access to them. The National Park Service would 
provide interpretation, consult with the Department on preservation 
issues, and establish a visitor center and station rangers in each of 
the three communities. In March 2011, Deputy Secretary of Energy 
concurred on the findings of the study and provided assurances to the 
National Park Service that the Department would retain full access 
control to its properties in accordance with its missions and security 
requirements. ``The Department of Energy is proud of its Manhattan 
Project heritage and recognizes that this partnership with the National 
Park Service would bring one of the most significant events in 20th 
century America to a wider public audience.''
    The establishment of a National Historical Park will represent a 
new era for the Department of Energy, particularly in certain areas of 
our sites that have been largely off-limits to the public to date due 
to national security concerns and potential impacts to our ongoing 
missions. The Department has not yet assessed fully the operational 
difficulties in terms of security and public health and safety, 
applicable statutory and regulatory requirements, and the potential new 
cost of national park designation at our sensitive national security 
and cleanup sites. The proposed legislation, S. 3300, would give the 
Department of Energy and Department of the Interior the flexibility to 
establish the timeline, boundaries, and a suitable management plan for 
a National Historical Park that would allow us to ensure the 
continuance of public safety, national security, and the ongoing 
missions at our sites. We welcome the leadership of Chairman Bingaman 
and the National Parks Subcommittee in telling this important story, 
and we look forward to working with you as this legislation advances.
    Again, thank you for this opportunity to testify before the 
Subcommittee. This completes my prepared statement. I would be happy to 
answer any questions you may have.

    The Chairman. Thank you very much. Let me just indicate for 
the record we have various statements. Senator Alexander has a 
statement that he would like included in the record related to 
S. 3300.
    Senator Hutchison has a statement to include in the record 
related to S. 2324.
    Senator Lieberman has a statement related to S. 2286 that 
he would like included in the record.
    With regard to S. 3300 we also have statements for the 
record from the Atomic Heritage Foundation, the Los Alamos 
Historical Society and the National Park's Conservation 
Association.
    So we'll include all of those items in the record.
    The Chairman. Let me ask a few questions.
    Maybe you're the right one, Ms. Kolb, to answer this. I 
would assume that if the Park Service goes ahead with this park 
at these 3 Department of Energy sites, there's going to be a 
lot of increased visitation to those locations.
    How does this square, as you understand it, is that going 
to be the problem with the Park Service? Is that going to be 
the problem of the Department of Energy? Who--how does that all 
work?
    Ms. Kolb. First of all we hope that there is an increase in 
visitation. That is our expectation. We will work in 
partnership with the National Park Service.
    We have been doing so for the past couple of years as we 
conducted the study. We certainly will continue that 
relationship in developing the management plan. As we operate 
the National Park, if one is established.
    One of the things that I want to emphasize is that while 
we're really hoping to provide additional public access--and we 
are certain that the public will be interested in visiting 
these sites--we do, at the Department of Energy, need to make 
certain that we maintain security and that we maintain safety 
protocols. We have very rigorous safety protocols and security 
protocols, as you know. We are absolutely committed to 
maintaining those regardless to the amount of public access 
that is available.
    The Chairman. Did you have any thoughts about that, Mr. 
Frost?
    Mr. Frost. I would just echo Ms. Kolb's comments that we 
anticipate that visitation would increase and that the 
protocols that the Department of Energy have in place would be 
retained. It would be their responsibility to make sure that 
the security and the safety and all those things are taken care 
of in an appropriate manner, while we use our expertise which 
is the interpretation part, talking, telling the stories and 
interpreting the site and helping with the Department of Energy 
on the restoration of the buildings and things like that.
    The Chairman. Let me ask on another one of these bills, S. 
2229, Glacier National Park Pipeline. As I understand it this 
is a pipeline that is operating today, has been for a long 
time. Renewal for the operation and maintenance of the pipeline 
was sought in 1990, but now we're just considering legislation 
that would actually provide the authority to do that.
    So I guess I'm just trying to understand how this pipeline 
has continued to operate and be maintained and why it's taken 
so long to get to this point.
    Mr. Frost.
    Mr. Frost. I can give you a little history. I don't know if 
I can tell you why it's taken so long to get here. But I can, 
at least, give a little bit of history.
    The pipeline was initially authorized by the superintendent 
of the park. He's not around anymore. But we think that he 
didn't realize that he didn't have the authority to authorize 
it. But he authorized it anyway and the pipeline went in.
    Over the course of several years the right of way was 
renewed by the park assuming that it had the authority to do 
so. It wasn't until 1990 that the current superintendent 
started to look into the situation and got a solicitor's 
opinion. The solicitors told him that we didn't have the 
authority to actually have the pipeline in the park.
    At the same time, the solicitors also authorized it because 
the pipeline had been established. It had been operating. If we 
would have said you've got to take the pipeline out, it would 
have caused some pretty dire straits in the city of Kalispell. 
But the solicitor felt that in his opinion we could go ahead 
and continue the use of the pipeline until we got the proper 
legislation in place.
    So here we are trying to get the legislation in place so 
that we can get our ducks in a row and get back on track.
    The Chairman. Let me ask also, Mr. Frost, about S. 2372, 
the Cape Hatteras Off Road Vehicle legislation. Is it true that 
the Park Service is required to complete a rulemaking to allow 
off road vehicles at Cape Hatteras in order to be in compliance 
with Executive Orders and applicable laws?
    How does this relate to those Executive Orders? I'm just 
unclear as to why we're doing this legislation.
    Mr. Frost. I don't have the Executive Order number off the 
top of my head. But the Executive Order basically prohibited 
the use of ORVs in National Park units unless there was a 
special regulation promulgated. It said that we had to do 
regulations to have ORV use.
    The Park Service promulgated a general regulation that 
stated that ORV use is prohibited unless a special regulation 
is enacted to allow some level of use. The Park has been, 
again, like in Glacier, out of compliance for a number of years 
with the Park Service general regulation. We have been allowing 
the ORV use pretty much unfettered at Cape Hatteras.
    It's taken a series of years to try and get this special 
regulation in place. We went through a 5-year NEPA process and 
negotiated rulemaking process to work with the community, to 
come up with a plan. The opinions are all over the board both 
for and against for what level of use should occur.
    We think we've struck somewhat of a middle place where we 
can still allow a high amount of ORV use, but at the same time 
protect the species and the resources that we're required to 
protect through our organic legislation and the Endangered 
Species Act and other regulatory vehicles.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Frost, in looking at your testimony on S. 2316, this is 
the renaming of the Salt Pond Visitor Center, Cape Cod, after 
Tip O'Neill. In that case the National Park Service actually 
states that they support the bill.
    You state that one of the 2 circumstances that allows the 
Park Service to come out in favor of a bill is when there is a 
strong association between the park and the person being 
commemorated and at least 5 years have elapsed since the death 
of that person. Clearly that fits the case with Speaker 
O'Neill.
    It's also the case then, with Walter Harper, the person in 
my bill, S. 2273, that we're going to propose to name the 
Talkeetna Ranger Station for.
    So the question to you is you've got an official position 
taken by the Park Service with my legislation of no objection. 
But yet, with S. 2316 you are actually coming out and saying 
that you support the bill.
    What's the difference between the two? Why is mine, no 
objection, when the other which is based on the same 
circumstances, as best I can tell, a support?
    Mr. Frost. Yes. You're absolutely right in terms of the 
criteria that we use to designate or to name buildings. At the 
Cape Cod Visitor Center, Congressman O'Neill was very actively 
engaged in the development of the legislation. He had a second 
house on the Cape. He spent a lot of time there. He was 
directly involved in the creation of Cape Cod National 
Seashore.
    The difference between there and the Talkeetna Ranger 
Station is while the gentleman that it is proposed to be named 
for was the first person to summit Denali, it happened before 
the Park was established. It wasn't a Park Service site. So 
there was no relation to the Park Service per se.
    He had a direct connection to the mountain, absolutely. 
That feat should be recognized. There's no doubt about it and 
that the ranger station is a building, as you stated in your 
opening comments, where people have to go to get permits and 
things like that.
    The individual had no direct relationship with that area 
specifically other than summiting the mountain. So it's a 
subtle difference. But that's the objection that we had.
    Senator Murkowski. It is a subtle difference. I certainly 
hope that the difference is not that in order to have the 
support from the Park Service you actually have had to have 
been a legislator, who affected that change. Because if that's 
the case, that's not a very good standard.
    Mr. Frost. No, I don't think that's the case.
    Senator Murkowski. OK. Alright.
    I will accept the fact that there is a subtle distinction. 
I interpret that to mean that Mr. Harper, when he summated was 
before we actually had a National Park. I will accept that.
    But I think we should be careful about inferring that 
you've got to be a Senator, a Congressman, in order to gain the 
support for naming legislation.
    Let me ask you about maintenance backlog because this is an 
important issue for us. I'm on the Appropriations Committee. We 
look very carefully at where the National Park Service is with 
its maintenance backlog, about $11 billion in backlog.
    But a number of the bills that are in front of the 
subcommittee today, they've got the support of the Park Service 
despite the fact that they expand existing units or they create 
new units which would increase Park Service liabilities and 
responsibilities. So the question to you is at a time when the 
Park Service is having a difficult time keeping up with the 
property that it currently, well, owns, do you think that it's 
sound investment for Park Service to acquire more land? Many 
make the case that it's pretty common sense that we don't buy 
more property when we can't afford to maintain that which we 
already have.
    So if you could address that.
    Mr. Frost. Sure. I think that you're absolutely right. We 
do have a very high maintenance backlog. There's no doubt about 
it.
    But I think the question is, are there still areas that 
have national significance that the country and the Congress 
think are important and need to be designated as National 
Parks? That's the crux of the question. We think that there are 
other places that deserve national recognition as a unit of the 
National Park System. As the list of bills shows, it appears 
that Congress also feels that way because we continue to have 
new sites suggested to us.
    So we need to continue to work on the backlog. We are. 
We're putting high priority on the maintenance backlog. We're 
knocking that down little by little, obviously not as fast as 
we'd like.
    But at the same time, do we throw everything else out just 
to deal with the maintenance backlog and not establish new 
sites or not do the level of interpretation we should do or not 
protect the resources at the level we use to at the expense of 
the maintenance backlog or do we weigh those different 
priorities and try and make the best decisions that we can.
    Senator Murkowski. I appreciate that it is absolutely a 
balancing that goes on. But I'm concerned that we may actually 
be putting some maintenance projects on hold as we bring in new 
units as we see an expansion. You know, that's not fair to the 
existing parks that we have.
    It's something that we need to be working on. Perhaps if 
you have any ideas as we look at it from an appropriations 
perspective. If there are projects that need to be put on hold 
because we're going to be advancing some new ones, if you have 
any kind of a list, I'd be happy if you would share that with 
me.
    Mr. Frost. I will surely go back and have that discussion 
with our Director and our Comptroller and our facilities folks 
and see what we can come up with.
    Senator Murkowski. Good. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman. Thank both of you 
and sorry if you feel like we're skipping over you, Ms. Kolb. 
But I think we're getting on Mr. Frost pretty good here.
    Ms. Kolb. That's OK.
    [Laughter.]
    Senator Manchin. You don't mind at all, do you?
    Let me just say very quickly that my concern is with S. 
2372. An awful lot of West Virginians have been going for 
generations down to the Cape. That's their vacation.
    That's where they love to go. That's where they've been 
migrating to for many, many years. They're very, very concerned 
about the rule or the way that you all have implied and stop 
the things that they have done for so long and basically put 
off limits some of the areas that most prestigious off shore--
or the shore fishing, if you will.
    With that the 23--in 2007 there was a decree that, the 
final consent decree, of an ORV plan which was tough 
compromise, I understand. I know you've talked about that 
things have changed and there was a lawsuit. Now you're 
absolutely opposed to 2372.
    Sir, I've been in that area quite a few times. The majority 
of the people that live there that are affected are totally in 
support of S. 2372. As a matter of fact, that's why there is a 
S. 2372. Most of the protests and lawsuits are coming from 
people that don't even live there.
    Is that correct?
    Is it fair?
    Mr. Frost. I don't know if I know that as a fact.
    Senator Manchin. You've been in public hearings down there, 
sir. You all know that.
    Mr. Frost. Let me tell you what I do know. Through the 
negotiated rulemaking process and through the NEPA process, we 
got--I don't have the number right off the top of my head, but 
it's around 50,000 comments. As a result of that--and as we all 
know NEPA is not----
    Senator Manchin. Look at the comments. Look where they come 
from.
    Mr. Frost. They came from all over. That's a good point 
though because this is a National Seashore.
    Senator Manchin. Right.
    Mr. Frost. We understand that the rule will have an effect.
    Senator Manchin. Let me read one thing to you.
    Mr. Frost. OK.
    Senator Manchin. This Administration has been tallying its 
America's Great Outdoors Initiative which promotes increasing 
public access to outdoor opportunities and reconnecting 
Americans with our public lands. How are the restrictions 
currently in place at Cape Hatteras compatible with the 
Administration's mission to increase public access for the 
sportsmen? It sure is taking away what they've done for years.
    The only alternative we have is the pass S. 2372 to try to 
create the balance that you all found in 2007 when you 
negotiated it.
    Mr. Frost. The 2007----
    Senator Manchin. Now since you've got a lawsuit, you said, 
well, we'll just really stick it to them now.
    Mr. Frost. I think that the 2007 Consent Decree was a 
result of a lawsuit. The rulemaking was a process that was in 
place before the lawsuit ever took place.
    Senator Manchin. Then you should support, since you all 
negotiated 2007, that's what we're working with on S. 2372. You 
all should support this approach to get back to where there's a 
balance.
    Mr. Frost. I understand.
    Senator Manchin. You're taking the most stringent approach 
right now saying that you all, basically, are totally opposed 
to S. 2372. That means you never did agree with your 2007 
negotiated proposal.
    Mr. Frost. So there were a couple steps. There were the 
interim guidelines that were in place when we began the 
negotiated rulemaking process and the NEPA process.
    Then, as the negotiated rulemaking process sort of fell 
apart, there was a lawsuit. We get the consent decree from the 
court.
    Those were the guidelines that we were using while we 
finished the NEPA process and we finished the NEPA process in 
late 2011.
    Then we completed the final rule in 2012.
    Both pieces of legislation, both the House bill and the 
Senate bill have been introduced subsequent to the final 
rulemaking.
    So the chronology is a little bit off, but it's----
    Senator Manchin. Don't you all take into consideration the 
people that live there, the livelihood that comes from it. 
They've had 15 to 50 percent reduction in business, employment, 
creating tremendous hardships. They're willing to meet the 
decree that you all negotiated.
    We've got no alternative but to pass this. It's the only 
way to put balance back in so the people have a chance to 
survive there.
    Mr. Frost. We, again, we feel that through the NEPA process 
and through the rulemaking process that we've reached out to 
the local community and to the other communities.
    Senator Manchin. You think the local community is happy 
with what you've done?
    Mr. Frost. I would say some people are but----
    Senator Manchin. Do you want the majority of people to 
come? We can bring them all probably.
    [Laughter.]
    Senator Manchin. Sir, it's unbelievable the hardship you're 
placing. That's not government's role. We're supposed to be a 
partnership, an ally, not an adversary and an enemy. That's 
what we've ended up being down there with this, with the way 
you all handled yourself.
    I'm sorry to say that, but it really is.
    Thank you. My time is up.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
having this hearing. It's been great to work with you and 
Representative Hastings in the House for some time on these 
critical Manhattan Projects and making sure that they're 
preserved and made accessible to the public. So thank you for 
that.
    I know that in many cases our communities have been working 
on this for an even longer period of time, trying to make sure 
that the history is preserved and the scientific work that's 
been done is recognized. I know for us in the Northwest, with 
the B Reactor at the Hanford site, we've had over 20,000 
visitors since 2009; and I think something like 10,000 people 
just in this past year. So the region really does see this as a 
very big potential for attracting visitors and impacting our 
local economy with people spending more dollars. Elevating the 
reactor from a National Historic Landmark to National Park 
status will take that to the next level.
    So I know Chairman Bingaman asked a question about 
visitation related to security. But I'd like to know if, Mr. 
Frost, you believe that the B Reactor--as part of a National 
Historic Park System, once it's finalized--will experience 
increase visitation? How do you look at that? How do you 
understand how designation impacts visitation, and what do you 
expect from this park?
    Mr. Frost. Yes, I don't think we have any really hard 
numbers in terms of that. We do anticipate that visitation 
would increase by bringing that higher visibility to not only 
Hanford, but also Los Alamos and Oak Ridge.
    People are going to want to understand what this was all 
about, why we did what we did, how the technology improved over 
time, and how the technology helped us to eventually get to 
where we did.
    So there's no doubt in our minds that we think visitation 
will increase and the curiosity of the public will be, 
hopefully, satisfied.
    Senator Cantwell. So either to you or Ms. Kolb, the 
legislation provides for 1 year for the Department of Energy 
and National Park Service to enter an agreement in the 
respective administrative roles. Are your Departments committed 
to meeting that deadline?
    Ms. Kolb. Yes, absolutely. We would be committed to meeting 
that deadline. We have had some discussions about this. It may 
be that we need more time to make sure that, you know, we have 
a thorough agreement in place. That's something that we can 
talk with the Subcommittee about as we move forward.
    But absolutely, if the 1-year deadline is what's in the 
legislation that is what we will follow.
    Senator Cantwell. The bill also requires a management plan 
to be developed within 3 years of receiving funding. Do you 
think your agencies would take that long or do you think 
there's more interim work?
    Ms. Kolb. Three years certainly we believe is appropriate. 
Our goal would, of course, be to complete it sooner than that. 
But we may need the 3 years given the fact that we're talking 
about 3 different sites. We're talking about a lot of security 
and safety issues.
    So we want to make sure that as we stand up this park it is 
all done correctly keeping in mind the safety and security and 
the fact that the Department of Energy has an ongoing mission 
at many of these facilities that would be involved.
    Senator Cantwell. The land will remain under DOE right?
    Ms. Kolb. Yes, most of it would be. But some of the sites 
that are contemplated are privately owned.
    Senator Cantwell. OK.
    Is there anything that's changed between the reports? I 
know all 3 sites were recommended for inclusion as part of the 
Manhattan Project Historical Park.
    Ms. Kolb. Yes.
    Senator Cantwell. So is there anything that's?
    Ms. Kolb. Yes, that is right. All 3 of these sites were 
recommended.
    Senator Cantwell. OK.
    Ms. Kolb. Which is consistent with the proposed 
legislation.
    Senator Cantwell. OK.
    Is there anything that's going to be done to try to promote 
them in a conglomerate way? I mean, obviously, these individual 
States feel like there are very, very important stories to be 
told here; but is there a way that all of that is pulled 
together?
    Ms. Kolb. It would be pulled together. I think that we 
would be working with the National Park Service on that. But it 
would be one park, just at 3 different locations. At least 
that's the vision that we have at this time.
    Certainly we would present it as one story because the 
reason we would have the 3 sites is all 3 were integral to the 
Manhattan Project. You can't just pull one out, so all 3 would 
be presented as a whole. What we would envision is at Hanford, 
for example, we would also be talking about the story at Los 
Alamos and Oak Ridge and vice versa for all 3 of the sites.
    So that the people understand the connection.
    Senator Cantwell. I hope we certainly can meet these 
deadlines. There is a lot of information there, in individuals 
who still remain in the area, who were part of the project and 
know a lot about what transpired during that time period. So I 
hope we can capture much of that.
    Ms. Kolb. Yes, absolutely. We want to tap into that 
knowledge.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Corker.
    Senator Corker. I have no questions at this point.
    The Chairman. Alright. We thank both of you very much for 
your testimony.
    Why don't we go ahead with the second panel. I'll introduce 
them.
    The first is the Honorable Thomas L. Beehan, who is the 
Mayor of the city of Oak Ridge, also Chairman of the Energy 
Communities Alliance in Oak Ridge, Tennessee.
    The second witness is the Honorable Warren Judge, Chairman 
of the Dare County, North Carolina Board of Commissioners from 
Manteo, North Carolina.
    Third is Mr. Derb S. Carter, Jr., who is Director of the 
Carolinas Office in the Southern Environmental Law Center in 
Chapel Hill, North Carolina.
    Thank you all for being here.
    Oh, OK. Senator Corker wanted to make a statement at this 
point before we start hearing your testimonies. So go right 
ahead.
    Senator Corker. Thank you, Mr. Chairman. As usual I'll be 
very brief.
    But I wanted to welcome Mayor Beehan. He is someone who 
serves as the leader of Oak Ridge as Mayor but he's done so 
through much civic activity, somebody that for years and years 
and years has promoted the area. He's risen to the place that 
he is just out of the deep respect that people have for the 
many efforts that he's been involved in.
    He's someone that I greatly respect. I'm glad he's here in 
the U.S. Senate giving testimony. I assure you that what he 
says you can bank on.
    I just want to welcome him here. I'm glad to be a part of 
this. Again, I'll be brief and turn it back over to you. But 
thank you very much.
    Thank you, sir.
    The Chairman. Thank you very much for that high 
recommendation.
    Mr. Mayor, why don't you start? As I indicated before, 
we'll take your full written statement and put it in the 
record. So if you could just make the main points you think we 
need to understand we'll hear from each of you and then have a 
few questions.

 STATEMENT OF THOMAS L. BEEHAN, MAYOR, CITY OF OAK RIDGE, AND 
      CHAIRMAN, ENERGY COMMUNITIES ALLIANCE, OAK RIDGE, TN

    Mr. Beehan. Thank you, Senator Bingaman. Senator Corker, 
thank you for the welcome. I really appreciate that.
    Chairman Bingaman and members of the committee, I thank you 
for inviting me to testify on S. 3300, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico and Hanford, Washington. I 
would also like to thank the co-sponsors of the bill, yourself, 
Senator Bingaman, Lamar Alexander, Maria Cantwell, Tom Udall 
and Patty Murray.
    I am Tom Beehan, the Mayor of the city of Oak Ridge, 
Tennessee and Chairman of the Energy Community Alliance. Our 
members include local governments and other community 
organizations from Oak Ridge, Los Alamos and the Tri-Cities 
areas. All 3 communities have jointly prepared the testimony I 
will be presenting today.
    First and most importantly I would like to stress that all 
3 communities are united in support of the passage of the bill 
to establish a 3 unit historical park in Tennessee, New Mexico 
and Washington. There's also bipartisan support for this bill 
in the House and the Senate. Our communities have been working 
for many years to preserve the history of the Manhattan Project 
at our sites. We feel that now is the time to pass a bill that 
will lead to the establishment of the National Historical Park.
    It is easy for us, who live in those communities of Oak 
Ridge, Los Alamos and the Tri-Cities, to site that the 
Manhattan Project changed the world. It began in secrecy in 
1942. The original mission was exceptionally completed in 
August 1945 when the Japanese surrendered.
    The Manhattan Project is an incredible story that deserves 
to be preserved and told. Let me be clear. The interpretation 
of these sites will be about giving current and future 
generations an understanding of the indisputable turning point 
in America and in world history.
    Despite what some distracters may claim, this is not a park 
about weapons. I believe this historical park is about 
scientific and engineering accomplishments at a time when our 
country was defending itself both during World War II and the 
cold war. This historic park will tell all sides of the story 
of what occurred in our 3 communities and has been identified 
by the National Park Service in their special resource study. 
The National Park interprets all sites and attempts to address 
all viewpoints to give a full and fair picture. We support such 
actions.
    Recently the Energy Community Alliance held a meeting in 
Richland, Washington to discuss the need to work together to 
get this park established. The 3 communities have not only 
partnered together on this important initiative. But we have 
also worked with the Department of Energy, the Department of 
Interior, State Historic Preservation Officers and many others 
to provide comments on the various drafts of this bill for the 
National Park unit at our sites.
    While in Richland our group toured the B reactor, the 
world's first full scale, production nuclear reactor. When 
visiting the B reactor one really gets an appreciation of the 
potential of the site to attract thousands of visitors a year. 
Already a few public tours are available for the B reactor. 
They fill up almost immediately.
    Last year, 8,000 seats were filled in less than 5 hours. 
This year 10,000 people will go on the tour.
    Oak Ridge has many assets also. It gives us a glimpse 
behind the gates. In 2011, around 8,000 people visited the 
Graphite Reactor at ORNL. Close to 5,000 people came through 
the Y-12 New Hope Center. Additional tours are held every year 
at the ``Secret City Festival'' where some 30,000 people come.
    In Los Alamos, the industrial work at the laboratory is 
such as the Gun Site, the work where Little Boy was done and 
the V Site where the work on the Gadget was completed. Visitors 
get a sense of the creative equipment in the Los Alamos 
Historic District. Visitors can walk the same paths as the 
Manhattan Project physicists, known as the Bathtub Row.
    The Manhattan Project Historical Park is needed to preserve 
the history of the most significant event of the 20th Century. 
As you proceed we ask you to consider the following 
recommendations.
    Establish the park now so that we can honor the veterans 
who were there.
    Protect the ongoing mission of the Department of Energy.
    Authorize User Fees/Entrance Fees.
    Donations should be broad.
    Allow the inclusion of significant sites.
    I thank you for allowing me to testify.
    [The prepared statement of Mr. Beehan follows:]

 Prepared Statement of Thomas L. Beehan, Mayor, City of Oak Ridge, and 
          Chairman, Energy Communities Alliance, Oak Ridge, TN
                                s. 3300
    Chairman Udall and Ranking Member Paul and Members of the 
Committee, I thank you for inviting me to testify on S. 3300, a bill to 
establish the Manhattan Project National Historical Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico and Hanford, Washington. I would also 
like to thank the co-sponsors of this bill: Senators Jeff Bingaman (D-
NM), Lamar Alexander (R-TN), Maria Cantwell (D-WA), Tom Udall (D-NM) 
and Patty Murray (D-WA). I am Tom Beehan, the Mayor of the City of Oak 
Ridge, Tennessee and as the Chairman of the Energy Communities Alliance 
(ECA), the association of local governments that are adjacent to or 
impacted by Department of Energy (DOE) activities. Our members include 
local governments and other community organizations from the Oak Ridge, 
Los Alamos and the Tri-Cities (Hanford) areas, and all three 
communities have passed resolutions supporting the Manhattan Project 
National Historical Park and have jointly prepared the testimony I will 
present to you today.
    energy communities alliance supports the bill to establish the 
manhattan project national historical park in oak ridge, los alamos and 
                                hanford
    First, and most importantly, I would like to stress that all three 
of our communities are united in our support for the passage of this 
bill to establish a 3-unit National Historical Park in Tennessee, New 
Mexico and Washington. There is also bi-partisan support for this bill 
from the Senators and Members of Congress from all three of our states. 
Last week, House Energy and Natural Resources Chair Doc Hastings, along 
with Congressmen Chuck Fleischmann and Ben Lujan also introduced a bill 
to establish a park at all three sites (HR 5987). Our communities have 
been working for many years to preserve the history of the Manhattan 
Project at our sites, and we feel that now is the time to pass a bill 
that will lead to the establishment of a National Historical Park. In 
addition, there is support for both bills among the state and local 
elected officials, historic preservation organizations, National Park 
Service officials, Department of Energy officials, business leaders, 
environmental cleanup advocates, chambers of commerce, museum 
officials, librarians and many others.
    Among the biggest advocates of the National Historic Park are the 
people who worked at the three sites during World War II. It is 
important to remember that no one in our country knew what the workers 
were building at the sites--they were truly ``Secret Cities.'' Most of 
the young men and women working in these communities did not even know 
what the project was. These were among the nation's best and brightest 
citizens from all walks of life.
    National Historical Parks are developed to ensure that we protect 
our country's assets and open them to the public to learn about our 
nation's history. We should work to open this park while some of the 
Manhattan Project Veterans are still alive and able to see their work 
recognized by our nation. These people played a valuable role in ending 
World War II and defending not only the United States but also 
democracies throughout the world. These true heroes, who dedicated 
their wartime service to the Manhattan Project, appreciate the 
legislation developed by your committee.
 the important history of the manhattan project sites must be preserved
    As an expert panel of historians reported in 2001, the top-secret 
Manhattan Project program during World War II, centered in Los Alamos, 
NM, Oak Ridge, TN, and Hanford, WA, has been called ``the single most 
significant event of the 20th Century.'' Operating from December 1942 
until September 1945, the Manhattan Project was a $2.2 billion effort 
that employed 130,000 workers at its peak, but was kept secret and out 
of public view.
    It is easy for those of us who live in the communities of Oak 
Ridge, Los Alamos and the Tri-Cities to say that the Manhattan Project 
changed the world. The Manhattan Project began in great secrecy in 
1942, and the original mission was successfully completed by August of 
1945 when the Japanese surrendered. The engineering and construction 
feats of the more than 100,000 men and women who were brought to these 
three sites from all over the world to build and operate first-of-a-
kind nuclear plants, is an incredible story that deserves to be 
preserved and told.
    On August 13, 1942 at the direction of FDR, the Manhattan Engineer 
District was established under the command of Colonel Leslie R. Groves. 
By September of 1942 Groves had selected Oak Ridge, Tennessee as the 
site for uranium isotope separation. In November 1942 Los Alamos was 
chosen as the laboratory to build the integral parts, under the 
direction of J. Robert Oppenheimer. And in January 1943 Hanford was 
selected for plutonium production. In 1945, just three years after the 
start of the project, the war with Japan was over. This was an 
incredible wartime achievement.
    In today's world, it is mind-boggling to think of what happened in 
these three short years. First, the actual land had to be acquired and 
existing homes and landowners had to be relocated. Then, workers of all 
types had to be recruited--engineers, physicists, chemists, 
mathematicians, as well as carpenters, electricians, iron workers, 
cement masons, and a multitude of office workers, cooks, guards and 
truck drivers. These individuals had to first build their own towns 
with dormitories and barracks, mess halls, utilities roads and 
railroads and even shower houses. Now almost 70 years later, these 
sites are being reindustrialized, and many ancillary buildings have 
been demolished and removed. The history of these human scientific and 
engineering achievements at the birth of the Atomic Age must be 
interpreted and preserved.
    Let me be clear. Interpretation at these sites will be about giving 
current and future generations an understanding of this indisputable 
turning point in American, and indeed world history. Despite what some 
detractors may claim, this is not a Park about weapons. I believe this 
Historic Park is about the feats of scientific and engineering 
accomplishments developed at a time when our country was defending 
itself, both during World War II and the Cold War. The construction and 
operation of the first generation reactors in total secrecy was an 
astounding development. Now, the science of the Manhattan Project has 
transformed contemporary society with significant contributions in 
fields such as nuclear medicine and nanotechnology. This Historic Park 
will tell all sides of the story of what occurred at Oak Ridge, Los 
Alamos and the Tri-cities, as has been identified in the National Park 
Service Special Resource Study released last year. The National Park 
Service interprets all sites and attempts to address all viewpoints to 
give a full and fair picture, and we support such actions.
                       background of legislation
    The National Park Service, at the direction of Congress, conducted 
a special resource study on several Manhattan Project sites for 
possible inclusion in the National Park System. The study recommends 
that the best way to preserve and interpret the Manhattan Project is 
for Congress to establish a national historical park at the three sites 
where a majority of the key scientific activity associated with the 
project occurred: Los Alamos, Oak Ridge and Hanford. The study 
acknowledged the significant Department of Energy investment in 
preservation of its assets, which played a role in the Park Service 
recommendation to proceed with a park designation. The DOE support 
provides the foundation for National Park Service interpretation of 
these assets for the public to see.
    According to the National Park Service study, ``Cultural resources 
associated with the Manhattan Project are not currently represented in 
the national park system, and comparably managed areas are not 
protected . . . the comprehensive story of the nationally significant 
Manhattan Project is not told anywhere . . . Including Manhattan 
Project-related sites in the national park system will provide for 
comprehensive interpretation and public understanding of this 
nationally significant story in 20th century American history.''
    Furthermore, as Senator Bingaman said in a recent press release for 
this bill: ``Providing visitors with opportunities to form their own 
intellectual and emotional connections with the significance of sites 
to be included in the Manhattan Project National Historical Park helps 
them understand its relevance to our shared national heritage. There is 
no better place to understand history than where it happened, and 
that's what national parks and the National Park Service do best.'' We 
agree.
  oak ridge, los alamos, the tri-cities communities are committed to 
        working together to establish a national historical park
    Since the Department of Interior's final study and recommendation 
was announced in July of last year, our state, city and county 
officials, business leaders, historical societies and groups, various 
community groups and individuals in our communities and throughout the 
country have been working diligently with you and your staffs to 
support this legislative process; and we come here to support the 
legislation introduced in both the Senate and the House.
    Most recently, many of us participated in an Energy Communities 
Alliance ``Peer Exchange'' meeting in Richland, Washington to discuss 
many of the issues surrounding the establishment of a National 
Historical Park at our sites. At the meeting, all the participants 
stressed the need to work together to get this park established. The 
three communities have not only partnered together to work on this 
important initiative, but we have also worked with DOE, the Department 
of the Interior, State Historical Preservation Officers, The National 
Trust for Historic Preservation, the National Parks Conservation 
Association, the Atomic Heritage Foundation and many others to provide 
comments on various drafts of this bill and visions for a National Park 
Unit at ours sites. The meeting in Richland provided us with an 
opportunity to meet many of the involved parties and discuss the 
potential for a National Park at our sites.
    While in Richland, our group also toured the B Reactor, the 
incredible engineering accomplishment that is the world's first full 
scale production nuclear reactor. The B Reactor was built in just 11 
months. The design was based on the success of Enrico Fermi's ``Chicago 
Pile 1'' and a pilot plant, the X-10 Graphite Reactor, located at what 
is now the Oak Ridge National Laboratory. This tour provided the 
potential experience that a visitor to a National Park would have when 
visiting the site, and the National Park Service has not even started 
their interpretative work. When visiting the B Reactor, one really gets 
an appreciation for the potential of the site to attract thousands of 
visitors a year. Already the few public tours that are available for 
the B Reactor fill up almost as soon as they become available. Last 
year, more than 8,000 seats were filled in less than 5 hours. This year 
more than 10,000 people will go on the tour. The B Reactor has had 
visitors from all 50 states and 48 countries.
    Oak Ridge has many assets that are open to visitors and community 
members who want to learn more and get a glimpse of what life was like 
``behind the gate''. The Department Of Energy Facilities Public Bus 
Tours, held from June through August each summer, highlight the 
Graphite Reactor at the Oak Ridge National Laboratory, the New Hope 
Center at Y-12, the DOE operated American Museum of Science and Energy, 
and portions of the City of Oak Ridge, where housing and other 
structures from the Manhattan Project era remain.
    In 2011, around eight thousand people visited the Graphite Reactor 
at ORNL and close to five thousand people came through the Y-12 New 
Hope Center. Additional special tours of these facilities, along with 
the Y-12 facility are held each year during the ``Secret City 
Festival,'' which attracts between 20-30 thousand people. These tours 
are one of the most popular events during the festival weekend and over 
700 people recently participated in the tour in a single day.
    In Los Alamos, the industrial work at the laboratory was on a 
smaller scale than at Oak Ridge or Hanford. Properties, such as the Gun 
Site, where the work on Little Boy was done, and at the V Site, where 
work on the ``Gadget'' was accomplished, visitors get a sense of the 
``can-do'' spirit of the scientists and technicians who had to make do 
in make-shift buildings with some rather creative equipment. We are 
confident the Department of Energy and Department of Interior can work 
out visitor access issues to these sites. At the same time, in the Los 
Alamos' historic center, visitors can walk the same paths as the giants 
of 20th century physicists, and see the homes where J. Robert 
Oppenheimer, Hans Bethe, and other talented scientists once lived and 
socialized.
Recommendations
    The Manhattan Project National Historical Park is needed to 
preserve the history of the most significant event of the 20th Century. 
As you proceed, we ask that you consider the following recommendations:

  <bullet> Establish the Park Now to Honor Our Manhattan Project 
        Veterans. There is unanimity among the three communities that 
        the Park should be established in the near term in order to 
        honor our Manhattan Project and Cold War veterans.
  <bullet> Protect ongoing Missions of DOE. We support legislative 
        language that protects the ongoing missions of DOE, and 
        recognize the need for appropriate flexibility in the 
        partnership among the stakeholders.
  <bullet> Authorize User/Entrance Fees. Although the legislation 
        should recognize DOE's responsibility to maintain its assets, 
        authorization for a modest entry/user fee should be included to 
        assist in the long term stewardship of non-DOE-owned assets.
  <bullet> Donations authority should be broad. We want to ensure that 
        the National Park is permitted to accept both personal property 
        and financial donations to support the park and the tours of 
        the sites. The bill should include language that ``The 
        Secretary may accept, hold, administer, and use gifts, 
        bequests, and devises (including real and personal property, 
        labor and services), for the purpose of preserving and 
        providing access to, historically significant resources 
        relating to the Department.''
  <bullet> Allow inclusion of Nationally Significant Sites. We need 
        flexibility to permit the NPS to work with communities to be 
        able to add sites that are nationally significant and suitable 
        for inclusion in the Historic Park.

                               conclusion
    In closing, we believe the proposed Historical Park will serve as a 
21st Century model for the National Park Service, or as the National 
Park Service study calls it ``A new innovative Manhattan Project 
National Historical Park,'' one that is based on federal, state and 
community partnerships. We look forward to working with you, and urge 
that this Congress pass the National Park legislation. The Energy 
Communities Alliance and our individual communities support this 
important legislation Senate Bill 3300. We thank you and the full 
committee for your leadership and support.

    The Chairman. Thank you very much for your testimony.
    Mr. Judge, go right ahead.

   STATEMENT OF WARREN JUDGE, CHAIRMAN, DARE COUNTY BOARD OF 
               COMMISSIONERS, COUNTY OF DAREO, NC

    Mr. Judge. Thank you, Mr. Chairman. I appreciate this 
opportunity today on behalf of the 33,000 local people who call 
Dare County their home and the millions who visit the Outer 
Banks of North Carolina each year.
    Dare County is proud to be the site of the Cape Hatteras 
National Seashore Recreational Area which has the distinction 
of being America's first National Seashore. It is unique that 
it was created by Congress and designed by the National Park 
Service to be a recreational area. Our people sacrificed and 
cooperated with the Federal Government through the gifts of 
land and favorable sales of property to help develop this 
special place. This was done in good faith based upon solemn 
promises that were made that there would always be recreational 
access.
    Today I ask you to enact S. 2372. This bill represents a 
practical and proven solution for providing access to the 
seashore while assuring science based protection of shore birds 
and turtles.
    S. 2372 would reinstate a National Park Service management 
tool known as the Interim Plan. This was a fully vetted, 
comprehensive plan that provided reasonable recreational access 
while at the same time safeguard it and protect resources. The 
other management plan had a NEPA review and was born in the 
light of public involvement and participation. The Interim Plan 
worked. It gave the Superintendent the authority to use his or 
her professional judgment to make timely and practical 
adjustments in direct response to actual conditions at the 
seashore on a real time basis.
    Unfortunately after a lawsuit by special interest groups 
the Interim Management Plan was set aside and a rigid and 
arbitrary Consent Decree was mandated by a court. This Consent 
Decree never had a NEPA review. Because it was prepared behind 
closed doors by special interest groups, it never had the 
benefit of healthy public participation through public 
hearings.
    Under S. 2372 access decisions would be made a Park 
Superintendent, who is ultimately accountable to Congress 
rather than to the courts or a rigid, arbitrary and floored ORV 
plan.
    S. 2372 does not strip away all regulations and leave the 
seashore unprotected. Far from it. The Interim Plan has 
comprehensive and effective rules that can be actively managed 
by the Superintendent to better protect wildlife.
    The people of Cape, the people of Hatteras Island and those 
who cherish Cape Hatteras National Seashore Recreational Area 
have a vested and vibrant interest in preserving this 
magnificent seashore for all generations to come. Our residents 
and visitors have proven that people and nature can live in 
harmony. I have seen it work first hand.
    As Chairman of the Dare County Board of Commissioners I 
have also seen how people have suffered under the Consent 
Decree. The recently implemented National Park Service ORV rule 
that imposes even greater restrictions. Dare County, like some 
places you call home, is a rural area where small businesses 
are the economic backbone of our community. Hard working men 
and women have for generations created jobs and sustained 
economic growth for our area by offering outstanding service 
and hospitality to those who travel from around the Nation and 
the world to enjoy our family oriented beaches and rich 
heritage of historical and cultural attractions.
    Tourism is our primary industry. It is the engine that 
drives our economy. Since the Consent Decree was enacted in the 
spring of 2008, our people have suffered. Many have seen a 
dramatic drop in revenue directly related to heavy handed, 
beach access restrictions. This has taken a harsh toll on their 
businesses, their employees and their families. This impact has 
been most vivid for those near the closure areas because Dare 
County is such a large geographical area even when tourism may 
be up in some neighborhoods that are far removed from Hatteras 
Island, it is still a fact that people near the closures are 
struggling to hold on to the American dream.
    Recently during the week of June 14, only 27 percent of the 
seashore miles were open to everyone. Unfortunately this did 
not include Oregon Inlet, Cape Point and other popular 
destinations for affordable, family oriented recreation. This 
turmoil was centered around the Piping Plover, a species that 
is not endangered in North Carolina and is only listed as 
threatened on its migratory path through the Outer Banks.
    Our community has suffered long enough. We need your help. 
Here in Washington if one Piping Plover were to nest on the 
Mall in front of the Smithsonian under the rules now in place, 
it would shut down the entire Mall from the edge of the Capital 
Building grounds to just east of the Washington Monument.
    To conclude, Mr. Chairman, this is why I'm asking you 
today, urging you, to enact S. 2372, to reinstate the Interim 
Management Plan. As a long time resident, native, a World War 
II veteran, Dan Willis put it recently as a tank commander in 
the Battle of the Bulge in old Normandy. ``My country had no 
problem sending me to the beaches of Normandy, but I cannot go 
to the beach in my beloved Hatteras village.''
    Thank you.
    [The prepared statement of Mr. Judge follows:]

  Prepared Statement of Warren Judge, Chairman, Dare County Board of 
                   Commissioners, County of Dareo, NC
                                s. 2372
    Dare County North Carolina, known as the Outer Banks, is home to 
the Cape Hatteras National Seashore Recreational Area (CHNSRA), which 
has the distinction of being America's first national seashore. The 
CHNSRA is unique in that it was created to be a recreational area. In 
the wake of the Great Depression, the Federal Government launched this 
new recreational concept as a bold and innovative endeavor to stimulate 
tourism and bolster the economy.
    The people of Dare County cooperated with the Federal Government in 
creating this new national seashore. People sacrificed through gifts of 
land and favorable sales of property to the National Park Service. This 
was done in good faith based on solemn promises made by Washington that 
there would always be recreational access for the people.
    At the urging of the National Park Service, people built businesses 
and infrastructure to support and promote tourism to the area. For 
generations the area flourished and the area became a popular tourism 
destination because of its world-class fishing and a host of family-
oriented recreational activities.
    The County of Dare through its elected leaders, and in concert with 
grassroots community partners, has been involved in every phase of the 
Federal Government's planning and rulemaking for the seashore. 
Throughout this process we have participated in the negotiated 
rulemaking process, and engaged in Public Hearings on the Draft 
Environmental Impact Statement (DEIS), Final Environmental Impact 
Statement, (FEIS) and the ORV Management Plan. Along with others, we 
have repeatedly offered practical solutions to address the concerns 
required by Executive Orders 11644 and 11989 without compromising the 
area's unique culture and economy.
    Based on decades of experience working with the National Park 
Service, we have concluded that S. 2372 is a practical solution for 
providing access to the seashore while assuring that science-based 
measures will protect shorebirds and turtles.
    Following are reasons why S. 2372 makes sense today for the Cape 
Hatteras National Seashore Recreation Area----
   provides flexibility for the superintendent to better manage the 
                                seashore
    The passage of S. 2372 would reinstate the ``Interim Management 
Plan,'' a tool developed by the National Park Service that was in place 
before the consent decree and proven effective in balancing resource 
protection with responsible recreational access. The Interim Management 
Plan was fully vetted and had a National Environmental Policy Act 
(NEPA) review.
    A key provision of the Interim Plan is that it provides adaptive 
management techniques that give the Superintendent authority to use his 
or her best professional judgment in adapting corridors and routes as 
the physical characteristics of the beach change on a dynamic basis. 
This common sense approach allows the Superintendent to modify access 
by responding directly to changing conditions on a real time basis, 
rather than arbitrarily written mandates.
    For example, when buffers are established to protect a resource, 
once the species have begun moving away from the nesting area, the 
Superintendent could monitor and modify the established buffer on an 
on-going basis. This would ultimately provide more effective resource 
protection, while at the same time providing more access. This 
represents a win-win situation for both protected resources and the 
American public.
    This flexibility is vital because conditions at the seashore are 
dynamic and in a constant state of flux. As the landscape of the 
seashore changes due to weather and tide conditions the natural 
environment of the area changes as well. These changes can be assessed, 
analyzed, and adjusted as needed by the Superintendent.
    We believe the Superintendents of the CHNSRA, including the current 
one, are dedicated professionals with the ability and experience to 
manage the seashore in a responsible way. Depriving the Superintendent 
of this flexibility denies reasonable access without affording any 
resource protection benefit.
    Reinstating the Interim Management Plan will not remove all 
regulatory controls and create a reckless situation where the seashore 
is unprotected. Nothing could be further from the truth. The Interim 
Plan has comprehensive rules that will allow the Superintendent to 
actively manage the seashore and better protect all species of 
wildlife.
    The Interim Plan also had the benefit of citizen participation 
through Public Hearings. As a matter of principle, we believe the 
development of environmental policy is best done openly in the sunshine 
of full and transparent public review. The consent decree, put in place 
after a lawsuit by special interest groups, never enjoyed public 
support due in large part that it was prepared behind closed doors 
without taxpayer input.
       responsible orv access is a matter of practical necessity
    Dare County has championed the cause of providing access for all 
users of the seashore. We strongly support pedestrian access and have 
long encouraged the National Park Service to add additional parking, 
walkovers and other infrastructure to enhance and improve the 
pedestrian visitor experience.
    We also recognize the physical reality that ORV use is the only 
practical way to gain access to some of the key recreational sites 
within this uniquely designed seashore. On first visit to the Cape 
Hatteras National Seashore Recreational Area, many are surprised to 
discover that without ORV access, people of all ages would have to hike 
large distances, of over a mile, to reach some of the remote 
recreational areas. Only the most athletic can traverse the hot sand 
carrying small children, recreational equipment, water and other vital 
supplies.
    Without ORV access, the physically disabled, the elderly, and the 
many who suffer from chronic medical conditions are unable to reach the 
seashore and enjoy the place that is supported by their tax dollars. 
This is inconsistent with the recreational purpose for which the CHNSRA 
was originally created.
    Mobility impaired visitors depend upon their vehicle not only for 
transportation to the seashore, but as a necessary lifeline in the 
event of a medical emergency, a sudden change of weather or temperature 
conditions, or need for toilet facilities. It is unfair that these 
people be restricted to the areas directly in front of the villages as 
is now provided in the ORV Management Plan.
    At the Cape Hatteras National Seashore Recreational Area, ORV 
access is a matter of practical necessity.
     resource protection must be balanced with recreational access
    We believe people and nature can live in harmony in the Cape 
Hatteras National Seashore Recreational Area. For generations our 
community has been on the vanguard of sustaining the natural resources 
in order to preserve them for our children, and grandchildren, and 
generations to come. No one is more committed to preserving a solid, 
long-term, ecological future for the beaches of the Outer Banks than 
the people of Dare County.
    The public is often surprised to learn that none of the birds 
protected at the CHNSRA are endangered. While the piping plover is 
considered threatened on its migratory path through the Outer Banks, it 
is not indigenous to the area, and it is not endangered.
    Other shorebirds that are afforded protection are not endangered, 
but listed as species of concern. This is an important distinction 
because non-endangered birds at the Cape Hatteras National Seashore 
Recreational Area are being given greater levels of protection than is 
given to the same species at other National Parks and Seashores.
    Those who oppose recreational access fail to disclose the truth 
that the greatest threat to wildlife at the CHNSRA is from weather and 
natural predators. As they herald the rise and fall of breeding numbers 
from year to year, they imply that ORV access is the villain. In 
reality, it is weather conditions, including severe nor'easters and 
hurricanes that frequent the Carolina coast, that destroy bird and 
turtle nests.
    Furthermore, the National Park Service has implemented a highly 
controversial ``Predator Removal Program'' that traps and kills 
hundreds of mammals each year to prevent raccoons, otters, foxes and 
other natural predators from robbing nests of their eggs. People who 
love all animals are shocked to discover that NPS disrupts the natural 
balance of nature by annihilating one species in a misguided attempt to 
save another.
    Sadly, none of the special interest groups, who claim to defend 
wildlife, have raised their voice as advocates for the hundreds of 
mammals that have been systematically murdered each year. Instead, they 
would have you believe that ORV access is destroying shorebirds and sea 
turtles rather than admit the truth that the greatest threat to 
wildlife is from weather and natural predators.
    To truly understand the dynamics of the Cape Hatteras National 
Seashore Recreational Area, it is important to note that restrictive 
closures have shut down vast geographical areas to protect a very small 
number of birds.
    For example, during the recent week of June 14, 2012, only 27% of 
the seashore's miles were open to everyone. Unfortunately, this did not 
include Oregon Inlet, Cape Point, and other popular destinations for 
affordable, family-oriented recreation. During this same time, the 
National Park Service documented only 5 active Piping Plover nests in 
the entire Cape Hatteras National Seashore Recreational Area.
    Let there be no doubt, Dare County is seriously committed to 
protecting those 5 nests in a responsible way. However, we believe they 
can be adequately protected by the Superintendent without shutting down 
most of the seashore. Here again, it is a matter of balance and 
avoiding extremist approaches.
    It is also worth noting that because bird counts at the CHNSRA 
consist of such relatively small numbers, even modest gains are often 
distorted. For example, with a total population of only 5 nests, an 
increase of 1 nest yields a 20% increase. Special interest groups fan 
public sentiment by quoting these percentages and claiming that 
wildlife is thriving, instead of putting the actual number of non-
endangered birds in its proper perspective.
    Those who oppose reasonable recreational access justify it by 
claiming that a significant portion of the seashore is designated as a 
year-round ORV route. However, they leave out an important part of the 
truth. They fail to disclose that although an area may be designated as 
open for access, it is only theoretically open, because if any bird 
activity is observed, that area is immediately closed.
    Although a route may be designated on a map for year-round ORV use, 
the appearance of one bird can shut down an entire area. Designated ORV 
routes do not guarantee access. They are only open until a bird appears 
at which time they are immediately closed.
 corridors are needed to provide access in a way that does not disturb 
                                wildlife
    Corridors are a vital tool in providing access while managing 
resources. The National Park Service should incorporate the use of 
corridors through and around buffers so the public is not unnecessarily 
denied access to an otherwise open area.
    Corridors effectively provide a small path around resource closures 
in order to provide access to open areas that would otherwise be 
blocked. Corridors allow visitor access to an open area that may be 
sandwiched between two closed areas. These corridors have limited 
negative impacts to the protected species, but they are crucial to 
providing access during closure periods.
    In some instances, corridors can be made through or around closure 
areas. In other places, corridors can be established below the high 
tide line. Since unfledged chicks are not found in nests between the 
ocean and the high tide line, this type of pass through corridor would 
have no negative effect on wildlife and should be established 
throughout the seashore.
    In the example* below, the visitors intended recreational area 
would be accessible through a small pass through corridor. Without this 
corridor, the area marked ``Open'' would actually be closed because it 
would otherwise be impossible to get there.
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
    Corridors are vital to providing access in a way that does not 
hinder resource protection. Therefore, Dare County believes pass 
through corridors should be maintained for pedestrians and ORVs in all 
areas of the Cape Hatteras National Seashore Recreational Area 
throughout the entire breeding and nesting season.
      restrictive closures have caused economic harm for the area
    Highly restrictive beach closures have had a devastating impact on 
the community surrounding the seashore. Excessive and extreme closures 
have consequences. Sadly, at the Cape Hatteras National Seashore 
Recreational Area, these consequences have caused hard working, small 
businesses to suffer irreparable harm.
    Tourism is our primary industry. It is the engine that drives our 
economy. Family-owned businesses are the backbone of Dare County and 
those who offer service and hospitality to Outer Banks visitors are 
suffering because of restrictive closures.
    Closures have taken a heavy toll on a wide range of businesses 
including automotive parts & repair, bait & tackle shops, campgrounds, 
charitable service providers, child care centers, fishing rod builders, 
marinas, motels and cottages, professional artists, restaurants, and 
retail shops.
    The negative impact has been the most vivid for those near the 
closure areas. When special interest groups claim that tourism has 
increased under the consent decree, they are guilty of not telling the 
entire story. Dare County is a large geographical area and even when 
tourism is up in a neighborhood that may be over an hour away from 
Hatteras Island, it is still a fact that people near the closures are 
struggling to survive.
    Our people are being forced to work harder, deplete their savings, 
and short-change their family's future. Meanwhile, by cherry-picking 
economic indicators, the special interest groups rationalize that 
tourism is up in spite of unprecedented closures.
    Sadly, even businesses whose revenue has stayed level or showed a 
modest increase have accomplished this at a costly price. Many have had 
to cut back employee hours, forego much-needed capital improvements, 
and sacrifice profits.
    Our small business owners do not ask for special favors or 
government handouts, just a fair opportunity to earn their part of the 
American dream.
                          additional concerns
User Fees Impose a Burden on the People
    The Cape Hatteras National Seashore Recreational Area rightly 
belongs to the American people. For generations, families have depended 
on access to the seashore for recreation. This access has historically 
been provided at no cost for the residents and visitors of the CHNSRA.
    Families plan all year long to visit Cape Hatteras. They save 
diligently in order to afford a destination where an American family 
can still enjoy a wholesome recreational experience at a reasonable 
price. This budgetary dynamic is a crucial one for the working people 
that frequent the CHNSRA. For these visitors, adding a fee to access 
the beach is akin to charging a fee to breathe the air.
    Instituting fees for use of the CHNSRA threatens to hurt tourism 
and adversely affect the visitor experience. This applies not only to 
the National Park Service properties on the Outer Banks, but to the 
overall tourism-based economy on which Dare County depends.
    User fees disproportionately affect those on fixed incomes, single 
parents, low-income visitors, and minorities. A $120 user fee for 
someone earning the minimum wage of $7.25 per hour is more greatly 
affected than someone earning an upper class income. We believe high 
user fees favor the rich and privileged over the poor and working 
middle class families that depend on free access to the Cape Hatteras 
National Seashore Recreational Area.
    The yearly and weekly fees, as imposed by the National Park 
Service, are excessively high and make no provision for the many who 
visit the seashore for a length of stay of less than one week. By 
ignoring the needs of those who make day trips and weekend excursions 
to the Outer Banks, the Park Service further impairs the visitor 
experience.
Training and Permits Must Be Available Online and Highly Accessible
    The American public and the visitors to the CHNSRA have responded 
well to educational efforts done by a variety of user groups and the 
County of Dare. Our residents and visitors have a long-standing 
position of promoting and supporting responsible stewardship of the 
Cape Hatteras National Seashore Recreational Area.
    While additional education and training is desirable in any 
endeavor, we believe that requiring mandated training prior to the 
issuance of a permit is unwarranted in this case because of the 
effective job that has been done to promote and sustain responsible use 
of the CHNSRA.
    If NPS continues to impose a training requirement, over our 
objection, then the following practical issues must be considered: 
Training and permits must be available online.
    Visitors to the CHNSRA generally have one (1) week in which to pack 
in as much vacation as possible. Most arrive on Saturday afternoon and 
stay through the calendar week. This long established pattern sets in 
place a weekly cycle that threatens to choke the resources of NPS in 
handling a long line of incoming visitors each Saturday. Furthermore, 
the NPS permit office needs to be open well into the evening hours in 
order to accommodate those traveling tremendous distances to reach Dare 
County.
NPS Must Create New Infrastructure to Support their New Rules
    In their ORV Management Plan, the National Park Service mandates 
new routes and vehicle free areas (VFA's). However, they have not 
embarked on a program to create the additional off beach parking and 
ramps that are needed for those who want pedestrian access to these 
areas.
    To impose new guidelines without the support system in place will 
only impede and restrict access and risk further harm to the visitor 
experience.
Seasonal Village Closures Should Be Based on Conditions Not Arbitrary 
        Dates
    We believe that the seasonal closings of Village beaches has not 
been a problem that warrants the arbitrary and inconsistent dates 
outlined in the Final Environment Impact Statement (FEIS) upon which 
the ORV Management Plan was written.
    Seasonal closures, in front of Hatteras Island Villages, should be 
based and depend on the season rather than arbitrary dates. This can be 
effectively developed, on an annual basis, by the Superintendent in 
partnership with officials from Dare and neighboring Hyde Counties.
Several Items to Set the Record Straight
    The National Park Service in preparing its ORV Management Plan has 
made false, misleading and deceptive statements that warrant comment. 
We offer these as additional comments to establish a clear and 
consistent record that reflects the position of Dare County----

  <bullet> NPS said in its summary of the proposed ORV rule--
        ``minimizing conflicts among various users.'' In this comment, 
        and in others like it, NPS would have everyone believe that the 
        people who use the Cape Hatteras National Seashore Recreation 
        Area are in conflict with each other. We find this not to be 
        true. It is our experience that those who favor responsible ORV 
        access, which represents the overwhelming majority, have taken 
        great strides to accommodate the few who disagree. We believe 
        there is something for everyone at America's first national 
        seashore and have a documented track record of willingness to 
        compromise and accommodate the needs of all user groups.
  <bullet> NPS stated that, ``A consent decree agreed to by the 
        plaintiffs, the NPS, and the interveners, Dare and Hyde 
        counties.'' Here again, the National Park Service makes a 
        statement that warrants additional information. The County of 
        Dare did in fact join as an intervener in the consent decree. 
        However, NPS fails to disclose that our involvement was as a 
        matter of practical necessity in order to best represent the 
        people of Dare County. The consent decree, prepared by a few 
        special interest groups behind closed doors, was never exposed 
        to the light of public comment and review. We entered the case 
        as an intervener rather than risk letting the special interest 
        groups and a sympathetic Federal Judge close the seashore 
        entirely. It was a situation where we had to choose the lesser 
        of two evils. As Dare County Vice-Chairman Allen Burrus asked, 
        ``Do we choose to get shot in the foot, or in the head?'' 
        Although Dare County was a party to the consent decree as an 
        intervener, for NPS to imply that Dare County was in any way in 
        conceptual agreement with the consent decree is disingenuous.
  <bullet> The National Park Service claimed it conducted a ``small 
        business survey.'' However, the work, which was done by 
        contractor RTI, was never concluded or published prior to the 
        close of public comments on the Environmental Impact 
        Statements. This prevented the public from having access to the 
        survey and being able to make informed comments about it. 
        Following the eventual release of the small business survey, we 
        determined it was based upon a small sample size with a poor 
        rate of return. The skewed results of this survey stand in 
        stark contrast to sworn, notarized statements from business 
        owners that were submitted by Dare County during the public 
        comment process. Our survey of business owners documents a 
        consistent pattern of how the Consent Decree has hurt small 
        businesses.
  <bullet> Finally, we challenge the NPS conclusion in saying that the 
        economic impact: ``will not adversely affect in a material way 
        the economy, productivity, competition, jobs, the environment, 
        public health or safety or State, local, or Tribal governments 
        or communities.'' The National Park Service has dismissed and 
        ignored the concerns of the local business community. The hard-
        working small business owners of Dare County have indeed 
        suffered harm and will continue to do so under the ORV 
        Management Plan. NPS may take comfort in saying the negative 
        impact will not be harmful in a ``material way.'' This 
        statement is untrue and insensitive to those in our community 
        who have seen their savings depleted, businesses ruined and 
        have had to lay-off valuable, long-term employees.
                               conclusion
    Dare County supports S. 2372 as sound legislation that will benefit 
the residents and visitors of the Cape Hatteras National Seashore 
Recreational Area. At the same time, we are deeply committed to 
protecting shorebirds and turtles with adaptive management tools that 
are based on peer reviewed science.
    We believe the Interim Management Strategy, which would be 
reinstituted upon passage of S. 2372, best balances resource protection 
with recreational access. It would allow access decisions to be made by 
the Park Superintendent, who is ultimately accountable to Congress, 
rather than the courts or a rigid and flawed ORV Management Plan.
    On behalf of the residents and visitors of Dare County North 
Carolina, we respectfully ask you to help us preserve our culture, our 
history, and our way of life by supporting S. 2372.

    The Chairman. Thank you very much.
    Mr. Carter.

  STATEMENT OF DERB S. CARTER, JR., DIRECTOR, NORTH CAROLINA 
           OFFICE, SOUTHERN ENVIRONMENTAL LAW CENTER

    Mr. Carter. Chairman Bingaman, members of the committee, 
I'm the Director of the North Carolina Office of the Southern 
Environmental Law Center. I present this testimony on behalf of 
the National Audubon Society, Defenders of Wildlife and 
National Parks Conservation Association.
    Our organizations and the 2.6 million members and 
supporters we represent oppose S. 2372. If enacted the bill 
would overturn an off road vehicle management plan developed by 
the Park Service with extensive public participation and input. 
The plan and rule were 4 years in the making and 4 decades 
overdue.
    The Park Service's final rule for managing ORV use on Cape 
Hatteras is supported by facts, reason and science and 
consistent with the goals of the Organic Act to conserve 
wildlife in our National Parks and provide for uses that will 
leave these areas unimpaired for future generations to enjoy.
    I grew up in North Carolina. I visited Cape Hatteras 
multiple times every year. I've driven on the beaches of Cape 
Hatteras for over 40 years.
    Over those years I've observed many changes. In the past 
there were a few vehicles on the beach, mostly recreational 
fishermen and a few commercial fishermen pulling nets. In 
recent years, as more and more people acquired vehicles capable 
of off road use, the numbers of vehicles began to overwhelm the 
beach.
    As the number of vehicles on the beaches increased I 
observed dramatic declines in wildlife which have also been 
documented by State and Federal biologists. Our organizations 
have not proposed or supported prohibition of driving on the 
beaches, on the seashore. The Cape Hatteras ORV Management Plan 
and final rule creates a balanced access for all visitors to 
the seashore while providing an enhanced protection for 
wildlife.
    It builds on the management measures in place at Cape 
Hatteras for the last 4 years under the Consent Decree that's 
been mentioned. This Consent Decree was developed and 
recommended to the court by ORV advocates, Dare County, 
conservation groups and the Park Service. The Consent Decree 
imposed beach driving restrictions and wildlife protections 
that are very similar to those in the final rule. As such the 
past 4 years leading up to the final rule previews the 
potential environmental benefits and economic effects of these 
restrictions.
    Over the past 4 years management under the measures 
recommended by the parties to the Consent Decree, in our view, 
has been a resounding success. Wildlife has rebounded. It's in 
our written testimony.
    Tourism has also thrived. Park visitation has held steady 
or increased over the last 4 years except for 2011 when 
Hurricane Irene cutoff the island road access for nearly 2 
months. Tourism revenues have actually grown since the Consent 
Decree and additional ORV restrictions were in place.
    According to Dare County occupancy tax reports, in the last 
2 years new records were set for visitor occupancy and tourism 
revenue in Dare County. On Hatteras Island, the area that 
encompasses most of the seashore, visitors spent a record 
setting 27.8 million on lodging during July 2010 which was 
broken again as a new record in July 2011.
    The Final Rule provides a balanced approach to seashore 
visitation designating 28 miles of the seashore as year round 
ORV routes and an additional 13 miles as seasonal ORV routes. 
Sixty-two percent of the seashore's beaches are designated ORV 
routes. The vast majority of visitors to the seashore, however, 
do not come to drive on the beach. Twenty-six miles are 
designated as vehicle free areas. If you want to drive on the 
beach you can. Since this plan went into effect in February 
over 11,500 ORV permits have been sold by the Park Service for 
those that want to drive on the beach.
    The Wildlife Management Plan measures in the Final Rule are 
based on peer reviewed recommendation of scientists, government 
scientists. Buffers are established only when birds attempt to 
nest in an area and are only put in place for the time 
necessary for those birds either to successfully nest or 
abandon the site. Sea turtles are protected by prohibiting 
driving at night only during the sea turtle nesting season.
    In sum, we oppose legislating management under an interim 
strategy that will harm wildlife. This strategy also reserves 
an extraordinary percentage of the miles of the seashore 
beaches for the small minority of seashore users, like me, that 
drive on the beach and contradicts the wishes of the vast 
majority of the people who commented on the Final Rule.
    We support the Final Rule adopted by the National Park 
Service that provides for reasonable ORV use of the beaches of 
Cape Hatteras while providing some minimum protections for 
wildlife. We oppose S. 2372 which would overturn that rule.
    I appreciate the opportunity to appear and testify on this 
bill today.
    [The prepared statement of Mr. Carter follows:]

  Prepared Statement of Derb S. Carter, Jr., Director, North Carolina 
               Office, Southern Environmental Law Center
    My name is Derb S. Carter, Jr. I am an attorney and Director of the 
North Carolina office of the Southern Environmental Law Center. I 
present this testimony on behalf of the National Audubon Society, 
Defenders of Wildlife, and National Parks and Conservation Association. 
We strongly oppose S 2372. If enacted, the bill would eliminate 
sensible safeguards to preserve Cape Hatteras National Seashore for 
future generations to explore and enjoy. Those safeguards are embodied 
in a Final Rule duly adopted by the National Park Service following 
many years of input from visitors to the National Seashore and local 
residents, as well as science-based measures to protect the wildlife 
and natural resources of the Seashore.
    I grew up in North Carolina, and I have driven on the beaches of 
Cape Hatteras for over forty years. Over the years, I have observed 
many changes to the Seashore. In the past, there were few vehicles on 
the beaches, mostly recreational fishermen in rusted vehicles and a few 
commercial fishermen pulling nets. In recent years, though, as more and 
more people acquired vehicles capable of off-road use, or ORVs, the 
numbers of vehicles began to overwhelm the beaches. See attached 
photographs 1, 3. As the numbers of vehicles on the beaches increased, 
I observed dramatic declines in wildlife. Several species of waterbirds 
nest directly on the dry sand beaches of Cape Hatteras. Repeated 
disturbance of birds during the nesting season, and in some cases 
direct mortality from being crushed by vehicles, contributed to 
significant declines in some species, and some disappeared from the 
Seashore entirely. The same is true for several threatened and 
endangered species of sea turtles that nest on the beaches of Cape 
Hatteras. See attached photographs 2, 3, 5-7.*
---------------------------------------------------------------------------
    * Photos have been retained in subcommittee files.
---------------------------------------------------------------------------
    Some are surprised that driving is allowed at all on the beaches of 
a national seashore, but it has long been part of the culture at Cape 
Hatteras. Our organizations have not proposed or supported a complete 
prohibition of driving on Cape Hatteras. Rather, we have supported 
sensible protections for wildlife that relies on the Seashore's beaches 
and the designation of some areas for pedestrians to enjoy beaches 
without vehicles. The Final Rule struck a balance between ORV use, 
pedestrian use, and resource protection that should be preserved.
    We support the Final Rule adopted by the National Park Service that 
provides for reasonable ORV use of the beaches of Cape Hatteras 
National Seashore while providing some minimum protections for 
wildlife, and we oppose S 2372, which would abolish that Rule.
                               background
    Congress established Cape Hatteras National Seashore as the 
nation's first national seashore in 1937. The enabling legislation for 
Cape Hatteras National Seashore declares that it shall be ``permanently 
preserved as a primitive wilderness'' and that ``no development of the 
project or plan for the convenience of visitors shall be undertaken 
which would be incompatible [] with the preservation of the unique 
flora and fauna of the physiographic conditions now prevailing in the 
area.'' 16 U.S.C. Sec.  459a-2.
    The Park Service Organic Act declares that national parks and 
seashores must be managed ``to conserve the scenery and the natural and 
historical objects and the wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.'' 16 U.S.C. 
Sec.  1. If a conflict exists between recreational uses and natural 
resource protection, natural resource protection predominates.
    Executive Order 11644, issued by President Nixon in 1972, directs 
all federal land managers to adopt plans to manage ORV use and requires 
that those plans not harm wildlife or degrade wildlife habitat. 
National Park Service regulations require adoption of special 
regulations to authorize ORV use in national parks and seashores. 36 
C.F.R. Sec.  4.10. The National Park Service neglected adopting an ORV 
management plan and special regulation for Cape Hatteras National 
Seashore until a final rule was published earlier this year. It is this 
special regulation (the ``Final Rule'') that this bill seeks to 
overturn.
 the consent decree: both tourism and wildlife thrived under its terms
    In April 2008, conservation organizations, ORV users, two counties, 
and the National Park Service recommended in a federal lawsuit\1\ that 
the U.S. District Court for the Eastern District of North Carolina 
enter a consent decree that included beach driving restrictions and 
minimum wildlife protection measures on Cape Hatteras National Seashore 
until an ORV management plan and special regulation was put in place. 
The Consent Decree recommended by the parties imposed beach driving 
restrictions and wildlife protections beginning in 2008 that are very 
similar to those in the Final Rule. As such, the past four years 
leading up to the Final Rule adopted in February 2012 previews the 
potential environmental benefits and potential economic effects of 
additional restrictions on beach driving on the Seashore.
---------------------------------------------------------------------------
    \1\ Defenders of Wildlife et al. v. National Park Service et al. 
(E.D.N.C. case no. 2:07-CV-45)
---------------------------------------------------------------------------
    Prior to the Consent Decree, beach driving restrictions and 
wildlife protections on the Seashore were somewhat ad hoc, more 
responsive than pro-active, and implemented primarily by 
Superintendent's Orders and on-the-ground decisions. These approaches 
and measures to address the impacts of ORV use on wildlife were pulled 
together in an ``Interim Protected Species Management Strategy'' in 
2007. The strategy was ``interim'' because the Park Service planned to 
use it only as long as it took to meet its longstanding obligation to 
develop an ORV management plan and Final Rule, which would supplant the 
interim strategy. The Interim Strategy generally reflected ongoing Park 
Service approaches and attempts to manage the conflicts between ORV use 
and wildlife on the Seashore, approaches and attempts that had not 
stopped precipitous declines in many species.
    Over the past four years, management under the measures recommended 
by the parties to the Consent Decree has been a resounding success. 
Wildlife has returned to the Seashore . The various federally 
endangered, federally threatened, and state-protected species of 
shorebirds, water birds, and sea turtles that live and breed at Cape 
Hatteras National Seashore have rebounded. In the last two years (under 
protections that are very similar to the Final Rule's), records have 
been set for the number of sea turtle nests, piping plover breeding 
pairs, piping plover fledged chicks, American oystercatcher fledged 
chicks, least tern nests, and gull-billed tern nests. Under the Consent 
Decree, two species, gull-billed terns and black skimmers, have 
returned to the Seashore to nest after disappearing for several years.
    Endangered and threatened sea turtle nests have increased 
dramatically with record nesting years in 2010 and 2011. Nests have 
exceeded abandoned nests or false crawls every year since 2007, 
reversing the previous trend.
    Tourism has also thrived in the four years under reasonable 
wildlife protections and ORV restrictions similar to those implemented 
in the Final Rule. Park visitation has held steady and increased in 
some years, and tourism revenues grew. Notably, in the last two years, 
new records have been set for visitor occupancy and tourism revenue in 
Dare County, North Carolina, where most of the Cape Hatteras National 
Seashore land is located. This economic success has been enjoyed 
despite a nationwide recession, high gas prices, and hurricanes.
    ORV restrictions have not hurt park visitation. For the past eight 
years, Cape Hatteras visitation has held steady between a low of 
2,125,005 (in 2006) and a high of 2,282,543 (in 2009). In 2011, 
visitation dipped to 1,960,711, when Hurricane Irene cut off access to 
Hatteras Island for nearly seven weeks from August 24 to October 11. 
Dare County, NC, visitor occupancy receipts for each year under the 
Consent Decree's ORV restrictions (2008 to 2011) exceeded receipts in 
2007 and prior years, with 2008, 2010, and 2011 setting successive 
records for all-time high receipts. Hatteras Island visitors spent a 
record-setting $27.8 million on lodging during the month of July 2010 
(surpassing July 2009 by 18.5 %). July 2011 occupancy receipts on 
Hatteras Island then set a new high of $29,587,938 (surpassing July 
2010 by 6.26%).
    The NPS commissioned a study of the economic impact of the Final 
Rule, which concluded among other things that the local economy would 
likely adapt to the Final Rule. Several other studies show that the 
large majority visitors to Cape Hatteras prefer numerous non-vehicular 
activities such as swimming, sunbathing, visiting historic sites, 
walking, enjoying solitude, photography, and bird watching/wildlife 
viewing, over beach driving, and the majority of people who visit Cape 
Hatteras come to engage in these other activities rather than beach 
driving. A 2008 study by the US Fish and Wildlife Service concluded 
that only 2.7% to 4% of Cape Hatteras visitors each year are ORV users 
and that restrictions on beach driving would likely significantly 
increase visitation by other categories of visitors. In sum, there is 
little to no support for predictions that the Final Rule will harm 
tourism and the local economy.
    Moreover, those who want to drive on the beach continue to visit 
the Seashore in large numbers. Over 11,500 ORV permits have been sold 
since the Final Rule went into effect on February 15, 2012
                             the final rule
    The Final Rule this bill would overturn should be given a chance to 
build on the Consent Decree's success. The public process informing the 
National Park Service's management plan included numerous public 
meetings, a negotiated rulemaking process that included opportunity for 
public comment at each monthly meeting, and two public comment periods, 
during which tens of thousands of people commented on the draft Final 
Rule and its supporting environmental impact statement. The NPS 
received 21,258 written comments on the draft rule, the vast majority 
of which were in favor of greater wildlife protections and ORV 
restrictions.
    The Park Service's extensive review culminated in lengthy economic 
reports and cost-benefit analyses, an environmental impact statement 
that examined six alternatives to the Final Rule, and a detailed 
biological opinion issued by the U.S. Fish & Wildlife Service, all of 
which supported the Final Rule as it was written. The management 
measures in the Final Rule are based on a robust scientific record 
supported by leading experts. In contrast, the Interim Strategy that 
this Bill would reinstate is not supported by science and would cause 
wildlife to decline.
    The Final Rule provides a balanced approach to Seashore visitation, 
reserving 28 miles of Seashore beaches as year-round ORV routes and an 
additional 13 miles as seasonally open to ORVs, but reserved for 
pedestrians during the peak tourism seasons. Sixty two percent of the 
Seashore's beaches are designated ORV routes. Most other national 
seashores either have regulations in place to manage and restrict ORV 
use or do not allow ORV use at all; only one national seashore 
continues to allow beach driving without a regulation in place, and it 
is working on one. Four national seashores have long prohibited ORVs 
entirely, while the remaining ones have regulations restricting ORV 
use. All of those (except Padre Island, by operation of Texas state 
law), allow driving on a much smaller percentage of their beaches than 
does the Hatteras Final Rule. Thus, if anything, the number of miles 
Cape Hatteras's beach set aside for ORV use in the Final Rule is 
unreasonably large rather than overly restrictive.
    The Rule designates 26 miles as year-round vehicle-free areas for 
pedestrians, families, and wildlife, to promote pedestrian access and 
reduce user conflicts between motorized and non-motorized visitors. The 
new plan also proposes new parking facilities, access ramps, and water 
shuttles to increase visitor access to beaches. We have supported the 
NPS's proposal of, and planning for, those facilities, and support 
additional appropriations to make those proposals a reality.
    Wildlife protection measures in the Final Rule generally follow 
those in place for four years under the Consent Decree and are designed 
to allow ORV and pedestrian access consistent with giving a chance to 
birds and turtles that nest on the beach. U.S. Geological Survey 
recommendations for wildlife management at Cape Hatteras National 
Seashore used ``best available information,'' including ``published 
research as well as practical experience of scientists and wildlife 
managers'' and were peer reviewed by more than 15 experts. Buffers to 
prevent disturbance are set up and closed to ORV or pedestrian entry 
only when birds attempt to nest and are removed once the nest fails or 
the chicks fledge. The buffers are species-specific and based on the 
peer-reviewed recommendations of scientists at the U.S. Geological 
Survey. Sea turtles are protected by prohibiting night driving on the 
beaches during turtle nesting season, posting nests, and establishing 
corridors to the beach for hatchlings just prior to hatching.
    In sum, the Final Rule designates nearly two-thirds of the Seashore 
beaches as year-round or seasonal ORV routes, provides some pedestrian-
only areas for the vast majority of visitors who are non-ORV users, and 
allows pedestrians access to all the beaches except for minimal 
disturbance buffers around nesting birds during the breeding season.
                            interim strategy
    S 2372 would ignore four years of planning, the comments of tens of 
thousands of citizens, and the best available science, and it would 
return Cape Hatteras National Seashore to the failed protocols of the 
Interim Protected Species Management Strategy that proved to be 
devastating to birds, sea turtles, other natural resources, and the 
public's enjoyment of the Cape Hatteras National Seashore beaches prior 
to the introduction of the Consent Decree.
    The Interim Strategy, to which S 2372 seeks to revert, was not 
developed as a long-term solution for managing ORV use at Cape 
Hatteras, but rather expressly and repeatedly states that it was 
intended only to be implemented temporarily ``while a long-term ORV 
management plan is developed.'' The Interim Strategy references 
specific guidance on species management developed for the Seashore by 
U.S. Geological Survey scientists and then explains this ``best 
scientific information'' is not fully incorporated in the Interim 
Strategy. In sum, management under the Interim Strategy will harm 
wildlife.
    The USFWS Biological Assessment for the Interim Strategy reiterates 
that it will negatively impact the natural resources of the Seashore in 
the long-term. It concludes that under the Interim Strategy ``there may 
be risk of disturbance, injury or death if the ORV by-pass is within 
the area utilized by the [piping plover] brood'' and that ``[t]here 
could also be negative impacts if disturbance from the ORV route 
restricted the brood's movements.'' The Biological Assessment of the 
Interim Strategy's analysis of the Strategy's effect on sea turtles 
states that ``negative impacts [of night driving] on nesting females in 
the surf zone may be particularly severe'' and observed that the NPS at 
Cape Hatteras and Cape Lookout are ``the only federal agencies within 
the nesting range allowing night time driving on beaches.''
    In contrast to the Final Rule, the Interim Strategy that S 2372 
seeks to reinstate:

          1. Was not supported by the same degree of public 
        participation and contradicts the wishes of the vast majority 
        of people who commented on the Final Rule;
          2. Is not supported by any data or evidence that it will have 
        a greater positive impact (or avoid a negative impact) on 
        tourism than the Final Rule;
          3. Is not supported by an environmental impact statement or 
        extensive economic studies;
          4. Will reserve an extraordinary percentage of the miles of 
        Seashore beaches for a small minority of park users, to the 
        exclusion of the majority of park users who do not visit the 
        Seashore to drive ORVs on the beaches;
          5. Is not supported by the great weight of scientific 
        literature is;
          6. Was responsible, in part, for the decline in population of 
        the many protected species at the Seashore by 2007; and
          7. Will undermine the goals and requirements of the Park 
        Service Organic Act to manage our parks so as to leave them 
        unimpaired for future generations, and the enabling act for the 
        Seashore to preserve the unique flora and fauna of the region.
                               conclusion
    The National Park Service's Final Rule for managing ORV use on Cape 
Hatteras National Seashore is supported by facts and reason, and will 
maintain balanced access for all visitors to the Seashore while 
providing enhanced protection to wildlife. The Final Rule is the 
outgrowth of several years of planning and public participation. It 
builds on the management measures in place at Cape Hatteras for the 
last four years during which visitation and tourism flourished and 
wildlife began to rebound on the Seashore. Please oppose S 2372, and 
instead support the National Park Service's common sense management 
plan.

    Senator Manchin [presiding]. Thank you, Mr. Carter. To all 
3, thank you very much. At this time I'm going to ask Senator 
Portman if he has any questions.
    Senator Portman. Thank you, Mr. Chairman.
    I just have a statement in support of one of the pieces of 
legislation under consideration today.
    I thank the witnesses. I don't have any questions for you. 
I don't want to make you have to stay at the panel if you don't 
have a desire to.
    Do you have any questions for the witnesses?
    Senator Manchin. I do.
    Senator Portman. OK, why don't we go with that?
    Senator Manchin. About the questions, OK.
    First of all, I want to thank you, all 3 of you for being 
here. On S. 2372, I think as I stated before and I think you 
know my position on that. I respect your position also, sir.
    I think first of all, the thing that intrigues us, both 
from the Democrat and Republican side, this is a bipartisan 
proposal from a Democrat and a Republican. We don't get that 
too often here anymore. So we're really excited when we saw 
Senator Burr and Senator Hagan both be for something. So it 
gets all of us, as far as colleagues, a little bit more 
excited, if you will.
    Then for myself and being spending many, many years down 
there also, as yourself, I've really enjoyed the area, enjoy 
the people very much. I would ask, I guess, Mr. Carter, did you 
participate in the compromise 2007, the compromise that was 
worked out?
    Were you part of that involvement?
    Mr. Carter. The organizations that we have worked with were 
involved in the interim strategy, development of the interim 
strategy, if that's what you're referring to.
    Senator Manchin. Yes, the interim strategy. Right.
    Mr. Carter. Yes, sir.
    Senator Manchin. That seemed to be a pretty good compromise 
that they'd worked out and a pretty good strategy everybody was 
working on.
    Mr. Carter. Senator, the problem with the interim strategy 
was that what it did was formalize the management measures that 
were already in place on the seashore and had been in place for 
several years. What was clear was that those measures were not 
protecting wildlife because during that period of time wildlife 
was declining precipitously on the seashore. So the problem is 
it just formulized that were already harming wildlife.
    It ignored the recommendations that the Park Service sought 
from government scientists on what needed to be done to protect 
the wildlife on the seashore. It was intended only to be 
interim until a final plan could be adopted. I don't think 
anyone--it was called an interim plan. I don't think anyone 
felt that that was to be the final plan that would go through 
the full amount of public participation that this final rule 
has to really, fully address the issues related to ORV use and 
natural resources that needed to be addressed.
    Senator Manchin. Mr. Judge, if I may. I appreciate so much 
of your testimony.
    Mr. Judge. Yes, sir.
    Senator Manchin. It sounds to me like, you know, being 
responsible for the citizens, 33,000, in that county. That 
you're trying to find a balance between the people.
    Mr. Judge. Absolutely. Yes, sir.
    Senator Manchin. The environment.
    Mr. Judge. Yes, sir. Absolutely. Dare County----
    Senator Manchin. How much of an impact has this had on the 
local residents there and the--I know he's telling me that, Mr. 
Carter, respectfully said that it's thriving.
    Mr. Judge. Dare County is about 100 miles long. We've got 
beaches that stretch from the Dare County/Currituck County 
line. You may be familiar with the names of Sanderling and 
Duck, all the way down through Southern Shores, Kitty Hawk, 
Kill Devil Hills and Nags Head over on to Roanoke Island, 
Villages of Wanchese and then Hatteras Island. While, yes, 
business is good, the business of commerce and tourism in Dare 
County is good. That's good for us because our own building and 
real estate industry have stopped, just like pretty much all 
over the country.
    But Hatteras Island has suffered significantly. If you go 
to the Village of Buxton on Hatteras Island, which is right at 
Cape Point.
    Senator Manchin. I know it well.
    Mr. Judge. They suffer greatly from the first week or so of 
March when the closures go into effect at Cape Point until they 
are lifted, typically the end of July, the first of August. 
You're taking away winter fishing, spring fishing and 
vacationing and you're taking away a good chunk of the summer 
vacation.
    Senator Manchin. Would you say a majority----
    Mr. Judge. These are mom and pops.
    Senator Manchin. Yes.
    Mr. Judge. These are people who've built 50 room motels and 
have cottages and restaurants. You know, we're not a big 
manufacturing commerce. But these are people who, for 
generation after generation, my colleague and Vice Chairman of 
the Board is here with me today. His family has been in the 
grocery store business since 1850s. It's a struggle to hang on.
    Senator Manchin. Is it fair to say that the majority of the 
people of Dare County oppose the----
    Mr. Judge. The vast majority of Dare County, absolutely. 
Yes, sir.
    Support the Interim Management Plan. We have another 
colleague in the audience today representing CHAPA and some of 
the other organizations. They're not wild about the Interim 
Management Plan. But they were at the table and they 
participated since the spring of 2005 when public hearing after 
public hearing, giving our input and offering our----
    Senator Manchin. I'm sure you are pleased you have both of 
your Senators, the Democrat and the Republican supporting this.
    Mr. Judge. Absolutely. It's an issue of access, Senator. 
It's often referred to as an ORV driving plan. The off road 
vehicle dominates the discussion. But it's access. It's access 
whether you're on foot or whether you're on--whether you're 
inside a car.
    When they say beaches are open to driving what they're 
really saying is routes are designated. Just because it's a 
designated ORV route, does not mean it's open, sir.
    Senator Manchin. Thank you, sir.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. Gentlemen, thank 
you for your testimony.
    I'd like to address briefly, if I could, another bill 
that's before the committee today. This is the World War II 
Memorial Prayer Act. It's S. 3078. I want to thank the Chair, 
for his support and Chairman Bingaman's willingness and Ranking 
Member Murkowski's willingness to have it included on today's 
agenda.
    This is a bipartisan bill that will lead to the placement 
of a plaque or inscription at the World War II memorial in 
Washington, DC, with a prayer that Franklin D. Roosevelt shared 
with the Nation by radio address on D-Day on June 6, 1944. With 
D-Day underway President Franklin Delano Roosevelt asked our 
Nation to come together in prayer for the men who were engaged 
in this dangerous but very important battle.
    He chose a prayer instead of a speech because he viewed it 
as a solemn occasion. It's a very powerful prayer drawing on 
our Nation's rich Judeo/Christian heritage and values. It 
brought strength and inspiration to many on what was a very 
challenging time for our country.
    On June 6, 2012, just a few weeks ago on the 68th 
anniversary, I had the honor along with Senator Lieberman, who 
is a co-sponsor of the legislation, to not just introduce the 
bill but also commemorate that prayer on the floor that day. We 
worked closely with the National Park Service on this to ensure 
that the plaque or inscription does not disrupt the World War 
II memorial or bypass the Commemorative Works Act process which 
governs monuments in Washington, DC.
    The placement design of the plaque would be assigned to a 
Commemorative Works approval and review process which makes it 
consistent with legislation that's been passed by previous 
Congresses. The legislation is adding some historical context 
to a beautiful memorial, adding another layer of commemoration, 
not taking anything from a memorial that's already in place.
    My friend in the House of Representatives Congressman Bill 
Johnson introduced the House companion bill which passed the 
House earlier this year with an overwhelming bipartisan vote of 
386 to 26. A lot of outside groups have been very supportive of 
this.
    I'll read you a letter received from the American Legion 
which says that the World War II Memorial Prayer Act would 
bolster the already reverential World War II memorial in 
Washington, DC. This organization, along with others believe 
that this an apt way to, not just as they say, remember the 
sacrifices but also inspire Americans.
    I do want to address, if I could briefly, Mr. Chairman, a 
letter which was received by the committee last night. This 
letter was received from the Americans United for Separation of 
Church and State in opposition to World War II Memorial Prayer 
Act. I just want to point out, if I could, a couple of 
inaccuracies in the letter.
    The letter writers might not have known the process that 
we've gone through with the National Park Service. But the 
letter claims that the legislation circumvents the 
Commemorative Works Act when in fact, section three of our bill 
clearly states that design and placement of the plaque will be 
subject to the CWA. That's a change from the House bill. Again 
we work closely with the Park Service on that.
    Second, the letter claims that Congress has never added an 
inscription or a plaque to an existing monument. There is 
precedent for this. In fact in the 106th Congress, H.R. 2879 
was passed into law which provided for a plaque to be placed 
within the Lincoln Memorial area to commemorate Martin Luther 
King's iconic, ``I have a Dream'' speech.
    Third, the letter claims that we are quote, ``using the 
World War II memorial prayer bill for political gain.'' Again, 
this couldn't be further from the truth except for it's been 
bipartisan from the start. Both the House and the Senate, 386 
Representatives supported the bill's passage on the House side. 
In the Senate we have already 22 co-sponsors just in the last 
couple weeks, both Republican and Democrat.
    So I hope my other colleagues on the committee will join in 
encouraging that this important and extraordinary prayer and 
this example of the power of faith in our history can be added 
to the World War II memorial.
    I also, Mr. Chairman, would like to ask unanimous consent 
that the entire FDR prayer be able to be placed in the record 
today.
    Thank you, Mr. Chairman. Again, thank you all for your 
patience here today and coming to testify before other 
important legislation before us. I'm looking forward to working 
with the committee on getting this bill reported out and 
getting it to the floor for a vote and providing this 
inspirational prayer on our National Mall.
    Thank you, Mr. Chairman.
    Senator Manchin. Thank you, Senator Portman.
    Before we conclude if any of you all would like to make 
another statement, a brief statement. We want to thank you all 
for coming and participating. I don't see any further questions 
coming and we do, tremendously, we appreciate.
    Mr. Carter. Senator Manchin, just one point.
    Senator Manchin. Yes, sir, Mr. Carter.
    Mr. Carter. Just to make sure there's clear understanding 
on this. In Chairman Judge's statement he said, I believe, that 
27 percent of the seashore is open. As of the most recent 
report from the Park Service there is 65 miles of seashore, 
approximately. This is the peak of the bird breeding season. 
Yet, over 50 miles of that seashore, according to the Park 
Service last week, is open to any pedestrian that wants to walk 
there.
    Senator Manchin. If you want to submit that, we will check 
it and confirm it and you submit that.
    Mr. Carter. OK. We'll submit that for the record.
    Senator Manchin. Absolutely, sir.
    Mr. Carter. OK.
    Senator Manchin. Mr. Judge.
    Mr. Judge. Yes, sir. I believe I cited the date of June 
14th, not last week. You know, if you can walk on the beach, 
but can't get to the beach. It's disingenuous to say that's 
it's open.
    There are only 11 accesses in the Cape Hatteras National 
Seashore. They were designed as drive over accesses. With those 
accesses there are 805 parking spaces. So unless you have the 
means to own or to rent an ocean front house in the villages 
that gives you direct access from your house down to the beach, 
you have to use one of those accesses.
    Senator Manchin. Yes.
    Mr. Judge. Now, if those accesses are closed because 
there's an American Oystercatcher nest next to it. It restricts 
you from getting into it to park and use that access to walk 
through. You wind up having to cross dunes.
    The first thing the NPS does is string up new sticks and 
new strings and new signs to don't walk on the dunes. Then you 
wind up parking on the shoulder of the road. They'll go to 
NCDOT and get no parking signs put up.
    Senator, this is restriction of access. Dare County 
categorically supports open and free access for everyone, 
however they want to use that seashore as long as it's legal 
and moral. We absolutely support the preservation of all forms 
of wildlife. That's why we strongly supported, we participated 
for 2 years from the spring of 2005 on to work with and 
testified at public hearings and gave our input on the 
management plan of 2007.
    Senator Manchin. How long had it been open up until--27 is 
when you had to compromise, right?
    Mr. Judge. That's when they created something called a plan 
that went through the NEPA process.
    Senator Manchin. Right.
    Mr. Judge. Had the U.S. Fish and Wildlife statement. There 
had been previous plans over the years. We don't dispute the 
fact that National Park Service had not done what it should 
have done. We're not here to defend them.
    We, you know, but it wasn't done. So----
    Senator Manchin. Sure.
    Mr. Judge. I mean, it was done by the Superintendent over 
the years and his ability to manage and set rules and 
regulations.
    Senator Manchin. We'll enter everything that you all, both, 
have given us. We appreciate and very respectful. You have a 
beautiful county and a beautiful State to boot. Beautiful 
seashore.
    West Virginia is very appreciative because we do use it.
    Mr. Judge. We do appreciate West Virginians. We know a lot 
come down there.
    Senator Manchin. Thank you, sir.
    Mr. Judge. Thank you, sir.
    Senator Manchin. Thank both of you.
    [Whereupon, at 4:15 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Herbert Frost to Questions From Senator Murkowski
s. 2273--designating the talkeetna ranger station in talkeetna, alaska, 
             as the walter harper talkeetna ranger station
    Question 1. As we discussed at the hearing, the National Park 
Service's official position on S. 2273 is one of ``no objection.'' My 
understanding of the reasoning behind a ``no objection'' position on S. 
2273, as opposed to an official position of support, is that because 
Mr. Harper passed away before Denali National Park actually existed, it 
is therefore impossible for there to be any real ties between him and 
the park. Is there anything my office can do to convince the Park 
Service that regardless of when Mr. Harper passed away, this is a bill 
the agency should support, not simply hold no objection to? Is the Park 
Service open to even considering a change in their support level on S. 
2273?
    Answer. We believe that the position taken by the National Park 
Service (NPS) on the naming of the Talkeetna Ranger Station for Walter 
Harper strikes the appropriate balance between recognizing Mr. Harper's 
historic accomplishment and upholding NPS policy. The NPS policy on 
commemorative works is to refrain from supporting naming park 
structures for a person unless the association between the park and the 
person is of exceptional importance. While the fact that Mr. Harper was 
the first person to reach the Mt. McKinley summit is noteworthy in the 
history of Denali National Park, his achievement occurred before the 
park was established and therefore, there was no direct association 
between the two.
   s. 2372--cape hatteras national seashore recreational area access
    Question 2. While the Cape Hatteras National Seashore is far from 
my home state, based on everything I've heard and read about the 
situation at Cape Hatteras, it appears that the National Park Service 
has closed large areas of the Cape Hatteras National Seashore far 
beyond what is needed to address resource challenges, and the impacts 
on the community have been challenging. Why is the Park Service 
instituting resource protection buffers at Hatteras far greater than 
we've seen anywhere else? And why are such massive buffers put in place 
for species that are not under endangered species act protections?
    Answer. Species protection measures cannot reasonably be compared 
from one site to another without fully considering the specific 
circumstances at each site and the context provided by the number and 
variety of protected species involved, the levels of off-road vehicle 
(ORV) use, and the underlying restrictions provided by the respective 
ORV management plans and special regulations. The Cape Hatteras plan 
was specifically designed to be effective with the high level ofORV use 
that is still allowed at Cape Hatteras. Less protective buffer 
distances may be adequate at locations where the level ofORV use is 
much lower to begin with.
    The laws, regulations, and policies applicable to Cape Hatteras 
require the NPS to conserve and protect other species, not just those 
listed as endangered under the Endangered Species Act. Buffer 
distances, specific to each species, are designed to minimize the 
impacts of human disturbance on nesting birds and flightless chicks in 
the majority of situations, given the level of visitation and 
recreational use in areas of sensitive wildlife habitat. The buffer 
distances selected by the NPS were developed after considering the best 
available science. They will be reevaluated ahd adjusted, if necessary, 
through a five-year periodic review process.
    Question 3. Executive Order 13474, which amended Executive Order 
12962, states that ``recreational fishing shall be managed as a 
sustainable activity in national wildlife refuges, national parks, 
national monuments, national marine sanctuaries, marine protected 
areas, or any other relevant conservation or management areas or 
activities under any Federal authority, consistent with applicable 
law.'' How is the final ORV rule, which essentially closes the majority 
of the most popular surf fishing areas in the park, compatible with 
this executive order?
    Answer. The final ORV management rule is consistent with the 
Executive Order on recreational fishing, because the order addresses 
fishing as a sustainable activity ``consistent with applicable law.'' 
In order to be consistent with the laws requiring the NPS to conserve 
and protect wildlife at Cape Hatteras National Seashore, it has been 
necessary to restrict ORV access to certain fishing areas at certain 
times.
    The special regulation does not permanently close the majority of 
the most popular surf fishing areas of the park to visitor access. 
Temporary seasonal resource protection measures are used to ensure that 
nesting habitat is available for use by protected species of beach 
nesting birds and sea turtles during the breeding season. This results 
in temporary seasonal closures of some popular fishing areas that are 
located in sensitive wildlife habitat, but it does not close these 
sites to visitor access during the rest of the year, nor does it 
restrict all visitor access to these areas during the breeding season.
          s. 1897--gettysburg national military park expansion
    Question 4. Mr. Frost, when reading this bill and your testimony it 
was made clear that one of the main reasons for this legislation was 
that the borough government no longer wanted to budget the funds 
necessary to operate the Train Station property, so they have asked 
that the National Park Service (Federal Government) take over the 
property and pay to maintain the property. My question for you is, do 
you think we should set this type of precedent for state and local 
governments to rid themselves of property to the Federal Government if 
they no longer wish to pay to maintain a property?
    Answer. While it is true that the Borough of Gettysburg has asked 
the NPS to take over ownership and operation of the Gettysburg Train 
Station, the resource is one that the NPS believes is very important to 
protect, and its preservation, operation, and management, in 
cooperation with partners, is a goal of the park's General Management 
Plan. The anticipated acquisition cost for the completely rehabilitated 
train station is approximately $772,000, subject to an appraisal by the 
federal government. It is expected that funding to acquire this land 
would not come from federal appropriations, but would be provided by 
non-governmental entities. The park has a preliminary commitment from 
the Gettysburg Convention and Visitor Bureau (CVB) to provide all 
staffing requirements for operations of an information and orientation 
center in the train station, thereby alleviating the park of staff 
costs. Anticipated operating costs for the train station that will be 
the responsibility of the NPS are limited to utility costs, with the 
rest being paid by the Gettysburg CVB. In the event that the Gettysburg 
CVB is unable to provide staffing and funding for operations, the NPS 
would seek another park partner to cover these costs and requirements.
      Responses of Herbert Frost to Questions From Senator Heller
   s. 2372--cape hatteras national seashore recreational area access
    Question 1. The Park Service is claiming that the restrictions 
under the ORV plan are not having significant economic impacts on the 
community, but this is based off of information for the entirety of 
Dare County. Why hasn't the park service conducted an economic study 
based upon the areas most directly affected by park operations--
Hatteras Island and Ocracoke Island?
    Answer. The NPS did, in fact, evaluate the potential economic 
impacts of the proposed ORV management actions on the eight villages of 
Hatteras and Ocracoke islands in both the November 2010 final Cape 
Hatteras National Seashore ORV Management Plan I Environmental Impact 
Statement process and in the Benefit-Cost Analysis of Final ORV Use 
Regulations in Cape Hatteras National Seashore. These analyses 
considered the Outer Banks portion of Dare and Hyde counties as the 
economic region of influence, the geographic area in which the 
predominant social and economic impacts for the action would likely 
take place, but the analyses focused on the villages of Ocracoke and 
Hatteras islands as being the communities most affected by the proposed 
NPS actions because they are located within the Seashore.
    The analyses for the NPS action found that the economic region of 
influence would experience negligible to minor long-term adverse 
impacts and small businesses in the Seashore villages would experience 
negligible to moderate long-term adverse impacts, with the potential 
for larger short-term impacts during the breeding season to specific 
businesses that cater most directly to ORV users. The analyses found 
that the designation of vehicle-free areas under the final rule would 
be beneficial for pedestrians and could increase overall visitation, 
increasing the probability that overall revenue impacts would be at the 
low rather than the high end of the range. The long-run impact of the 
NPS action would depend in part on how current and new visitors adjust 
their trips and spending in response to the management changes and the 
adaptations made by the business community to these changes.
    Question 2. Why is the Park Service instituting resource protection 
buffers for nesting birds far greater than in other federal or state 
parks? Any why are such massive buffers put in place for species that 
are not under endangered species act protections?
    Answer. Please see the response to the first Cape Hatteras question 
from Senator Murkowski, above.
    Question 3. Executive Order 13474, which amended Executive Order 
12962, states that ``recreational fishing shall be managed as a 
sustainable activity in national wildlife refuges, national parks, 
national monuments, national marine sanctuaries, marine protected 
areas, or any other relevant conservation or management areas or 
activities under any Federal authority, consistent with applicable 
law.'' How is the final ORV rule, which essentially closes the majority 
of the most popular surf fishing areas in the park, compatible with 
this executive order?
    Answer. Please see the response to the second Cape Hatteras 
question from Senator Murkowski, above.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    Statement of Hon. Lamar Alexander, U.S. Senator From Tennessee, 
                               on S. 3300
    The Manhattan Project is one of the most significant events in 
American history, and according to some historians it is the single 
most significant event of the 20th Century. In 2004, I joined Senator 
Bingaman as a cosponsor of the Manhattan Project National Historical 
Park Study Act, which directed the Department of Interior to conduct a 
study of the Manhattan Project sites to determine the feasibility of 
including the sites in the National Park System.
    In 2011, Ken Salazar, Secretary of the Department of the Interior, 
recommended the creation of a Manhattan Project National Historical 
Park with units at Oak Ridge, Tennessee, Los Alamos, New Mexico, and 
Hanford, Washington. According to Secretary Salazar, ``the Manhattan 
Project ushered in the atomic age, changed the role of the United 
States in the world community, and set the stage for the Cold War.'' 
Support for the Manhattan Project National Historical Park Act is 
bipartisan, bicameral, and has the strong support of the Energy 
Communities Alliance and preservation organizations, including the 
National Parks Conservation Association.
    Today it is impossible to imagine that in September 1942, in a 
valley in East Tennessee, 3,000 farmers and their families were told to 
leave their homes to make way for a ``secret city'' that would bring 
100,000 men and women together to help end World War II and forever 
change the course of human history. The story of the Manhattan Project 
is not only about World War II, it is about the people who lived and 
worked at these sites, the scientific achievements they made, and the 
impact of their work on our nation's history. I have long supported 
establishing a national historic park to protect the Manhattan Project 
sites because of the project's important role in our history, but also 
because of its importance to the history and people of Tennessee.
    Many have asked how a valley in East Tennessee became the first 
Manhattan Project site. Ray Smith, Y-12's Historian, has reason to 
believe politics might have played a role. According to Mr. Smith, 
President Roosevelt needed to convince Congress to spend a large amount 
of money without knowing what is was going to be used for. President 
Roosevelt asked Senate Budget Committee Chairman Kenneth Douglas 
McKellar, a Democrat from Tennessee, if this could be done. Senator 
McKellar is said to have replied, ``Yes, Mr. President, I can do that 
for you ... now just where in Tennessee are you going to put that 
thang?''
    Senator McKellar's decision to get President Roosevelt to locate 
the project in Tennessee was not welcome news to everyone. John Rice 
Irwin's family lived on a farm in the 59,000 acre area that would soon 
only be known as the Clinton Engineer Works. John said that one day the 
family came home from Nash Copeland's general store, and on the screen 
door on their front porch was a notice from the War Department. John 
kept a copy of one of the notices from the War Department that was 
posted on his neighbor's door. The notice, dated November 11, 1942, 
said, ``The War Department intends to take possession of your farm on 
December 1, 1942. It will be necessary for you to move not later than 
that date.'' Wilma Brooks' family found a similar notice, and her 
family only had 18 days to leave a farm they had lived and worked on 
for 200 years.
    Oak Ridge, which was not listed on a map until 1949, became the 
home for 100,000 scientists, engineers, machinists, operators and 
construction workers. Very few of the scientists knew what they were 
working on, and even fewer knew anything about uranium. Bill Wilcox, a 
young chemist tells the story of going to work for Eastman Kodak to do 
``war work,'' and only later learning that he would be working to 
produce uranium, which he was never allowed to call by its name. Today, 
Mr. Wilcox is the City of Oak Ridge's historian and a tireless advocate 
for the creation of the Manhattan Project National Historical Park. 
Harvey Kite, another chemist who came to work at Y-12 in 1944 recalled 
that he and some of his co-workers suspected that the uranium was for a 
nuclear weapon, but they did not know for sure until the atomic bomb 
was first used.
    Gladys Owens, a ``Calutron Girl,'' worked for eight months 
operating the massive electromagnetic separation machines in ``Beta 2'' 
of Y-12 without knowing anything about her work. All Ms. Owens knew was 
that if she wore pins in her hair, the machines she operated would pull 
them out and stick them like glue to any metal surface she came near. 
The X-10 Graphite Reactor, located at the Oak Ridge National 
Laboratory, was the world's first full-scale nuclear reactor. X-10 not 
only produced plutonium, it was also the first reactor used to produce 
radioactive isotopes for medical therapy which marked the birth of 
modern nuclear medicine which has saved countless lives. The X-10 
Graphite Reactor has been preserved as a National Historical Landmark 
since 1966, and exists today in virtually the same condition as it did 
in 1943 when the reactor first achieved criticality. These are stories 
of our nation's history, and what is remarkable is that the facilities 
used by workers like Gladys Owens have been preserved and exist today 
almost exactly as they did so many years ago. I am proud of the 
Department of Energy for investing in our history and preserving these 
one-of-a-kind facilities. The Department has also worked closely with 
the National Park Service and local communities to make this unique 
national park model a reality.
    As Americans we have a special obligation to preserve and protect 
our heritage, and the Manhattan Project National Historical Park will 
ensure that all Americans learn about the significance of the Manhattan 
Project and how it continues to shape our history. Tom Beehan, the 
Mayor of the City of Oak Ridge, who testified on behalf of the Energy 
Communities Alliance, made several recommendations which I hope the 
Committee will consider. I look forward to working with the Committee 
to address these recommendations, and to make sure that there is enough 
flexibility in the legislation so that communities can work with the 
National Park Service and the Department of Energy to protect 
nationally significant sites that are critical to understanding the 
role the Manhattan Project played in our nation's history.
                                 ______
                                 
   Statement of Hon. Kay Bailey Hutchison, U.S. Senator From Texas, 
                               on S. 2324
    I want to thank Chairman Bingaman and Ranking Member Murkowski of 
the Senate Energy and Natural Resources Committee for holding today's 
hearing in the Subcommittee on National Parks to consider lands bills 
that impact Texas. S. 2324, the Upper Neches River Wild and Scenic 
Study Act, is of particular concern to many of my constituents.
    My bill, the Upper Neches River Wild and Scenic Study Act, would 
direct the Secretary of the Interior to do a study of an approximately 
225-mile segment of the main stem of the Neches River and to report to 
Congress on the results of the study.
    The Neches River is an important Texas river that provides a 
habitat for a variety of wildlife. The free-flowing state of the river 
creates an ideal environment for aquatic animals. In addition, its 
location in the heart of the Central Flyway makes the river an 
important area for migrating birds.
    The purpose of the study is to ensure private property rights and 
recreational activities on the river are protected.
    This legislation enjoys the strong support of the Texas 
Conservation Alliance, Friends of the Neches River, Houston Audubon, 
and many other groups. This bill would further the conservation of the 
Neches River for current and future generations.
    Chairman Bingaman and Ranking Member Murkowski, I am certain 
today's hearing will provide the committee a better understanding of my 
legislation and the Neches River. I thank you for your attention to 
this legislation.
    Thank you.
                                 ______
                                 
 Statement of Hon. Joseph I. Lieberman, U.S. Senator From Connecticut, 
                               on S. 2286
    Mr. Chairman, thank you for the opportunity to offer a statement in 
support of this important legislation, the Lower Farmington River and 
Salmon Brook Wild and Scenic River Act.
    I can praise this bill at length, but I would like to begin by 
nothing that, for me, the passage of the Lower Farmington River and 
Salmon Brook Wild and Scenic River Act would be meaningful capstone to 
an effort that has spanned my entire Senate career. In 1993 and 1994, I 
worked alongside Congresswoman Nancy Johnson to successfully introduce 
and pass legislation that added 14 miles of the Upper Farmington River 
to the National Wild and Scenic River System. That initiative brought 
town, state and federal officials, conservation groups, and 
recreational and energy interests together in a partnership to achieve 
Connecticut's first contribution to the National Wild and Scenic River 
System.
    In the years that followed, I worked with Representative Johnson 
and Senator Chris Dodd to introduce and pass the Lower Farmington River 
and Salmon Brook Wild and Scenic River Study Act in 2006. That 
legislation initiated the study of the Lower Farmington River, which 
has since been completed and has confirmed the river's substantial 
natural, cultural, and recreational value to the state of Connecticut. 
Now, it is critical that we add the Lower Farmington River and Salmon 
Brook to the Wild and Scenic Rivers System in order to preserve its 
extraordinary ecological and recreational heritage.
    Passing through ten towns in northwestern Connecticut, the Lower 
Farmington River and Salmon Brook is home to extensive wetlands, unique 
geology, and stunning vistas. The pristine and unique qualities of this 
river system and the surrounding landscape provide visitors and 
residents alike with a special location for hiking, paddling, and 
fishing. This unspoiled natural retreat and its stunning biodiversity 
have literally been a part of our history in Connecticut for millennia, 
as archeologists have found evidence of human activity surrounding the 
river that date back over 11,000 years. From prehistoric campsites, to 
the Underground Railroad network, and the birth of manufacturing that 
sent goods to markets across the world, the river and its banks are an 
essential component of our nation's history.
    But the importance of the Lower Farmington River and Salmon Brook 
goes beyond its contribution to our nation's history. Among the 
country's most biologically diverse ecosystem, the river is home to 30 
species of finfish, 105 bird species, and the only river in New England 
that is home to all 12 of the freshwater mussel species native to the 
region, one of which is a federally listed endangered species. The 
unique qualities of the soil sorounding the river has allowed Native 
Americans, colonists and Connecticut residents today to grow tobacco 
that is reknowned the world over for its superior quality.
    As the Committee is aware, this legislation would add the Lower 
Farmington and Salmon Brook to the Wild and Scenic River System. This 
has the support of all the communities in the study area, the state, 
and the civic organizations that have actively preserved the Farmington 
River, and has been championed by the Farmington River Watershed 
Association. I am thankful for Representative Chris Murphy working so 
hard in the House to preserve the Farmington River, and I appreciate 
the strong support of Senator Blumenthal and Representative John Larson 
for this bill. I would also like to thank the National Park Service for 
its efforts during the course of its study describing the great 
importance of this watershed. I understand NPS would prefer to publish 
its final report on this study before Congress acts on the bill. The 
study was completed last summer, and the final report has been cleared 
by the administration for public release and commencement of the formal 
90 day review period. Though I look forward to reviewing the final 
report, which will recommend designation, I do not believe this should 
delay Senate action.
    In sum, I am confident that if examined, the Lower Farmington River 
and Salmon Brook will receive the federal recognition that they 
deserve. While we may not be Colorado, I would welcome the Chairman to 
come kayak down the beautiful Farmington River so we can show off the 
natural beauty of our state.
    Thank you, Mr. Chairman.
                                 ______
                                 
        Statement of the Atomic Heritage Foundation, on S. 3300
    The Atomic Heritage Foundation thanks Chairman Jeff Bingaman and 
co-sponsors Senators Lamar Alexander (R-TN), Maria Cantwell (D-WA), Tom 
Udall (D-NM) and Patty Murray (D-WA) for joining in introducing S. 3300 
to create a Manhattan Project National Historical Park. The Atomic 
Heritage Foundation has long advocated the creation of a Manhattan 
Project National Historical Park and is extremely grateful for your 
invaluable leadership and support.
    The proposed park would preserve Manhattan Project properties at 
the three major sites at Los Alamos, Oak Ridge and Hanford. This is the 
first recognition of the Manhattan Project, the top-secret effort to 
make an atomic bomb in World War II, in the national park system. As 
Secretary Salazar said in support of the new park, ``The development of 
the atomic bomb in multiple locations across the United States is an 
important story and one of the most transformative events in our 
nation's history.''
             national park service is america's storyteller
    The National Park Service will tell the Manhattan Project story and 
give voice to the creators and eyewitnesses to the project that 
irreversibly changed the history of the world. With 130,000 people 
working in secret locations, the Manhattan Project was a great work of 
human collaboration.
    A culturally diverse group, the workforce included recent 
immigrants who fled anti-Semitism in Europe as well as numerous 
Hispanics, Native Americans, and African-Americans. Young women who had 
just graduated from high school were recruited to operate the controls 
of uranium enrichment facilities while young men who joined the Army's 
Special Engineer Detachment found themselves working on explosive 
lenses and detonation devices. The contributions of each of these 
diverse groups and the communities surrounding the sites will be part 
of the interpretation.
    While some anti-nuclear groups fear that the new park will glorify 
the bomb, the National Park Service's presentation will be balanced, 
recognizing diverse perspectives on the atomic bomb project and its 
legacy. Many other controversial chapters of our history such as the 
Civil War and Japanese-American internment camps are interpreted in an 
unbiased and professional manner by the National Park Service. The 
Manhattan Project history and its legacy should be no different. As 
America's storyteller, the National Park Service has honed its skills 
for nearly a century.
                     model for second century park
    On the eve of the National Park Service's centennial in 2016, the 
Second Century Commission recommended creating new parks that will 
strengthen education and reflect the diversity of the American 
experience. The Manhattan Project National Historical Park could be a 
model for a Second Century Park.
    The park could improve the American public's understanding of 
nuclear science and the history of nuclear weapons development. Given 
the significance of nuclear weapons issues in world affairs today, the 
public should have a better grasp of these issues.
    The park could also help revive American youth's interest in 
science and engineering by celebrating innovators who harnessed atomic 
energy for the first time. Tracing this history to the present, 
students will learn about the new fields that emerged from the 
Manhattan Project, including nuclear energy and medicine, high-speed 
scientific computing and outer space exploration.
    The Manhattan Project demonstrated that scientific discoveries and 
technological advances can become key drivers of economic growth. On 
July 15, 2011, MIT President Susan Hockfield called for reinvigorating 
``America's innovation system,'' a ``direct descendant'' from the 
Manhattan Project, as a means to stimulate the economy today.
                    economic impact of the new park
    One of the greatest economic benefits of the new park will be to 
increase heritage tourism to the former Manhattan Project sites. For 
much of the past seventy years, the economies of the local communities 
have been dominated by the Department of Energy and its contractors. 
The new park will help diversify the local and regional economies.
    Studies in the travel industry have shown that people want to see 
something authentic. With an increasing number of stores and 
restaurants now part of national chains, travelers are hard pressed to 
find something unique. The fascinating story of the ``Secret Cities'' 
and resources such as the B Reactor at Hanford and the V Site at Los 
Alamos will be a great draw for visitors.
    On average, for every dollar that is invested in a national park, 
there are four dollars generated in the local economy. Many parks have 
ratios that are far greater, such as Acadia National Park in Maine. 
Considering the ten thousand people from all 50 states and 39 countries 
who have signed up to tour the B Reactor alone, we are confident that 
the new Manhattan Project National Historical Park will exceed 
expectations and be an engine for the economies of the three sites and 
their regions.
                      legislative recommendations
    We have watched the draft legislation emerge over the past several 
months and are very pleased that the Senate and House bills are now in 
close harmony. There are a few differences that will no doubt be 
resolved in conference. We would like to highlight a few issues as the 
Committee considers amendments to the current bill.

          1. Allow Inclusion of Nationally Significant Sites. We 
        suggest that the Committee consider providing the Secretary of 
        Interior authority to add sites that are nationally significant 
        and suitable for inclusion in the Historic Park. Currently, 
        only those properties listed in Section 5(b) and those 
        properties that are under the jurisdiction of the Secretary of 
        Energy can be added under Section 5(d). The authority to add 
        Manhattan Project resources that are not under the jurisdiction 
        of the Secretary of Energy, such as Jackson Square in Oak 
        Ridge, would be very valuable as the park is created and takes 
        shape over the next several years.
          2. Secretary of Energy Responsibility for Maintenance. The 
        House version adds Section 6(c)(4) that the Secretary of Energy 
        ``shall retain authority and legal obligations for historic 
        preservation and general maintenance, including to ensure safe 
        access, in connection with the Department's Manhattan Project 
        resources.'' This reinforces the agreement between the 
        Departments of Interior and Energy that led to their joint 
        recommendation of the park in July 2011. Having this provision 
        in the legislation would be helpful.
          3. Purchase from Willing Sellers. Section 8(d) in the House 
        bill does not provide authority for the Secretary of the 
        Interior to ``purchase from willing sellers,'' but only to 
        acquire properties through donation or exchange. We believe 
        that the Senate bill is preferable so that owners will be able 
        to be compensated for their land or properties where donation 
        and exchange are not reasonable alternatives.
          4. Acquisition for Visitor and Administrative Facilities The 
        Senate bill's Section 8(d)(2) provides that ``The Secretary may 
        acquire land or interests in land in the vicinity of the 
        Historical Park for visitor and administrative facilities.'' 
        The House bill in Section 8(e)(1)(B) provides authority for the 
        Secretary to accept donations and enter into cooperative 
        agreements with governments and others for visitor services and 
        administrative facilities. We prefer the Senate approach that 
        provides the authority for acquiring the land or interests in 
        land. This opens up more possibilities for the future park's 
        visitor and administrative facilities.
                               conclusion
    For ten years, the Atomic Heritage Foundation has worked closely 
with colleagues from the Manhattan Project sites, Manhattan Project 
veterans, historians and scholars, Federal, State and local government 
officials and others to preserve and interpret the Manhattan Project. 
We would be pleased to assist you and your staff in whatever way we can 
to see the legislation creating a park enacted by the 112th Congress.
    Thank you and all of the members of the Committee and its staff for 
your dedication and hard work to make the Manhattan Project National 
Historical Park a reality.
                                 ______
                                 
    Statement of Heather McClenahan, Executive Director, Los Alamos 
                     Historical Society, on S. 3300
                                summary
    Historians have called the Manhattan Project the most significant 
undertaking of the 20th century. Employing hundreds of thousands at its 
peak, located in widely scattered, secret communities, the project 
brought an end to World War II and ushered in the atomic age. As an 
organization that has preserved Manhattan Project history for nearly 
fifty years, the Los Almos Historical Society is pleased to support 
this legislation. Key points in our testimony include:

  <bullet> The significance of this history and why it should justify a 
        national historical park
  <bullet> The broad support and cooperation this park has generated
  <bullet> The positive economic impact the park will have on northern 
        New Mexico
  <bullet> The importance of partnerships in making this park a reality

    At its heart, the story of the Manhattan Project is an amazing 
episode of our great nation's history. It brought together the 
brightest scientists, many of them immigrants who came to this country 
seeking freedom. They faced pressure to end the world's most horrible 
war by creating something that had only existed in theory. It is a 
story about young people with a can-do spirit who brought about a great 
technological achievement. It is the story of unleashing a mysterious 
force of nature and of fostering fear and uncertainty about the future 
of humankind. It is a story about creativity and about destruction. It 
is a scientific story, a soldier's story, a spy story, and a human 
story. The story of the Manhattan Project is one that, from the 
perspectives of all who participated and all who were affected, must be 
told.
    Senators,

    The Los Alamos Historical Society appreciates the Committee on 
Energy and Natural Resources' Chairman Jeff Bingaman's leadership in 
considering S. 3300, the Manhattan Project National Historical Park. We 
are also grateful for the leadership of Senators Alexander, Cantwell, 
Udall, and Murray in championing this legislation.
    I am Heather McClenahan, executive director of the Los Alamos 
Historical Society a non-profit organization whose mission is to 
preserve, promote, and communicate the remarkable history and inspiring 
stories of Los Alamos and its people for our community, for the global 
audience, and for future generations. Among our many activities, we 
operate the Los Alamos Historical Museum and own, in a life trust, the 
World War II home of Dr. J. Robert Oppenheimer, scientific director of 
the Manhattan Project. As the owner of this home in the Los Alamos 
Historic Distirct, we are property owners within the potential boundary 
of the park. Additionally, helping to establish the Manhattan Project 
National Historical Park is one of seven planks in our strategic plan.
    My testimony is in support of S. 3300, a bill to establish the 
Manhattan Project National Historical Park. As long-time keepers of the 
history of Los Alamos, we fully support this bill's efforts to 
``enhance the protection and preservation of such resources and provide 
for comprehensive interpretation and public understanding of this 
nationally significant story in 20th century American history.''
    I will make four key points. One, why this history should be 
commemorated in a national park; two, the broad community support this 
park enjoys; three, why this will have positive impact on northern New 
Mexico; and four, why partnerships will be critical to making this park 
become a reality.
    In 2007, recognizing the impact of a possible national park on our 
community, the Los Alamos County Council appointed an ad hoc committee 
to determine what such a park might look like in Los Alamos. I served 
on that committee, and the details of our recommendations are included 
in pages seven through nine of this document. In summary, we envisioned 
a downtown national park visitor center where guests would learn about 
the Manhattan Project and then be sent to existing venues to learn 
more, a recommendation the National Park Service adopted in its final 
report to Congress.
    Tied together under the auspices of a national park, the Manhattan 
Project industrial sites in Los Alamos, Oak Ridge, and Hanford, along 
with the places where soldiers and scientists lived and formed 
communities, will create a full picture of the history.
    Some critics have said that a national park dedicated to the 
Manhattan Project will glorify the atomic bomb or create a theme park 
for weapons of mass destruction. I disagree. I have never visited a 
national park that was anything like a Disneyland. In fact, the 
National Park Service, of all government agencies, is the most trusted 
for telling complete stories from all sides--the good and bad, the 
painful and the poignant. Parks and monuments that commemorate battles 
or massacres do not celebrate ugly moments in American history. They 
teach about them; they help us, as a nation, to reflect and learn.
    So, in the rich tradition of our national park system, the 
Manhattan Project National Historical Park will need to include stories 
about the devastation in Hiroshima and Nagasaki, environmental damage, 
and the fear of atomic annihilation that are its legacies, along with 
the stories of great technical and scientific achievement and the 
decisive ending of World War II. The nation needs to understand the 
Manhattan Project from all sides.
    The communities called out in this legislation--Los Alamos, Oak 
Ridge, and Hanford--fully support this park. In 2008, our ad hoc 
committee held public meetings in Los Alamos as well as meetings with 
potential partners, from tour guides to the nearby pueblos. After some 
initial--and false--concern that the park service might take over the 
iconic Fuller Lodge in downtown Los Alamos as a park headquarters was 
resolved, the community came out fully in support of the park. The 
County Council passed a resolution to that effect in February 2010 (see 
pages ten and eleven of this document), and, most recently, a group of 
community leaders sent a letter to Senator Bingaman in support of this 
legislation (pages twelve and thirteen of this document).* We have had 
several meetings with our counterparts in Hanford and Oak Ridge to 
discuss park possibilties. In short, we are excited about this park and 
are happy to assist the Department of Interior, the Department of 
Energy, Los Alamos National Laboratory, and others to make it happen. 
We believe it will be a benefit not only to Los Alamos but to nearby 
communities, as well.
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    That leads to my third point, that the Manhattan Project National 
Historical Park will provide economic benefits to northern New Mexico. 
With, by the Park Services own estimate, hundreds of thousands of 
additional annual visitors, the region will need workers not only in 
tourism and service industries but in construction and other related 
industries.
    As our ad hoc committee suggested, the story of the Manhattan 
Project isn't just about world-class scientists. The story includes 
people from the rural communities and pueblos surrounding Los Alamos, 
mostly Native Americans and Hispanics, who provided the backbone of a 
labor force that built and maintained the laboratories and facilities, 
cleaned the houses, and drove the trucks. The Manhattan Project forever 
changed rustic northern New Mexico. In fact, the Manhattan Project 
National Historical Park will, once again, transform these communities, 
creating an economic driver based on heritage tourism that provides 
jobs, educational opportunities, and improved futures to traditionally 
under-served communities.
    Finally, we appreciate with enthusiasm the statement in Section 3 
of this bill that one purpose of the park is ``to assist the Department 
of Energy, Historical Park communities, historical societies, and other 
interested organizations and individuals in efforts to preserve and 
protect the historically significant resources associated with the 
Manhattan Project.'' Protecting these resources is something the Los 
Alamos Historical Society has been working on for nearly fifty years. 
Partnerships and cooperative agreements between agencies, non-profit 
groups such as ours, and even private property owners will make this 
park happen, bringing together widespread resources for the benefit of 
our nation as the Manhattan Project did years ago.
    Again, I urge you to view the recommendations from the ad hoc 
committee, specifically the section about partnerships. Manhattan 
Project resources, from museums to the laboratory and from tour guides 
to the famous ``gatekeeper'' office at 109 E. Palace Avenue in Santa 
Fe, are dispersed and disorganized when it comes to the theme of 
Manhattan Project history. The national park will bring these resources 
together, along with those of Hanford and Oak Ridge, for visitors to 
understand a bigger picture.
    We are also especially pleased to see in the final section of the 
bill that both the Department of Interior and the Department of Energy 
will be able to accept monetary or service donations for the park. This 
is particularly important to restoration work at Los Alamos National 
Laboratory and will assist the lab in preserving a significant historic 
site. One individual has been waiting in the wings for years to donate 
to the site's restoration but has had no mechnism for giving the money. 
The park will allow this preservation project to take place.
    We sincerely hope the differences between S. 3300 and H.R. 5987 can 
be worked out. Specifically, Section 8(d) in the House bill specifies 
that the National Park Service can only accept donated lands for 
inclusion in the park while Section 8(d)(1)(B) of the Senate bill 
allows the park service to purchase from ``willing sellers.'' Knowing 
the historic neighborhood as we do, we are concerned that these 
historically significant homes where the top scientists of the 
Manhattan Project lived may be excluded with the ``donation only'' 
requirement. The Park Service feasibility study recommended a central 
visitors center located in or near the Los Alamos Historic District, 
and the language in the House bill makes that difficult to accomplish. 
We fear it could significantly delay the park.
    Therefore, we hope the Senate and House committee members will work 
together to produce language that allows the National Park Service to 
work with willing sellers on acquisitions for the park. A park service 
location on or near historic Bathtub Row will benefit visitors by 
creating a better sense of place and historical experience.
    In sum, along with many community partners who have worked on this 
project, the Los Alamos Historical Society fully supports the 
establishment of the Manhattan Project National Historical Park in 
order to preserve and teach this important history. The park has 
tremendous support in our community. We believe it will have economic 
benefit to northern New Mexico. We are heartened to see the Department 
of Energy willing to work with the Department of Interior and other 
partners to make this world-changing history accessible.
    The Los Alamos Historical Museum is located in the building where 
Gen. Leslie Groves stayed when he came to Project Y, and it serves as 
the focal point of the community's Historic District. We look forward 
to sharing our stories with the many visitors a national historical 
park will bring in addition to sharing our resources with the National 
Park Service to assist in creation of the park. Working with local, 
state, and national partners to help create the Manhattan Project 
National Historical Park is a long-term goal in the Los Alamos 
Historical Society's strategic plan. We look forward to working with 
you to achieve that goal.
  recommendations to the los alamos county council from the manhattan 
       project national historical park (mpnhp) ad hoc committee
04/02/2008
                               i. purpose
    In 2004, Congress approved and the President signed legislation 
directing the NPS to conduct a special resource study to determine the 
national significance, suitability, and feasibility of designating one 
or more historic sites of the Manhattan Project for potential inclusion 
in the National Park System. This park could include non-contiguous 
sites in Los Alamos, Oak Ridge, Hanford, and Dayton. The NPS held 
meetings in each of the communities during the spring and summer of 
2006 to gather public input.
    In August 2007, Los Alamos County Council approved the 
establishment of an ad hoc committee to help determine what the 
proposed non-contiguous Manhattan Project National Historical Park 
might look like in Los Alamos. This committee is comprised of 
representatives involved in historic preservation and tourism from 
throughout the community, including Los Alamos National Laboratory 
(LANL). After approval by Council, the committee will present its plan 
to NPS representatives when they come to Los Alamos for a second round 
of community meetings in 2008.
                         ii. committee conduct
    The committee began meeting bi-weekly in August 2007 and discussed 
several ideas, such as what ``attractions'' might be included in a 
national park and who locally might participate. These ideas were 
expanded upon and refined over time. A great deal of Manhattan Project 
history has already been preserved in our community in places such as 
the Los Alamos Historical Museum, the Bradbury Science Museum, and the 
Oppenheimer House. The committee members do not believe that the NPS 
needs to ``reinvent the wheel.''
    In October, the committee took a special ``behind the fence'' tour 
of sites at LANL which may be included in the park, either as part of 
periodic tours or which may be open to more public access in the 
future.
    On Nov. 6 and 9, the committee held meetings by invitation and word 
of mouth for potential partners in the park. Approximately fifteen 
people attended the first meeting and ten attended the second. At both 
meetings, ad hoc committee members shared their vision for the park 
site (see III. below) Most of these potential partners were intrigued 
with the idea of a Manhattan Project National Historical Park within 
the community and looked forward to getting more information from the 
NPS.
    On November 13, the committee held an advertised public meeting in 
Fuller Lodge to discuss this vision for the park. Another fifteen 
people attended and added to the committee's ideas.
    Based on input from these meetings, the committee has refined its 
vision and proposes the following:

                            iii. park vision
A. Centralized Park Headquarters
    At a central Visitor Center, which would include information and 
interpretation, a Park Ranger would greet visitors, tell them about the 
National Park and then direct them to other sites in the area where 
they would be able to see tangible historical sites and objects from 
the Manhattan Project (Ashley Pond, Lamy Train Station) as well as 
interpretation and information that is already taking place in the 
community (LA Historical Museum, Bradbury Science Museum).
B. Tours
          a. Guided and Self-Guided: These would include ranger-guided 
        walking tours through the downtown historic district and other 
        sites; driving and walking audio tours; as well as guided tours 
        that would show visitors accessible areas of LANL, historic 
        downtown, the old Main Gate location, and other sites.
            b. LANL: With approval and coordination of LANL and the 
        Department of Energy officials, periodic ``Behind the Fence 
        Tours'' to V-Site, Gun Site, and other restored Manhattan 
        Project-era buildings, similar to the tours held at Trinity 
        Site.
C. Partners
    Potential partners in this project are those who own, maintain or 
have some other association (such as tourist services or items) with 
tangible historical objects or buildings from the Manhattan Project--
something that will enhance visitors' experiences and increase their 
understanding of this time in history. The lists below are not all-
inclusive.
D. Potential Themes of Interpretation
          1. People/Social History

                  a. Scientists and their families
                  b. Military

                          i. In Los Alamos (SEDs, MPs, etc.)
                          ii. In the Pacific, including POWs

                  c. Local Pueblo and Hispanic populations whose lives 
                were affected and who were an essential part of the 
                project (stet)
                  d. Local historical figures such as Edith Warner, 
                Dorothy McKibbin, Evelyn Frey
                  e. Stories of people affected by the bombings, both 
                American and Japanese
                  f. Responses to the bomb

          2. Science

                  a. Bradbury Science Museum

          3. Impacts

                  a. Science
                  b. Northern New Mexico
                  c. Military
                  d. International Relations
                  e. Cold War
                  f. Environmental/Health
                  g. Government

                          i. Civilian control of nuclear resources 
                        (AEC, DOE)
                          ii. The growth of government-run, multi-
                        disciplinary science labs

          4. Growth of the town of Los Alamos
          5. What happened to people after the war?
E. Potential Visitor Sites
          1. Local

                  a. The Los Alamos Historical Museum
                  b. The Bradbury Science Museum
                  c. Oppenheimer House
                  d. Ashley Pond
                  e. Ice House Memorial
                  f. Fuller Lodge
                  g. Historic Walking Tour of Bathtub Row
                  h. Periodic ``Behind the Fence'' Tours to V-Site, Gun 
                Site, and other restored Manhattan-era buildings at 
                LANL
                  i. Unitarian Church (former dorm)
                  j. Little Theater (former Rec Hall)
                  k. Christian Science Church (former dorm)
                  l. Hill Diner (WWII-era building)
                  m. Main Hill Road/Main Gate area
                  n. Last Sundt apartment building in Los Alamos 
                (Dentist office on Trinity)
                  o. Crossroads Bible Church (WW II-era Theater)

          2. Nearby

                  a. Bandelier National Monument
                  b. Pajarito Mountain Ski Area
                  c. Valles Caldera
                  d. Otowi Bridge
                  e. Sundt apartments in Espanola on Railroad Avenue

          3. Santa Fe

                  a. 109 E. Palace Ave.
                  b. La Fonda
                  c. Lamy Train Station
                  d. Delgado Street Bridge and other spy-related sites

          4. Albuquerque

                  a. Oxnard Air Field (Kirtland AFB)
                  b. National Atomic Museum

          5. Future considerations

                  a. Sculptures, outdoor art, and other monuments to 
                the Manhattan Project era that are currently under 
                consideration
                                 ______
                                 
                   National Parks Conservation Association,
                                     Washington, DC, June 25, 2012.
Hon. Jeff Bingaman,
Senate Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
RE: Testimony in Support of S. 3300, the Manhattan Project National 
Historical Park Act

    Dear Chairman Bingaman: On behalf of the National Parks 
Conservation Association (NPCA) and the more than 600,000 members and 
supporters we have nationwide, I appreciate the opportunity to submit 
testimony on S. 3300, a bill to establish the Manhattan Project 
National Historical Park.
    NPCA supports this legislation, which will establish a national 
historical park with sites in New Mexico, Tennessee, and Washington to 
preserve, interpret and make accessible buildings, locations, and 
artifacts related to the development of the atomic bomb. In addition, 
this park will provide the unique opportunity to improve public 
understanding of the Manhattan Project, the legacy of the United States 
of America's splitting of the atom--including the devastation caused by 
the atomic bombs used to attack Japan, the role this decision played in 
bringing an end to World War II, and the impact the harnessing of the 
atom has had on our country and the world.
    The development of the atomic bomb is an American story of 
ingenuity and scientific discovery, an achievement that some have 
called ``the single most significant event of the 20th century.'' The 
splitting of the atom has led to new advancements in medicine and 
physics, yet it also produced grave moral questions and decisions with 
enormous human and environmental costs. As such, we support your 
effort, through S. 3300, to call for the National Park Service to 
interpret both the Manhattan Project and the full measure of its 
legacy.
    Our National Park System may be unique in the world in that it 
contains some of our country's most special places and commemorates 
some of our crowning achievements. Yet, it also memorializes and 
commemorates some of our most controversial and difficult events, 
allowing future generations to learn from past experience.
    For these reasons, the Manhattan Project National Historical Park 
would make an excellent addition to our nation's park system. The 
National Parks Second Century Commission recommended creating parks 
that reflect the diversity of the American experience as the National 
Park Service approaches its lOQth birthday in 2016 and beyond. The 
Manhattan Project's multifaceted story embraces aspects of our nation's 
scientific, industrial, military, economic, social, moral and cultural 
history, and merits inclusion in our national storybook. A strong 
showing of Americans from across the county support such a site, 
according to the National Park Service Special Resource study, which 
says, ``Public response to the study was overwhelmingly in favor of a 
national park unit...''
    NPCA and our more than 600,000 members and supporters encourage the 
Senate to pass S. 3300, to preserve and protect the historic Manhattan 
Project sites deemed nationally significant by the National Park 
Service, deepen public understanding of the role our nation played in 
ushering in of the atomic age, and educate future generations about the 
awesome power, consequences and moral responsibility wrought through 
this legacy.
            Sincerely,
                                             Craig D. Obey,
                            Sr. Vice President, Government Affairs.
                                 ______
                                 
               Prayer of President Franklin D. Roosevelt
June 6, 1944
    My Fellow Americans:

    Last night, when I spoke with you about the fall of Rome, I knew at 
that moment that troops of the United States and our Allies were 
crossing the Channel in another and greater operation. It has come to 
pass with success thus far.
    And so, in this poignant hour, I ask you to join with me in prayer:
    Almighty God: Our sons, pride of our nation, this day have set upon 
a mighty endeavor, a struggle to preserve our Republic, our religion, 
and our civilization, and to set free a suffering humanity.
    Lead them straight and true; give strength to their arms, stoutness 
to their hearts, steadfastness in their faith.
    They will need Thy blessings. Their road will be long and hard. For 
the enemy is strong. He may hurl back our forces. Success may not come 
with rushing speed, but we shall return again and again; and we know 
that by Thy grace, and by the righteousness of our cause, our sons will 
triumph.
    They will be sore tried, by night and by day, without rest--until 
the victory is won. The darkness will be rent by noise and flame. Men's 
souls will be shaken with the violences of war. For these men are 
lately drawn from the ways of peace. They fight not for the lust of 
conquest. They fight to end conquest. They fight to liberate. They 
fight to let justice arise, and tolerance and goodwill among all Thy 
people. They yearn but for the end of battle, for their return to the 
haven of home.
    Some will never return. Embrace these, Father, and receive them, 
Thy heroic servants, into Thy kingdom.
    And for us at home--fathers, mothers, children, wives, sisters, and 
brothers of brave men overseas, whose thoughts and prayers are ever 
with them--help us, Almighty God, to rededicate ourselves in renewed 
faith in Thee in this hour of great sacrifice.
    Many people have urged that I call the nation into a single day of 
special prayer. But because the road is long and the desire is great, I 
ask that our people devote themselves in a continuance of prayer. As we 
rise to each new day, and again when each day is spent, let words of 
prayer be on our lips, invoking Thy help to our efforts.
    Give us strength, too--strength in our daily tasks, to redouble the 
contributions we make in the physical and the material support of our 
armed forces.
    And let our hearts be stout, to wait out the long travail, to bear 
sorrows that may come, to impart our courage unto our sons wheresoever 
they may be.
    And, O Lord, give us faith. Give us faith in Thee; faith in our 
sons; faith in each other; faith in our united crusade. Let not the 
keeness of our spirit ever be dulled. Let not the impacts of temporary 
events, of temporal matters of but fleeting moment--let not these deter 
us in our unconquerable purpose.
    With Thy blessing, we shall prevail over the unholy forces of our 
enemy. Help us to conquer the apostles of greed and racial arrogances. 
Lead us to the saving of our country, and with our sister nations into 
a world unity that will spell a sure peace--a peace invulnerable to the 
schemings of unworthy men. And a peace that will let all of men live in 
freedom, reaping the just rewards of their honest toil.
    Thy will be done, Almighty God.
    Amen.
                                 ______
                                 
  Statement of Nicholas J. Lund, Civil War Associate, National Parks 
                  Conservation Association, on S. 1897
    I write to submit my written statement in strong support of S. 
1897, the Gettysburg National Military Park Expansion Act of 2011, 
introduced by Senator Robert Casey, which would authorize the National 
Park Service to acquire the Lincoln Train Station in downtown 
Gettysburg and 45 acres of land at Plum Run for addition to Gettysburg 
National Military Park.
    Opened in 1859, the train station served as the western terminus of 
the Gettysburg Railroad line to Hanover, Pennsylvania. In June 1863, 
General Jubal Early's Confederate troops burned a down-rail trestle 
stopping service until 10 days after the Battle. The station served as 
a field hospital during the Battle of Gettysburg, with more than 15,000 
wounded soldiers transported through the depot once service was 
restored. However, perhaps the train station's most famous moment came 
on the evening of November 18, 1863, when President Abraham Lincoln 
stepped onto its platform on his way to dedicate the Gettysburg 
National Cemetery and give the Gettysburg Address.
    Listed on the National Register of Historic Places, the train 
station, now owned by the Borough of Gettysburg, was rehabilitated and 
opened to the public in 2006. Due to funding difficulties, the Borough 
cannot keep the station staffed and opened to the public. The Borough 
would like to pass the title to the NPS so the station can remain open 
to the public. Once acquired by the Park Service, the property will be 
run in a partnership with the Gettysburg Convention and Visitors Bureau 
as a downtown information and orientation center.
    In April 2009, 45 acres of land adjacent to Gettysburg NMP and 
within the Battlefield Historic District was donated to the Gettysburg 
Foundation. This historically significant land sits near the eastern 
base of Big Round Top at the southern end of the battlefield. The land 
is known to have historic significance related to the battle; 
skirmishes and hard fighting took place in the area on July 2nd and 
3rd. In addition to its historic value, Plum Run harbors critical 
wetlands and wildlife habitats, providing habitat for a variety of 
plants and animals. The Gettysburg Foundation currently owns this land 
and wants to donate it to the National Park Service.
    I appreciate the opportunity to present this statement on behalf of 
the National Parks Conservation Association. Our mission is to preserve 
and protect America's National Parks for future generations. Since 
1919, NPCA has been the leading voice of the American people working to 
protect our national parks and historic landmarks from Yellowstone to 
Gettysburg. Our more than 600,000 members and supporters across the 
country, including more than 28,000 in Pennsylvania, are everyday 
Americans who want to preserve our national parks for our children and 
grandchildren to learn from and enjoy.
                                 ______
                                 
                 Statement of Marcia Lyons, on S. 2372
    I am writing in reference to S. 2372 addressing access to Cape 
Hatteras National Seashore (CHNS). I do not support abandoning the new 
off-road vehicle (ORV) plan and replacing it with the Interim Species 
Protection Plan. I worked at CHNS for 32 years before retiring in 2008. 
Between 1995 and 2005, I worked directly with the management of the 
Pak's natural resources. Over these three decades, CHNS ignored 
President Nixon's Executive Order to establish an ORV plan. , I 
witnessed a sharp increase in the unlawful and unregulated use of ORVs. 
All protected species of beach nesting birds sharply declined. The 
number of aborted nesting attempts by sea turtles increased. A 
federally threatened plant, sea beach amaranth disappeared. CHNS 
received many visitor complaints concerning traffic on the beach. It 
took legal action to force the Park to address the issues. The Interim 
Species Protection Plan is not a genuine ORV plan. Its purpose was to 
buy some time before the National Park Service (NPS) adopted a 
comprehensive plan. It has many shortfalls. It was put together in 
short order by NPS staff without input from public or field experts. 
The Interim Plan did not adequately consider many basic biological 
requirements of protected species impacted by ORV use. Visitor use 
conflicts were not addressed nor were NPS Values such as soundscape, 
view shed and solitude. The push for going back to the Interim Plan is 
all about ORV access. Representatives of ORV groups had little support 
for pedestrian-only beaches during the NPS negotiated rule-making 
meetings. Now they seek pedestrian interest claiming that they too are 
loosing access if vehicles are not allowed on a specific stretch of 
beach. CHNS's weekly access report identifies many miles of vehicle-
free beaches open to pedestrians. Dare County Tourist Bureau figures 
show a continuing growth in visitation. Hatteras Island is incredibly 
busy at present. If businesses report lower profits, it may be due to 
the fact that there are just more competing businesses now or visitors 
may not have as much disposable cash. Last year's growth was curtailed 
only after Hurricane Irene broke a new inlet on Hatteras Island. People 
who like to drive on the beach are understandably disappointed. They 
where used to driving most everywhere day and night. But this is a 
National Park not a county or state park . Managing it under the 
Organic Act promotes sustainability--also good for the economy. 
Congress established CHNS, the first of its kind, because so much of 
our Nation's wild beaches were being lost. Going back to the Interim 
Species Protection Plan will promote more loss and put the government 
back into costly litigation. Thank you for your time.
                                 ______
                                 
 Statement of Derb S. Carter, Jr., Southern Environmental Law Center, 
                               on S. 2372
    This testimony supplements the testimony previously presented on 
behalf of the National Audubon Society, Defenders of Wildlife, and 
National Parks Conservation Association. As we stated previously, we 
strongly oppose S 2372 because it would eliminate sensible safeguards 
to preserve Cape Hatteras National Seashore for future generations to 
explore and enjoy. It would unreasonably and unjustifiably abolish the 
Final Rule duly adopted by the National Park Service following many 
years of input from visitors to the National Seashore and local 
residents, scientific inquiry, economic study, and environmental 
analysis. It would return the Seashore to unsustainable management 
practices that allowed ORV use to dominate the Seashore's beaches at 
the expense of both wildlife and visitors hoping to enjoy the beach on 
foot.
    We provide this supplemental testimony primarily to clarify several 
matters raised by testimony before the committee and by questions of 
committee members at the June 27, 2012 hearing.
1. How much of the Seashore is open for visitors to use?
    In the last full paragraph on page 4 of the written testimony of 
Dare County's representative, he claims that, ``during the recent week 
of June 14, 2012, only 27% of the seashore's miles were open to 
everyone.'' In the first full paragraph on page 5, the county's 
representative goes on to claim that the Cape Hatteras Superintendent 
has ``shut down'' ``most of the seashore.'' This is not true and 
grossly understates the actual availability of the Seashore for 
visitors to enjoy. In fact, nearly three times as much of the 
seashore--76.3%--was open to visitors the week of June 14, 2012, which 
is also the peak of resource closures for breeding birds.
    The National Park Service publishes a weekly report delineating 
which parts of Cape Hatteras National Seashore are open for both ORV 
driving and pedestrian use, which parts are open to pedestrians only, 
and which are closed temporarily (usually for natural resource 
protection). During the week that the county's representative mentioned 
in his testimony, 49.5 miles (76.3%) of the Seashore's 64.9 miles of 
beach were open to park visitors (pedestrians and/or ORV users) and 
only 23.7% were temporarily closed for resource protection. The number 
cited in the county's testimony was, in fact, only those miles open for 
ORV drivers (17.8 miles or 27.4%). By consistently disregarding the 
many miles open to pedestrians, Dare County attempts to perpetuate the 
myth that the pedestrian visitors, who constitute the majority of 
visitors to the Seashore, do not matter and that Cape Hatteras National 
Seashore can only be enjoyed from behind the wheel of an ORV. By 
claiming that the many miles of seashore that are open for pedestrians 
to enjoy are, instead, ``closed,'' the county's representative and 
other ORV proponents are misinforming the public and quite likely 
suppressing tourism on the Outer Banks by discouraging visitors from 
coming.
    This week, even more miles of beach are available to all visitors 
to the Seashore: 50.9 miles (78.4%) of the 64.9 miles of beach at Cape 
Hatteras are open (19.3 miles for both ORVs and pedestrians and 31.6 
for pedestrians only.) The areas of the Seashore closed for resource 
protection will steadily decrease over the next few weeks as bird 
breeding season winds down. The Park Service's reports for both the 
week of June 14th and the week of July 5th are attached.
2. What is the truth regarding tourism and visitation trends at Cape 
        Hatteras?
    On pages 6-7 of his testimony, Dare County's representative makes 
numerous unsubstantiated statements regarding the alleged economic harm 
he claims is being caused by the Final Rule. This section of his 
testimony is notably devoid of specific facts or verifiable details of 
any kind. To support his dire predictions of adverse economic impact, 
Dare County's representative alleges that we were ``cherry-picking 
economic indicators'' from distant geographic regions. Yet our prior 
testimony reported Dare County's own data for the area in the immediate 
vicinity of Cape Hatteras National Seashore. That data showed that on 
Hatteras Island, which contains 41 of the Seashore's 65 miles of 
beaches, tourism is thriving. Dare County has reported that July 2010 
set a record for the highest occupancy receipts (in other words, 
tourist rental income) for Hatteras Island as compared to any month in 
any prior year. Then July 2011 beat that record, despite the fact that 
July is the peak of breeding season and thus the peak of beach closures 
for breeding wildlife protection. This record was set for Hatteras 
Island, and not some distant portion of the county.
    To provide complete clarity on this issue, we have attached a chart 
showing the trends in tourism spending on Hatteras Island beginning in 
2007, the year before ORV restrictions began. The information was 
provided by the Dare County tourism bureau and speaks for itself.
    Likewise, we have attached another chart showing the trends in 
seashore visitation beginning in 2005, several years before the ORV 
restrictions began. It shows that, while there have been fluctuations 
(perhaps caused by such factors as the weather, the number of weekends 
in a given month, gas prices, and so on), the number of people visiting 
and enjoying the seashore has remained steady and even increased in 
some months since ORV restrictions began. The information is the actual 
number of visitors to Cape Hatteras National Seashore itself, not some 
distant beach, and also speaks for itself.
3. How will the Seashore be managed if S 2372 is passed?
    Finally, in the first full paragraph on page 3 of his testimony, 
Dare County's representative erroneously implies that Cape Hatteras 
National Seashore is currently being managed under a Consent Decree and 
that the legislation (S 2372) will replace the Consent Decree with the 
Interim Plan. In reality, the legislation will replace a Final Rule 
that went through a full rulemaking process, unlike the Interim 
Strategy that the county's representative supports.
    The distinction between the three management policies is an 
important one. The 2007 Interim Strategy was put together by the Park 
Service as a temporary measure while it attempted to come into 
compliance with federal law with a proper regulation to manage ORV use 
and beach driving for the protection of natural resources. The Interim 
Strategy did little more than memorialize the Park Service's past 
failed efforts to manage ORV use and protect resources. It was 
specifically designed to be a temporary stop-gap measure, and it was 
not subject to the same rigorous environmental and economic review and 
rulemaking process as an actual regulation.
    In 2008, the parties to a federal lawsuit, including Dare County, 
Hyde County, a coalition of ORV proponents called CHAPA, the National 
Park Service, and several conservation organizations, engaged in weeks 
of settlement negotiations. Those negotiations eventually culminated in 
a settlement agreement, signed by all those parties and approved by a 
federal judge in 2008. The agreement became known as the Consent 
Decree. A court transcript shows that the county's attorneys 
represented in federal court that the counties and CHAPA ``participated 
in those negotiations in good faith . . . we join with the other 
parties in asking [the court] to enter the Consent Decree.'' The 2008 
Consent Decree set a deadline for the ORV management rule to be 
finalized, and it put in place temporary wildlife protections and ORV 
use restrictions, upon which all parties had agreed, until the Final 
Rule could be implemented.
    During four years of successful management under the Consent Decree 
(the summers of 2008-2011), the Park Service engaged in a full 
rulemaking process that culminated in the 2012 Final Rule. That process 
included numerous public meetings, a negotiated rulemaking with 
opportunity for public comment at each monthly meeting, and two public 
comment periods. Tens of thousands of people commented on the draft 
rule, and the vast majority favored wildlife protections and ORV 
restrictions that were equal to or greater than the terms of the Final 
Rule. Although the Final Rule contains some of the same terms that 
proved successful under four years of the Consent Decree, S 2372 would 
abolish the 2012 Final Rule despite all that public input (not the 2008 
Consent Decree, as Dare County's representative implies).
    By implying that S 2372 will replace the 2008 Consent Decree with 
the 2007 Interim Strategy, the county's representative diverts 
attention from the fact that the vast weight of public opinion, 
science, economic study, and law supports the 2012 Final Rule. In sum, 
the National Park Service's Final Rule alone is supported by facts and 
reason, and will build on the many successes--for both wildlife and 
tourism--of the past four years of ORV management while maintaining 
balanced access for all visitors to Cape Hatteras National Seashore.
                               conclusion
    In sum, for the reasons explained above and in our original 
testimony, the National Park Service's Final Rule for managing ORV use 
on Cape Hatteras National Seashore is supported by facts and reason, as 
well as years of planning and public participation. It will provide 
balanced access for all visitors to the Seashore while providing the 
minimum necessary protection for wildlife. It builds on the management 
measures in place at Cape Hatteras for the last four years during which 
visitation and tourism flourished and wildlife began to rebound on the 
Seashore. Please oppose S 2372, and instead support the National Park 
Service's Final Plan.
                                 ______
                                 
       Statement of Warren Judge, Chairman, Dare County Board of 
                       Commissioners, on S. 2372
    In order to complete and clarify the record, Dare County is 
submitting the following as additional testimony to address important 
issues that were raised at the Hearing before the Senate Subcommittee 
on National Parks on June 27, 2012. Our purpose is to shed further 
light on the pressing need for immediate passage of S. 2372, which 
would reinstate the Interim Management Plan for the Cape Hatteras 
National Seashore Recreational Area (CHNSRA).
     the majority of people support responsible recreational access
    Dare County has been an active participant in every phase of the 
long regulatory process for the CHNSRA. Along with others in our 
community, we attended each public hearing, served on the Negotiated 
Rulemaking Committee, and submitted formal comments on every 
Environment Impact Statement prepared by the National Park Service.
    Throughout the regulatory process, we have observed that most 
people share our core belief that resource protection can effectively 
be balanced with responsible recreational access. The people of our 
community have overwhelmingly been in agreement with this position. 
Reflecting the will of the people, the Dare County Board of 
Commissioners has consistently been in unanimous bi-partisan support of 
recreational access. Our position has also been enthusiastically 
endorsed by our delegation to the North Carolina Legislature. 
Additionally, our Representative to the U.S. House of Representatives, 
Walter B. Jones, and U.S. Senators Richard Burr and Kay Hagan have 
joined in bi-partisan support of federal legislation that would restore 
balance to the Cape Hatteras National Seashore Recreational Area.
    In addition to the support that has been expressed locally, in the 
State Capitol, and in Washington, people in large numbers across 
America have joined the cause of access and fairness for the Cape 
Hatteras National Seashore Recreational Area.
    At the June 27, 2012 Senate Subcommittee hearing, comments were 
made by Herbert Frost, representing the National Park Service, and 
echoed by Derb Carter from the Southern Environmental Law Center 
(SCLC), claiming that restrictive beach closures have received 
widespread popular support. As the elected body closest to the 
epicenter of the seashore, Dare County has found this not to be true. 
Their claims about the popularity of the consent decree are inaccurate. 
Furthermore, they show disrespect by discounting the unanimous, bi-
partisan support of the Congressman and Senators who represent the Cape 
Hatteras National Seashore Recreational Area in Washington, D.C.
    During the regulatory process, we have encountered a large number 
of individuals and organizations who share our view. They represent a 
diverse group of people who treasure the Cape Hatteras National 
Seashore Recreational Area and want to see wildlife prosper for the 
benefit of future generations. In addition to bi-partisan support from 
the Dare County Board of Commissioners, the following have made formal 
statements in support of our position----

  <bullet> Hyde County Board of Commissioners
  <bullet> Outer Banks Chamber of Commerce
  <bullet> Dare County Tourism Board
  <bullet> Outer Banks Preservation Association (OBPA)
  <bullet> North Carolina Beach Buggy Association (NCBBA)
  <bullet> Cape Hatteras Anglers Club
  <bullet> American Sportfishing Association (ASA)
  <bullet> United Mobil Access Preservation Alliance (UMAP)
  <bullet> United Four Wheel Drive Associations
  <bullet> Watersports Industry Association, Inc.
  <bullet> Recreational Fishing Alliance
  <bullet> Ocracoke Civic and Business Association
  <bullet> Hatteras Village Civic Association
  <bullet> Avon Property Owners Association
  <bullet> Assateague Mobile Sportsfishermen Association
  <bullet> New Jersey Beach Buggy Association
  <bullet> Long Island Beach Buggy Association
  <bullet> Rhode Island Mobile Sportsfishermen
  <bullet> Davis Island Fishing Federation
  <bullet> Massachusetts Beach Buggy Association
  <bullet> Virginia Coastal Access Now
  <bullet> Virginia Beach Anglers Club
  <bullet> Tidewater Anglers Club
  <bullet> Delaware Mobil Surf Fishermen
  <bullet> Farragut Striper Club
  <bullet> Association of Surf Angling Clubs
  <bullet> CCA of North Carolina
  <bullet> American Motorcyclist Association

      weather & natural predators--the greatest threat to wildlife
    The Cape Hatteras National Seashore Recreational Area on the Outer 
Banks of North Carolina is a vulnerable coastline exposed to severe 
weather conditions. As such, it is not likely ever to make headlines 
for protected species breeding results. The reason is clear. The 
greatest threat to shorebirds and sea turtles is from weather and 
natural predators.
    Those who want to severely restrict human access choose to ignore 
this basic principle. Instead, whenever breeding results are lacking 
for a particular year, they would have Congress and the public believe 
that humans are to blame rather than rightly attributing the failure to 
adverse weather and natural predators. However, as is explained in the 
following section, whenever any breeding success occurs, the special 
interest groups quickly ascribe credit to their far-reaching 
regulations.
          science to regulate the seashore must have integrity
    Dare County advocates the use of sound scientific decision making 
in governing the seashore. Throughout the regulatory process, we have 
worked closely with informed and dedicated groups such as CHAPA, OBPA, 
NCBBA, and the Cape Hatteras Anglers Club. These knowledgeable, 
grassroots organizations have been on the forefront of advancing 
science-based protection to achieve recovery plan goals while assuring 
reasonable access for people.
    In addition to working in partnership with community groups, Dare 
County has benefited from the support and council offered by concerned 
individuals in the scientific community, including Dr. Mike Berry. His 
views are highly respected and worthy of serious consideration. Dr. 
Berry was a senior manager and scientist with the U.S. Environmental 
Protection Agency (EPA) serving as the Deputy Director of the National 
Center for Environmental Assessment at Research Triangle Park, North 
Carolina. He also taught environmental science and policy at the 
University of North Carolina and is currently a writer and science 
advisor.
    Dr. Berry has long been a dedicated champion in advocating that the 
scientific process be the basis for determining public policy. He 
explains, ``Best available science as touted by environmental groups is 
opinion disguised as science.''
    Following are nine (9) items identified by Dr. Berry and Dare 
County as important scientific principles and rationale to consider in 
evaluating the success of resource management in the Cape Hatteras 
National Seashore Recreational Area.
    (1) The Interim Management Plan fully titled Interim Protected 
Species Management Strategy/Environmental Assessment was publically 
discussed at great length and reviewed under the NEPA provisions in 
2006. It was signed into effect in July 2007 and published in the 
Federal Register.
    As indicated at page 30 in the Finding of No Significant Impact 
Interim Management Strategy (See Attached) ``There are no significant 
adverse impacts on public health, public safety, threatened or 
endangered species, sites or districts listed in or eligible for 
listing in the National Register of Historic Places, or other unique 
characteristics of the region. In addition, no highly uncertain or 
highly controversial impacts, unique or unknown risks, significant 
cumulative effects, or elements of precedence have been identified and 
implementing the selected alternative (modified preferred alternative--
Alternative D (Access/Research Component Focus) with Elements of 
Alternative A) will not violate any federal, state, or local 
environmental protection law. There will be no impairment of park 
resources or values resulting from implementation of the selected 
alternative.''
    The USFWS reviewed and concurred with the Interim Strategy and the 
Finding of No Significant Impact. In the Biological Opinion submitted 
to the NPS, August 14, 2006, USFWS states with regard to the Interim 
Plan,
    ``After reviewing the current status of the breeding population of 
the Atlantic Coast population of the piping plover, wintering 
population of the Atlantic Coast population of the piping plover, the 
wintering population of the Great Lakes population of the piping 
plover, the wintering population of the Great Plains population of the 
piping plover, seabeach amaranth, and loggerhead, green, leatherback, 
hawksbill, and kemp's ridley sea turtles, the environmental baseline 
for the action area, the effects of the proposed action and the 
cumulative effects, it is the USFWS's biological opinion that 
implementation of the Strategy, as proposed, is not likely to 
jeopardize the continued existence of these species.'' (See 
``Conclusion'' at page 75 of USFWS Opinion)
    The NPS rational for the management provisions of Interim Plan is 
indicated at page four in the Finding of No Significant Impact.

    ``SELECTED ALTERNATIVE (MODIFIED PREFERRED ALTERNATIVE--ALTERNATIVE 
D (ACCESS/RESEARCH COMPONENT FOCUS) WITH ELEMENTS OF ALTERNATIVE A

    Based on the analysis presented in the strategy/EA, the NPS 
identified Alternative D--Access/Research Component Focus as the 
preferred alternative for implementation. The preferred alternative is 
described on pages 59-63 and in tables 1, 2, and 3 of the strategy/EA. 
However, after considering public comment on the strategy/EA; park 
field experience during the 2006 breeding season; the USFWS Amended 
Biological Opinion (2007) (attachment 1 to this FONSI); new research 
(``Effects of human recreation on the incubation behavior of American 
Oystercatchers'' by McGowan C.P. and T.R. Simons, Wilson Journal of 
Ornithology 118(4): 485-293, 2006); and professional judgment, NPS has 
decided to implement a combination of Alternative D--Access/Research 
Component Focus and some elements of Alternative A--Continuation of 
2004 Management that pertain to managing sensitive species that are not 
listed under the ESA (see tables 1, 2, and 3 of this document). The 
basic rationale for this choice is that alternative D, as modified by 
elements of alternative A, best provides for both protection of 
federally and non-federally listed species and for continued 
recreational use and access consistent with required management of 
protected species during the interim period, until a long-term ORV 
management plan/EIS/regulation is developed, approved, and implemented. 
The modified preferred alternative--Alternative D (Access/Research 
Component Focus) with Elements of Alternative A is incorporated into 
the strategy/EA by Errata (attachment 2 to this FONSI). All elements of 
the modified preferred alternative were fully assessed in the strategy/
EA under alternative A or alternative D.''
    As indicated in the Finding of No Significant Impact, the selected 
alternative proved for both public access to the seashore and resource 
protection based on professional judgment of NPS managers, and 
consistent with management suggestions of USGS.
    The Interim Plan established ``best professional judgment'' closure 
areas that did not previously exist. (See Pages 34-40 Finding of No 
Significant Impact.)
    (2) Prior to the implementation of the Interim Plan, there was 
concern voiced mainly by environmental activist organizations that 
species decline was occurring on the national seashore as the result of 
increased public access, mainly off road vehicles. For five consecutive 
years (2001-2006), published resource numbers were low compared to 
previous years and were often touted to indicate that species 
populations, particularly birds, were in decline due to anthropogenic 
causes. However, it is often not mentioned that during this same time 
period the Cape Hatteras National Seashore Recreational Area 
experienced back-to-back storms that produced a significant distorting 
and transforming effect on the seashore ecosystem.
    Due to the fact that the National Park Service, resource managers, 
and researchers had limited habitat specific research and monitoring 
data, the actual numbers of species, species behavior, and size of 
species populations at Cape Hatteras National Seashore Recreational 
Area were unknown and often simply speculated in the form of 
``professional judgment''. It is important to recognize that 
``judgments'' and ``opinions'' in the absence of data are not science.
    USGS, the research arm of the Department of Interior, in the 
introduction to the document titled Synthesis of Management, 
Monitoring, and Protection Protocols for Threatened for Endangered 
Species and Species of Special Concern at Cape Hatteras National 
Seashore, North Carolina made the following observation giving credence 
to the fact that the low bird counts published for a few years prior to 
2007 were most likely not indicative of the actual condition of 
species.
    ``Over the past decade, management of these natural resources has 
been inconsistent at CAHA, partially due to the lack of effective and 
consistent monitoring of the location, reproductive activity, mortality 
factors, and winter habitat use of these species.''
    Recognizing the lack of effective and consistent monitoring that 
existed prior to 2007, the Interim Plan established an enhanced and 
intensive resources monitoring program for birds and turtles that had 
not previously existed. Starting in 2007, NPS began seeking out, 
observing, and reporting birds at more heightened level than ever 
before. Since instituting the enhanced monitoring program in 2007, bird 
numbers have increased. (See Pages 34-40 in Finding of No Significant 
Impact.)
    (3) In April 2008, environmental activists organizations sued to 
overturn the Interim Plan, claiming that the plan was not based on 
sound science and closure boundary distances prescribe by USGS. The 
Southern Environmental Law Center, the Audubon Society, and Defenders 
of Wildlife, sued the National Park Service and convinced a federal 
judge without any oral argument or expert testimony to issue a consent 
decree to convert the most popular and frequented sections of the Cape 
Hatteras National Seashore Recreational Area into mile after mile of 
``Bird Use Area'' for a large part of the visitor season.
    The public was given no opportunity to review or comment on the 
poorly crafted environmental management provisions of the consent 
decree. The provisions were slapped together in a period of about three 
weeks in April of 2008, behind closed doors, with no independent 
technical input and discussion.
    Closure boundaries for four bird species (Piping Plover, Least 
Tern, Colonial Water Birds, American Oystercatcher), none of which are 
endangered, have prevented thousands of hard working, tax paying 
citizens and visitors from around the world from entering into large 
areas of the seashore. Thousands of visitors are channeled into now 
much overcrowded sections of the seashore, threatening to overrun the 
carrying capacity of those ecosystems.
    The consequence of this non-public involved environmental decision 
is disastrous. As indicated in testimony this has had a devastating 
effect on the economy of Hatteras Island.
    The access denying provisions of the consent decree provisions, 
which are unnecessarily restrictive and not based on objective science 
assessment, have been incorporated with additions into the final ORV 
management plan that the proposed legislation S. 2372 is designed to 
overturn.
    (4) Environmental activists often referred to National Park Service 
annual resource reports in their self-promoting press releases, public 
testimony, and periodic presentations to the federal judge overseeing 
the consent decree. They use the reports to make claims that the public 
access restrictive resource closures of the consent decree, which they 
crafted and imposed without public review, are resulting in ``highest 
ever'' bird and turtle observations.
    The annual resource reports have never been independently reviewed 
or verified for accuracy.
    The National Park Service and the environmental activists groups 
are comparing numbers in these recent annual resource reports to 
questionable low bird count numbers published prior to 2007 that were 
not observed using the current level of intense and enhanced monitoring 
and measurement that has been in place since 2007. Such an ``apples and 
oranges'' comparison is in no way valid or useful in indicating 
statistical change.
    In the absence of an enhanced monitoring program prior to 2007, it 
is plausible that various bird counts were not as depleted and low as 
claimed by environmental activists but that they were simply not being 
observed, counted, and reported as at the current intense monitoring 
level.
    It is also plausible that any noted increase in bird counts since 
2007 are due to a new enhanced program for seeking out, observing, and 
reporting birds rather than the creation of public access restrictive 
closures.
    At no time in the past four years has any federal official 
demonstrated through independent audit or review, the validity of these 
reports or taken a hard look at environmental activists claims. None of 
the annual reports related to the consent decree for 2008, 2009, 2010, 
and 2011 were ever peer reviewed or validated by competent independent 
science advisors in open public forum or openly discussed by interested 
parties.
    The bird and turtle numbers that environmental activists lawyers 
refer to come from annual National Park Service reports that are not 
consistent with the Presidential Directive for Science Integrity, and 
Department of Interior and National Park Service policies for 
scientific transparency and review. The reports do not indicate an 
author or a federal scientist who takes responsibility for the validity 
of the data. The public does not know who--by name, affiliation, and 
technical qualifications--made the observations and recorded the data. 
The public has no knowledge of chain of custody or quality assurance of 
the data. The public does not know who specifically wrote the reports. 
The public cannot get at the facts and verify claims.
    Resource documents indicate that previously in 2007, annual bird 
reports commissioned by the National Park Service were co-authored by 
Audubon Society members.
    (5) There is no statistically significant environmental benefit 
indicated because of the restrictive access provisions of the Consent 
Decree or the Final ORV Plan.
    Nowhere in any annual resource report of the past four years does 
National Park Service demonstrate or claim a cause and effect 
relationship between overly restrictive closures provided by the 
consent decree and bird and turtle production.
    Environmental activists and the National Park Service cannot 
demonstrate or prove that wildlife production of birds and turtles was 
improved under the overly restrictive provisions of the consent decree 
any more than would have occurred had the provisions of the publically 
reviewed Interim ORV Plan been allowed to move forward for four years.
    In recent court testimony, without qualification, the Seashore 
Superintendent said about birds and turtles, ``the trend is up''. The 
statement is something the judge that issued a consent decree that has 
denied extensive public access to the national seashore wants to hear 
even though at each of the Status Conferences before the judge, the 
Seashore Superintendent has explained to the Court that it is in fact 
too early to ascribe a cause/effect relationship.
    For turtles, production and sightings during the years of the 
consent decree are up all along the Atlantic Coast, not just the region 
governed by the consent decree. For birds, natural processes and 
variability alone can produce such a statistically insignificant one or 
two year ``uptrend'' for a very small number of birds in previous 
years. The production and survival trend for two bird species in the 
current 2012 breeding season appears to be down for this point in the 
season when compared to the past two years.
    (6) Data collected and published by NPS in recent years in no way 
supports the claim by environmentalists that ORVs reduce the 
productivity of birds. In fact, the data suggests that the Interim 
Management Plan, prepared with public input and review in 2005 and 
published in the federal register, was showing every sign of being 
effective at protecting birds and natural resources.
    Had best professional judgment been allowed, along with reasonable 
public access, for the last four years under the consent decree we 
would reasonably expect the same result in bird and turtle production 
we see today, if not better.
    The Interim Management Plan was set aside by the court and replaced 
by the consent decree that mandated extensive closures. The closures of 
recent years have been of exorbitantly high cost to the public, but 
have not contributed to an improvement in species production or safety. 
The consent decree has produced no natural resource benefit over and 
above the Interim Plan. In fact, in the same year the consent was 
issued, the fledge counts were higher under the Interim Plan than under 
the consent decree. In a matter of weeks after the issuance of the 
consent decree, the NPS in Washington and environmental activists in 
Senate testimony disingenuously credited the restrictions of consent 
decree, which had hardly been implemented, for improved bird counts 
that were most probably the consequence of the Interim Plan and 
enhanced monitoring implementation.
    Using the same data to which environmental activists and NPS often 
refer, 7 piping plovers fledged in 2008 under the Interim Plan, 6 in 
2009 under the highly restrictive consent decree. 17 American 
oystercatchers fledged in 2008 under the Interim Plan and 13 in 2009 
under the highly access restrictive consent decree, the same management 
structure now found in final ORV management plan.
    (7) From a scientific viewpoint, ``best professional judgment'' 
closures are more effective and technically sound than closures imposed 
by the Consent Decree and Final ORV Regulation. Smaller closures limit 
the free movement of predators. They do not promote the food chain 
manipulation and transformation in the ecosystem to the same extent as 
the larger consent decree closures.
    The huge closure distances in the consent decree and final plan 
restrictions keep pedestrians and ORVs off the seashore while birds are 
nesting. At the same time, the extensive closures also provide for the 
proliferation and increased free movement of predators. In effect, the 
extensive closures create an ecological trap for birds in that large 
closure areas enhance predation.
    Data at page 10 of 2011 American Oystercatchers Report indicates 
that in 2008 under the Interim Plan, 22% of chicks were lost to 
predation. Under the consent decree boundary restrictions 58% were lost 
in 2009; 35% lost in 2010; and 42% lost in 2011. Since the 
extraordinarily large consent decree boundaries have come into play, 
the predation tend is ``up''.
    Food chain manipulation is one way to promote unnatural bird 
production. The technical provisions of the consent decree have been 
the basis for the selective trapping and killing of bird predators. 
Aggressive predator control during the years of the consent decree is 
altering the ecosystem significantly for the sole benefit of selected 
bird species.
    (8) Over the past 40 years, federal agencies have adopted formal 
peer review policies to ensure they comply with the ``Hard Look 
Doctrine''. Federal Courts expect agencies to take a ``Hard Look'' at 
the science and not be informal or sloppy in their treatment of fact. 
The National Park Service has failed to ensure a valid science basis to 
a regulation that restricts public access to the national seashore. An 
independent review to determine the validity of the so-called 
``scientific fact'' never occurred during the consent decree 
proceedings of the past four years. As a result, the public lost access 
to the beaches of its national seashore. Such government inaction in 
responding to and collaborating with politically powerful special 
interests will only further public outrage and distrust of government.
    Many of the references used to justify the final ORV management 
plan are those of individuals and activists organizations who have 
supported litigation that denies public access. The major science 
references are authored by environmental activist organizations and 
individuals trying to shut down ORV access to the national seashore: 
Audubon, Blue Water, Hatteras Island Bird Club, etc. Many of the 
references are outdated, biased, contain incomplete and misleading 
information, and few have ever been reviewed in open forum. The main 
science references are unsuitable and inappropriate as the basis for a 
government regulation that restricts public access to the national 
seashore and have significant negative impacts on the Outer Banks 
economy.
    The so-called ``USGS Protocols'' continue to be touted as ``best 
available science'' in the development of the final ORV management plan 
for the Cape Hatteras Seashore Recreational Area.
    The USGS Protocols were cited as being ``in press'' 5 years after 
they first appeared on the Park Service website. There was no date on 
the document, no responsible federal official identified, no government 
document number. The final publication was not accessible, publically 
reviewed, or fully explained by government authority at the time the 
DEIS was submitted to the public for comment.
    In an introduction to the final release of the Protocols in March 
2010, USGS states, ``Although no new original research or experimental 
work was conducted, this synthesis of the existing information was peer 
reviewed by over 15 experts with familiarity with these species. This 
report does not establish NPS management protocols but does highlight 
scientific information on the biology of these species to be considered 
by NPS managers who make resource management decisions at 
CAHA.''.http://pubs.usgs.gov/of/2009/1262/).
    As indicated by USGS, the ``Protocols'' are really not hard and 
fast science based protocols but suggested considerations rendered by 
an ad hoc group. Such ad hoc suggestions can in no way be characterized 
as ``best available science''.
    The literature reviews found in the ``USGS Protocols'' as published 
in final are significantly out of date. Many citations are over 20 
years old and most are not related to the Cape Hatteras National 
Seashore Recreational Area. The public does not have access to the 
literature reviewed in this essential report and most of the citations 
are so insignificant they cannot even be found in major university 
libraries that have extensive environmental and natural resource 
publications such as the University of North Carolina at Chapel Hill.
    The following speaks volumes as to the lack of formality and 
serious purpose of the ``USGS Protocols'' currently used as the excuse 
for beach closures.

  <bullet> There is no public record that the protocols, which have 
        been the source of closures, have been officially peer reviewed 
        following USGS peer review policy. http://www.usgs.gov/usgs-
        manual/500/502-3.html
  <bullet> There is no public file, docket, or documentation of peer 
        review questions, comments, or author response.
  <bullet> There is no indication that the protocols were ever 
        published in a peer reviewed journal or publication or ever 
        referred to as what they are, management guidelines and 
        opinions as opposed to in-depth science assessment.
  <bullet> Scientists having any kind of conflict of interest 
        association, whether through membership, collegial 
        associations, funding, or grants must disclose the 
        relationship. Some authors and reviewers of the protocols were 
        members and associates of organizations now using the protocols 
        to restrict public access to the beaches of the national park, 
        a fact never disclosed openly and not in compliance with USGS 
        peer review policy.

    As has been stated many times in public comment to the National 
Park Service, the best course of action to resolve the matter of valid 
science is to turn the science review and update over to the National 
Academy of Sciences or some other neutral party, to objectively, 
critically, and comprehensively review all relevant science, disclose 
the facts and restore some public trust in the scientific process used 
as the basis for environmental management decisions at Cape Hatteras 
National Seashore Recreational Area. Most importantly, for the 
restrictive provisions of the final ORV management plan, there is no 
indication that NPS ever plans to revisit the USGS Protocols and the 
science basis for closure boundaries.
    The NPS fails to take hard look at the science that might 
contradict its current justification for denial of public access to the 
Cape Hatteras National Seashore Recreational Area.
    (9) Nowhere is a specific science basis, study or data, ever 
presented, or published for a given bird management option, established 
solely for the Cape Hatteras National Seashore Recreational Area.
    Closure boundaries are overly restrictive at CHNSRA and are not 
used at other NPS properties. There has been no administrative or 
science based explanation given to the public for these uniquely 
restrictive closures that limit public access to the seashore, other 
than they are somehow in the primary interest of resource protection 
and ``come down on the side of birds and turtles''.
    No deaths of Piping Plover chicks or destruction of eggs by humans 
are documented at the Cape Hatteras National Seashore Recreational 
Area. More specifically, no Piping Plovers have been verified as lost 
to ORVs accessing the national seashore as is often claimed by 
environmental activists. The majority of nests and hatched birds the 
past four closure seasons, and before, were lost to predation and 
storms, one at the hands of a university researcher trying to band a 
bird.
    In the face of no documented Piping Plover loss due to human 
activity, NPS, USGS and the contributing scientists have failed to 
explain specifically why, by way of science justification, 1000-meter 
boundaries, that prohibit public entry into an area up to 770 acres, 
must be established every time a Plover chick is observed. The 
literature indicates that on average Plover chick movement is less than 
200 meters. The NPS claim in response to public comments that plover 
chicks run further distances on Hatteras is a ridiculous excuse for 
sound science. The public access denial consequences of such a 
subjective management policy for a national seashore, which is set 
aside for public access, is excessive, does not indicate a balance of 
responsible usage, and fails to reflect reasonable or professional 
resource management.
                               conclusion
    The testimony outlined above carefully documents that there is not 
a cause effect relationship to the restrictive provisions of the 
consent decree. The special interest groups who want to severely limit 
recreational access rely on flawed science that lacks integrity, peer 
review, and without regard to the full consideration of the law, the 
economy, and public use.
    Now, more than ever, the people need federal agencies, such as the 
National Park Service, to be held accountable for policies that have 
hurt the people. Regulations at the Cape Hatteras National Seashore 
Recreational Area are out of balance and unless remedied soon they will 
have permanent consequences. The livelihood and future of our people 
depends on the passage of S. 2372.
                                 ______
                                 
             Statement of Annette Ratzenberger, on S. 2372
    This bill will allow responsible human access to the Cape Hatteras 
National Seashore Recreational Area--note this is not a wildlife 
preserve but a ``Recreational Area''. The current restrictions imposed 
by NPS as a result of the law suit by environmentalist organizations is 
too strict and prohibits the intended use of this area. (Much of the 
land was donated specifically so that future generations could enjoy 
this beach). The environmentalist organizations have publicly stated 
that their goal is to remove all humans from Hatteras island as 
happened with Portsmouth Island. DO not let this happen. The current 
restrictions are having a huge impact on the economics of Hatteras 
Island and the families that have called it home for years. I care 
about the environment and the survival of these shorebirds--they are 
not endangered by any definition on the Atlantic Coast. The people of 
Hatteras Island have always been good stewards of the land and 
environment that surrounds them.... please return the pride and 
responsibility of this stewardship back to them to work in concert with 
NPS.
                                 ______
                                 
                                     Wisconsin Legislature,
                                        Madison, WI, June 22, 2012.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building Washington, DC.
    Dear Chairman Bingaman and Committee Members: We ask that you 
support Senator Herb Kohl's S. 2158 to establish the Fox-Wisconsin 
Heritage Parkway National Heritage Area.
    The Fox-Wisconsin Heritage Parkway has been seeking designation as 
a National Heritage Area (NHA) for many years and if it is granted, it 
will become the flrst NHA in Wisconsin. This bill was fust brought 
forward in 2008 but did not pass and has been reintroduced in the 
Senate by Senator Kohl and in the House by Congressman Tom Petri. We 
hope that you'll support the creation of the Fox-Wisconsin Heritage 
Parkway National Heritage Area.
    The Fox-Wisconsin Heritage Parkway would be a great way for the 
Country as a whole and the State of Wisconsin ro help recognize the 
tremendous importance of these two rivers to out state's history and 
development. The Fox and Wisconsin Rivers were of great importance to 
the American Indians and were central to their daily lives. The 
development of Wisconsin further progressed with the influence of 
French missionaries, explorers and trappers, whom were told by the 
natives, the American Indians, of a connection between the Mississippi 
River and the Great Lakes. This led to Louis Joliet and Jacques 
Marquette navigating Lake Michigan to Green Bay and nearly to the 
headwaters of the Fox River, they portaged their canoes at the present 
day city of Portage and resmned their journey on the Wisconsin River 
and entered the Mississippi River in 1673. Their journey led to the 
further exploration by Nicolet, Allouez, Radisson and others, all of 
whom paved the way for the further exploration and expansion into the 
American West. The Fox-Wisconsin Heritage Parkway follows Joliet and 
Marquette's momentous journey from the Mississippi River to Green Bay.
    As Wisconsin became settled by European immigrants, the Fox and 
Wisconsin Rivers became vital transportation routes and vital economic 
drivers. As the country was spreadmg west, Wisconsin became an 
important commercial center and shoppirtg place, providing a link 
between the Great Lakes and Mississippi River routes. In addition, the 
Fox and Wisconsin River Corridors became instrmnental to the 
development of many industries that Wisconsin is famous for, including: 
mining, agriculture,, logging, textiles, paper, and milling.
    The rivers provided easy transportation of raw materials and 
finished products and provided the power necessary to nm these 
industries.
    In the past century and particular in the past few decades we have 
begun to recognize and promote the importance of consetvation along the 
corridor. In Appleton and the Fox Cities, after dredging the river and 
cleaning it up, we ate seeing businesses and entertainment return to 
the rivet front. All of Wisconsin's ``fathers of conservation'' got 
their start along the Fox Wisconsin Rivers. The rivers are now a key 
part to the tourism and entertainment industries along their banks, we 
need to make sure that we can properly protect, maintain and restore 
the Fox-Wisconsin Corridor and having the Fox-Wisconsin Heritage 
Parkway named a National Heritage Area is a great way to ensure that 
generations to come can enjoy the fruits and beauty of the Fox and 
Wisconsin Rivers.
    We hope that you'll support Senator Kohl's bill to recognize the 
tremendous economic and historic value of the Fox-Wisconsin corridor 
and support the creation of the Fox-Wisconsin Heritage Parkway National 
Heritage Area.
            Sincerely,
---------------------------------------------------------------------------
    * Additional signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
                                                Fred Clark,
                      State Representative, 42nd Assembly District.
                                     Penny Bernard Schaber,
                      State Representative, 57th Assembly District.
                                                 Alvin Ott,
                       State Representative, 3rd Assembly District.
                                 ______
                                 
  Statement of Trish Nau, GIS Coordinator/Recreational Planner, East 
       Central Wisconsin Regional Planning Commission, on S. 2158
    I am writing this letter today in support of SB-2158, establishing 
the Fox-Wisconsin Heritage Parkway in becoming a National Heritage Area 
(NHA). For over 10 years, my staff and co-workers have been working 
diligently on the mapping and reports for the Parkway along with the 
Friends of the Fox and other partnerships throughout the region.
    The Parkway offers a unique perspective to the history of Wisconsin 
and provides many recreational opportunities for visitors to enjoy. The 
banks of the Fox and Wisconsin Rivers flow through a mix of urbanized 
and rural areas. We can still follow the exact route that Marquette and 
Jolliet took centuries ago, stopping at the forts and points of 
interest along the fur trade. The lock sites along the Fox River have 
also been starting to be refurbished and with it much history of their 
lock tenders and houses.
    The Parkway should be treated as a National Landmark with all the 
history and character that accompanies the area. Please consider making 
this region a National Designation and everything that goes along with 
that status.
                                 ______
                                 
 Statement of Richard D. Schramer, Mayor, City of Berlin, Berlin, WI, 
                               on S. 2158
    As the mayor of the City of Berlin that is situated on the Fox 
River, I would like to speak in favor of bill S.2158, to establish the 
Fox-Wisconsin Heritage Parkway National Heritage Area. The efforts 
undertaken by the City of Berlin have been to place Berlin back on the 
Fox as a destination for tourism. This included restoring navigation 
through the Eureka Lock by the efforts of the Berlin Boat Club and 
$300,000 in private funding. This restoration effort of the lock 
structure that was built in the 1860's, reconnects navigation from the 
Lower Fox River and the Lake Winnebago system with points up stream 
including Berlin and Princeton. Berlin is also performing waterfront 
improvements to promote tourism and recreation as well as to promote 
economic development of our downtown. Passage of this bill and 
establishing this national heritage area solidifies our efforts to 
promote this area's history, not only for Berlin, but for the entire 
Fox River valley and Wisconsin River that served as the nation's 
highway in the early days of our country's development.
                                 ______
                                 
   Statement of Denny Caneff, Executive Director, River Alliance of 
                   Wisconsin, Madison, WI, on S. 2158
    I am writing in support of SB 2158, a bill, sponsored by Sen. Herb 
Kohl, to establish the Fox-Wisconsin Heritage Parkway National Heritage 
Area.
    There are few rivers in the country that tell the story of Upper 
Midwestern settlement and development like the Fox ru1d Wisconsin 
rivers can. In recent years, the state of Wisconsin, municipalities and 
local organizations have committed themselves to revealing those 
stories in compelling ways. Parallel to those efforts is the work of 
those same local governments and organizations to clean up the water 
and protect the land associated with these rivers.
    All in all, there may be no better candidate river systems for this 
national designation than the Fox and Wisconsin. Such a designation 
would not only commemorate the past but would honor the current good 
works raising the profile and advancing the rich cultural and historic 
legacy of these two great rivers.
    Thank you for your consideration.
                                 ______
                                 
  Statement of Mark Geall, Principal, RiverHeath, LLC, Appleton, WI, 
                               on S. 2158
    I am writing to support the Fox-Wisconsin Heritage Parkway. As a 
child, I lived along the Fox River and used to fish from its banks with 
my father. As I grew older, I recognized the river as a vital component 
of Wisconsin's manufacturing operations. Now, many decades later I 
realize the importance of preserving the rich history of the Fox-
Wisconsin river system as it flows across our State. These rivers have 
played a key role in Wisconsin's history, and it is time to recognize 
that significance and preserve it for the next generation. Please seize 
this energy and enthusiasm coming from many different communities 
across Wisconsin. A designated trail noting all of the historic places 
would be a tremendous asset to this State and the National Heritage 
Area system.
   Statement of Tracy Hames, Executive Director, Wisconsin Wetlands 
                        Association, on S. 2158
    I'm writing in support of Senator Kohl's bill S. 2158, the bill to 
establish the Fox-Wisconsin Heritage Parkway as a National Heritage 
Area.
    The area delineated to be included in the National Heritage Area 
contains some of the best examples of intact native wetlands in 
Wisconsin. These areas include the Lower Wisconsin River & Wyalusing 
State Park, Page Creek Marsh, Rush Lake, and White River Marsh. All of 
these sites have been designated as Wetland Gemso by Wisconsin Wetlands 
Association. Designation of the Fox-Wisconsin Heritage Parkway as a 
National Heritage Area will help call attention to these exceptional 
wetlands, allowing them to be used as examples for wetland protection 
and restoration throughout the state.
    This bill has received bipartisan support at a federal level, high 
commendation from the National Park Service and tremendous support from 
Parkway citizens, communities, organizations, agencies and local 
officials.
    I am pleased to support designation of the Fox-Wisconsin Heritage 
Parkway as a National Heritage Area and the many positive benefits it 
will bring to our region and the State of Wisconsin. I thank Senator 
Kohl and his effort to recognize our region's rich cultural and natural 
heritage.
                                 ______
                                 
    Statement of Candice Mortara, President, Fox-Wisconsin Heritage 
                          Parkway, on S. 2158
    Thank you for taking the time to consider this legislation. I have 
been a full time volunteer for this effort for the past 4 years and am 
very passionate about the asset that the Fox-Wisconsin Heritage 
Parkway, once fulfilled, will be to the State of Wisconsin.
    It has been an amazing gift to be involved with the Parkway effort. 
We have over 55 people spread throughout the state giving countless 
hours of their time to see this project come to life. They are excited 
by the prospect of preserving the history and bringing it to the public 
in a way that will help them identify with it and increase the pride 
that they already feel for our state.
    They are excited about the water trail and increased access to this 
river that has been industrial most of its life and not something that 
most wanted to access. To the great credit of the industries along the 
river, due to their efforts, it has been brought back to lovely once 
again. The eagles and pelicans are calling it home.
    Our volunteers are also excited about the potential economic 
development that is so important to the founders of this project. We 
will be running it with a business mind, per se, so that we are 
fiscally self-sufficient at the earliest possible moment. We will do 
better by the state by building into our plan multiple revenue-
generating ventures so that we are not reliant on grant possibilities. 
This will allow for greater stability and ease in planning.
    We are unique in that we have not waited for the designation or the 
federal money to begin. Our dedication and passion is so high that we 
have completed the feasibility study, and will be completing the 
interpretive master plan, the economic impact plan, the strategic 
organization plan, and our quantitative measurement matrix prior to 
even receiving the designation.
    This means we will hit the ground running and all National Park 
Service technical support and funding will go immediately to 
implementation.
    So much has happened since we completed our feasibility study. 
Please find attached a list of our current partners and our current 
fundraising effort and total, as well as our 2011 Annual Report.
    I thank you for your consideration,
                                 ______
                                 
 Statement of Shahla M. Werner, Director, and Will Stahl, Conservation 
                 Chair, Sierra Club--John Muir Chapter
    The Sierra Club-John Muir Chapter is honored to have the 
opportunity to submit comments on S. 2158, to establish the Fox-
Wisconsin Heritage Parkway National Heritage Area. We represent 15,000 
citizens from throughout Wisconsin who strongly value the native 
biological diversity, historical sites, and recreation provided by this 
important public resource. We are, therefore, strongly urging your 
Committee to support S. 2158.
    S. 2158 will establish the Fox-Wisconsin Heritage Parkway as 
National Heritage Area (NHA) with the National Park Service. This area 
traces several scenic waterways across Wisconsin from Green Bay to Lake 
Winnebago to Merrimac and Prairie du Chien. It includes several 
historic landmarks, from the Appleton and Menasha locks to Aldo 
Leopold's shack to the Merrimac Ferry to Frank Lloyd Wright's Taliesin. 
A National Heritage Area (NHA) is a region that has been recognized by 
the United States Congress for its unique qualities. It is a place 
where natural, cultural, historic and recreational resources combine to 
form a cohesive, nationally distinctive landscape that tells an 
important story about the natural and human history of the United 
States.
    This national designation would bring many tangible and intangible 
benefits for the Parkway and neighboring communities, including 
increased protection for natural resources, recognition of the cultural 
value of the area, increased educational opportunities for people 
living in the region, and economic growth through tourism.
    The unique features of the Fox Wisconsin Heritage Parkway warrant 
protection as a National Heritage Area. Supporting this designation 
would bring much-needed jobs to our state while at the same time 
preserving for future generations natural resources and a historically 
significant area.
    Thank you for considering our comments on this important issue, and 
please contact us with any question or concerns.
                                 ______
                                 
   Statement of Lisa Pauly, Chair, Historic Preservation Commission, 
                               on S. 2158
    This letter is written on behalf of the City of Fond du Lac 
Historic Preservation Commission in support of Senate Bill 2158 which 
would establish the Fox-Wisconsin Heritage National Parkway.
    These two significant waterways, the Fox and Wisconsin Rivers, 
through their connection to Lake Winnebago, have played an important 
role in the history of the City of Fond du Lac and opening the 
Midwestern United States to settlement. The establishment of the Fox-
Wisconsin Heritage Parkway would exemplify the outstanding natural, 
recreational and historic resources of the State of Wisconsin from 
Prairie du Chien to the Port of Green Bay.
    A designation as a Heritage Parkway will help create additional 
opportunities for historic interpretation, education, recreation, and 
tourism within the City of Fond du Lac. The Historic Preservation 
Commission supports efforts to establish a year-round heritage tourism 
destination that will result in an overall boost to Wisconsin's economy 
and the City of Fond du Lac's economy by enhancing and promoting 
historic sites; promoting local events; developing scenic routes; 
providing outdoor enthusiasts with more recreational activities and 
public access and bringing new businesses and jobs.
    There are only 49 heritage parkways in the United States, none of 
which are in the State of Wisconsin. Senate Bill 2158 to establish the 
Fox-Wisconsin Heritage Parkway presents a unique and exciting 
opportunity to highlight Wisconsin's great natural, recreational and 
historic resources.
                                 ______
                                 
  Statement of Eileen Fielding, Executive Director, Farmington River 
                   Watershed Association, on S. 2286
    Mr. Chairman, Thank you for the opportunity to comment on this 
bill. I am submitting remarks on behalf of the Farmington River 
Watershed Association (FRWA), a private non-profit organization founded 
in 1953 to preserve, protect, and restore the Farmington River and its 
watershed, and based in Simsbury, CT. FRWA played a leading role in the 
designation of 14 miles of the Farmington River's West Branch as a Wild 
& Scenic River in 1994. FRWA likewise led in promoting Congressional 
legislation authorizing the Lower Farmington River and Salmon Brook 
Wild & Scenic Study, and has had a representative on the Lower 
Farmington Wild & Scenic Study Committee since its inception in 2007.
    FRWA supports S. 2286 because we believe strongly that Wild & 
Scenic designation provides an appropriate and effective way to 
encourage and support local stakeholders who work cooperatively on 
river management. With Wild & Scenic designation, representatives from 
various user groups can work together to implement a plan that all have 
participated in creating. The Partnership Wild & Scenic model that was 
pioneered on the Farmington West Branch in the 1990s has proved very 
successful. It has fostered long-term collaborations among diverse 
users of the river and has catalyzed local initiatives and matching 
support for river projects that improve our valley's communities. In a 
state with no county-level government and many strongly independent 
townships, a program that brings town representatives together for 
creative stewardship of a common resource is critically important.
    A strong point of the Partnership W&S model on the West Branch is 
that the federal support is not used exclusively by a single entity, 
but is parceled out by the W&S coordinating committee to assist many 
river-related projects undertaken by towns, land trusts, other NGOs, 
students, and independent contractors as they work together on river 
protection and management. Augmenting our local resources with W&S 
funding and Park Service technical help promotes a unified approach and 
maximum leverage for federal dollars. The same approach will work well 
in the 10-town area of the Lower Farmington River and Salmon Brook, as 
demonstrated by the extraordinary success of the Lower Farmington Study 
Committee over the last five years as they prepared the W&S management 
plan for the lower river and Salmon Brook, and conducted extensive 
outreach and education that resulted in widespread support for 
designation.
    Along with our strong support for the bill, we wish to point out 
that the major purpose of designation through the Wild & Scenic River 
Act is to maintain the free flow of a river, with exclusions allowed 
for pre-existing dams and impoundments. FRWA, along with the Wild & 
Scenic Study Committee, made every effort to accommodate the need to 
protect Stanley Black & Decker's existing hydro operation, with the 
understanding that ``existing'' means no future increase in the height 
of Rainbow Dam. Maintaining the current height of Rainbow Dam (i.e., 
the current height of the permanent structure, plus its 6-foot 
flashboards) was the intention behind agreeing to the Spoonville Dam 
site as the upper boundary of the exclusion area. We've been careful to 
confirm that that location is a very generous allowance for eventual 
FERC licensing of the existing hydropower dam and impoundment. However, 
the latitude provided by this boundary should not be interpreted as 
implied agreement to allow a higher dam or flashboards at some future 
date. New language in the bill, specifying the present dam height, 
could clarify this point.
    Keeping to the present height of Rainbow Dam has several benefits. 
It safeguards a nationally-known whitewater recreation run in Simsbury 
that lies just upstream of the proposed boundary. It will also prevent 
any permanent rise in average water surface elevation along the river 
in the towns of Bloomfield, East Granby and Simsbury. These towns 
supported Wild & Scenic designation with that expectation, and their 
interests would thus be respected.
    As to the downstream boundary for the Rainbow Dam / Rainbow 
Reservoir exclusion area, FRWA favors the language now in the bill, as 
most fully protecting the free-flowing condition of the river. In 
contrast, one proposed alternative boundary would enlarge the exclusion 
by more than two miles downstream, to retain an option of developing a 
small hydropower site. Weighed against the cost of development, the 
likelihood of permitting, and the impact of a new dam on the ongoing 
restoration of the river's fisheries, the overall community benefit of 
this option is genuinely debatable.
    In conclusion, I would like to express our appreciation for the 
considerable efforts to reach a fair agreement on the part of all who 
have participated in the drafting of this bill. We look forward to its 
passage as an example of far-sighted protection and management of our 
remarkable river resources for the benefit of the Farmington Valley 
community.
                                 ______
                                 
Statement of Frank M. Harvey, on Behalf of Stanley, Black, & Decker, on 
                                S. 2286
    Mr. Chairman: My name is Frank W. Harvey, Director of Real Estate 
for Stanley, Black & Decker (SBD). Our company is headquartered in 
Connecticut and employs 1200 people in state operating tool plants and 
other facilities. SBD's facilities, property and operations would be 
impacted by designation of the Lower Farmington River as a component of 
the Wild and Scenic River (WSR) system. We appreciate this opportunity 
to present our views regarding S. 2286.
    SBD has consistently represented that it would like to be able to 
support legislation designating the Farmington River and continues to 
take that position. Support for WSR designation legislation, however, 
has been contingent on resolution of two specific issues: (1) adequate 
protection for the operations and maintenance of the existing Rainbow 
Dam and (2) appropriate treatment of another hydroelectric dam site 
held by SBD near the Route 75 Bridge across the River.
    A hydroelectric dam was constructed at the Rainbow site in the late 
1800's and was the world's first hydroelectric plant to transfer power 
to a remote site--Hartford, some 11 miles away. The dam was rebuilt in 
1925 and has provided electricity continuously since then. Today the 
power generated at Rainbow Dam is used at SBD's New Britain tool plant 
via a power exchange and provides additional green energy to the local 
power grid.
    Earlier draft versions of S. 2286 (and H.R. 4360) designated 
portions of the Rainbow site within the WSR and this action would 
likely have adverse impacts on operations including flowage rights. SBD 
noted this problem and we appreciate that the sponsors have modified 
section 3 of the bill to exclude the reach of the River from the old 
Spoonville Dam downstream to the Rainbow Dam. This exclusion resolves 
one of SBD's primary concerns.
    Even with this exclusion, we remain concerned that the WSR 
designation upstream and downstream from the Dam could impact its 
operations. To that end, we suggest that S. 2286 be modified to include 
language in section 4(e) stating that the designation and 
administration of the WSR will not affect the management and operation 
of Rainbow Dam including the storage, management, and release of water. 
Identical language has been previously enacted to address similar 
situations and the Snake River WSR designation in Public Law No. 111-
11, section 5002(e)(6) employs such language. Incorporation of such 
language will address SBD's concerns regarding prospective impacts on 
the Rainbow facility and operations.
    SBD's other primary issue is the impact of WSR designation on the 
use of, or value, of SBD's hydroelectric site near the Route 75 bridge. 
Plainly, WSR designation of this reach of the River would foreclose 
future hydroelectric development of this site. SBD acquired this 
property and site with full expectation that it could be used for 
hydroelectric development. And while SBD has no immediate plans for a 
new dam or other structure on this property, our shareholders' 
interests are served by maintaining our historic and present ability to 
license such projects at this site. Given the uncertainties surrounding 
energy supplies in the U.S. and the world, SBD is also persuaded that 
the possibility of additional green energy in this part of Connecticut 
ought not to be foreclosed. Exclusion of this site from the WSR would 
be accomplished by amending section 3 to designate a 6.1 mile reach of 
the Farmington River starting 2.5 miles downstream from Rainbow Dam.
    We are aware of the strong interest in barring development on this 
site and including these lands, and reach of the River, within the WSR. 
As a result, SBD is prepared to consider an alternative approach that 
ensures it realizes the full value of these interests for its 
shareholders. A provision could be added to the bill establishing a 
process for prompt acquisition of the site from SBD and post-
acquisition addition of these lands to the WSR. Acquisition would be 
for fair market value reflecting that the highest and best economic use 
for the site is hydroelectric development. This would provide for 
conservation of the site without diminishing the value and expectations 
presently held by SBD. Modification of S. 2286 to either exclude this 
hydroelectric site or provide for its prompt acquisition for full value 
as discussed above are acceptable alternatives for SBD.
    SBD has appreciated the attention, time, and good faith efforts of 
WSR proponents to work with us on these issues and concerns. We are 
hopeful that incorporating into S. 2286 the additional changes 
discussed above will enable a Farmington River WSR bill to move quickly 
with the full support of SBD and the greater Connecticut community. 
Thank you.
                                 ______
                                 
    Statement of Helen Keith and Carolyn Keith Silvia currently of 
    Huntington, Vermont and Bridgewater, Massachusetts respectively
(Daughters of the Honorable Hastings Keith (R-MA 1958-1972), who 
represented Cape Cod and other contiguous areas (then the 9th District) 
of Massachusetts during the development and passage of the legislation 
creating the Cape Cod National Seashore.)
                               on s. 2316
    Thank you very much for allowing my sister and me to put 
information before the Senate Committee on Energy and Natural Resources 
and its Sub-Committee on National Parks' June 27th hearing on S 2316. 
We offer information on the Cape Cod National Seashore, its local 
history and the effort to bring the park to fruition through the 
intense negotiations, hard work, much time and worry by many key 
people, in its creation. What follows is a brief summary, followed by 
the reasons we believe the Salt Pond Visitor Center should not be 
renamed at all, and a set of resources for further information on the 
history and roles of a number of leaders that helped create this 
national and local treasure.
                            some background
    On September 3, 1959, Senator Saltonstall, Senator Kennedy, and 
U.S. Representative Hastings Keith who represented the Cape, filed 
concurrent legislation to establish the park. On August 7th 1961, 
President Kennedy signed the bill and it became law. This piece of work 
was guided by Kennedy, Saltonstall and Keith (and very importantly 
their staffs) over a period of several years. For many years prior to 
this there were efforts to develop a national seashore park that 
involved a number of people including Tip O'Neill and Congressman 
Boland and many others too numerous to mention here.
    Our Dad, Hastings Keith, entered into his first term as a US 
Congressman representing Cape Cod, the Islands, most of Plymouth 
County, and New Bedford and at that time part of Fall River, 
Massachusetts. The issue of the creation of a national park was a hot 
one--having the prior Congressman for the Cape state that ``there would 
be no seashore except over his dead body'' (Burling's The Birth of the 
Cape Cod National Seashore, page 17). But the new Congressman Keith was 
committed to working things out, listening to the towns and the 
townspeople, creating a locally designed, acceptable, seashore 
preservation and feeding into the work of the Saltonstall--Kennedy 
staffs. A relatively young Congressman, in his first term he wanted 
very much to represent his district well. He took the work of 
developing legislation for the CCNS very seriously and spent much of 
his time, in those first years, meeting with town representatives, 
property owners (pro and con) and others dedicated to preservation of 
certain lands that would become the heart of the park. Many ``tear out 
your hair'' kind of meetings occurred. We didn't get to see him much 
during that time. And--our family is proud that he worked so hard on 
what was and has become a national treasure.
why not to rename the salt pond visitor center in the cape cod national 
                                seashore
    The reasons we write to you now have to do with the well-intended 
but not appropriate (somewhat paraphrased from a portion of the June 3, 
2012 Cape Cod Times Editorial) push to rename the Salt Pond Visitor 
Center to the ``Thomas P. O'Neill Jr. Salt Pond Visitor Center'' to 
honor Tip on his 100th birthday. We would like the efforts to honor Tip 
to be redirected.
    The following issues outline why we and others think there should 
be no renaming of anything in the CCNS.
    There is opposition to both S 2316 and HR 4400 from those on the 
Cape and those who know the history of the Cape Cod National Seashore 
(CCNS) park. Please see attached editorial and articles from Cape Cod.
    There has been no public hearing on the Cape to get the views and 
recommendations of the people who live there. There needs to be a 
public hearing on the Lower Cape (not in Washington DC) to hear about 
what the MA delegation has determined to be a good way to honor Tip.
    While the current bills (S 2316 and HR 4400) acknowledge Tip's role 
in some aspects of the development of the Cape Cod National Seashore, 
it is only a slice of the truth. The bills appropriately describe many 
of his wonderful accomplishments. The truth is that many others had a 
much more direct role in its every day development; and, there are too 
many to honor in this manner. No one wants a feeding frenzy of re-
naming ceremonies that would attempt to decide who needs to be honored 
the most. The natural names that are a part of the CCNS' long history, 
going back to early Native American times should not be changed to 
honor anyone.
    There have been several histories of the Cape Cod National Seashore 
written including the following two: Francis P. Burling's 1979 book 
entitled The Birth of the Cape Cod National Seashore published by the 
Leyden Press, Inc. and Charles H.W. Foster's 1985 The Cape Cod National 
Seashore A Landmark Alliance published for Tufts University by the 
University Press of New England. These published histories, in addition 
to describing the roles and actions of Kennedy, Saltonstall and Keith, 
illuminate the critical role that the staff members (in particular 
David Martin of Senator Saltonstall's office and Fred Holborn of then 
Senator Kennedy's office) played in the drafting and negotiating of 
issues that resulted in the final Kennedy--Saltonstall--Keith bill that 
was signed into law in 1961.
    One of the unique aspects of the legislation included the 
establishment of the Advisory Commission, a first we believe for a 
national park. That Advisory Commission exists today. It took no stance 
on S2316/HR 4400 in its May 2012 meeting. In fact it was not even on 
the agenda according to Cape Cod Times report of the meeting by Mary 
Ann Bragg on May 22nd 2012. ``The renaming was not listed on the 
commission's agenda for the May 21st meeting.'' Apparently 
Superintendent Price brought it up at the end of the meeting and there 
was brief discussion and no action taken. Please see article attached 
for conjecture on why no statement was made (the attachments have been 
sent to Committee staff for the record).
    There are other ways to honor Tip's leadership roles in so many 
things and especially his dedication to bipartisanship in key actions. 
This has already happened through the naming of a federal building and 
parking garage and a tunnel. His legend does live on!
    The unintended result of the current S 2316 is an inaccurate and 
jarring action, disrupting the names in the CCNS. This effort does not 
reflect the alliances and everyday hard work that really happened to 
preserve/conserve this natural treasure. There was no local input and 
little opportunity for true public input. Again we recommend that no 
action be taken to rename anything in the CCNS.
                         recommended next steps
    It is our recommendation to let this bill calm down and sleep for a 
time, perhaps redirecting the honoring part to the naming of another 
building, the City of Cambridge, or a bridge or have a big celebration 
in Boston, raise money and donate it to a worthy cause that Tip would 
have liked, maybe to the CCNS as our Dad did. Hastings Keith directed 
that donations made in his name upon his death in 2005 be made to the 
Friends of the Cape Cod National Seashore. However, his name does not 
need to be on a visitor center.
    Again S 2316 is a well-intentioned effort, but the effort needs to 
be re-directed to honoring Tip in other ways.
    Thank you for your thoughtful deliberations on this matter.
    We are submitting several attachments to be used with this memo for 
the record. The attachments support the stance above that there should 
be no renaming of anything in the Cape Cod National Seashore because so 
many people shared the work at many different levels in its creation 
and because we should not put human names into sacred, historic places 
when we have the chance to not do so.
    The attachments cited below, have been sent to Committee staff for 
the record, are as follows:
    Cape Cod Times articles and editorials from May 22nd 2012 Cape Cod 
National Seashore Advisory Committee meeting article Mary Ann Bragg
    June 2nd 2012 Keith's kin: Drop `Tip' renaming effort for seashore 
article Mary Ann Bragg
    June 3rd 2012 Tip of the hat, editorial staff
    June 1961 Washington Report (not printed at government expense) 
Newsletter from Congressman Keith, 9th District, Massachusetts on the 
history of the legislation and analysis of its present status.
    Cape Cod Today: AP article reprinted on July 11th 2011 in a series 
of what happened today: House Approves Bill to Create A National Park 
at Cape Cod. ``. . . WASHINGTON, July 10 (AP) The house today passed by 
a roll-call vote of 278 to 82 a bill sponsored by Representative 
Hastings Keith, Republican of Massachusetts, to create a 25,700 acre 
national seashore area along the outer coast of Massachusetts' Cape Cod 
. . ..''
    Excerpts from Francis Burling's 1979 book The Birth of the Cape Cod 
National Seashore and Excerpts from Charles H.W. Foster's 1985 The Cape 
Cod National Seashore A Landmark Alliance
    Information is also available from the Library of Congress, and 
several web sites, including those at the Bridgewater State University 
and the Cape Cod Community College. Please go to http://
www.capecod.edu/files/nickerson/keith.html and http://www.capecod.edu/
files/nickerson/seashore.html. These collections include working papers 
related to the Cape Cod National Seashore of former Congressman 
Hastings Keith who represented the Cape during these times.
                                 ______
                                 
         Editorial Article from Cape Cod Times.--Tip of the Hat


    In life, Thomas ``Tip'' O'Neill was a political force of nature. 
The late Speaker of the House championed numerous liberal causes and 
served as the point man for the Democrats, especially during President 
Ronald Reagan's two terms in office. He sometimes used his position as 
a bully pulpit, wielding his power more effectively than many 
presidents.
    It therefore comes as little surprise to learn that in this year, 
the 100th anniversary of his birth, those who knew and respected the 
man, known to many simply as ``Mr. Speaker,'' would be seeking 
appropriate ways to keep both his name and legacy alive as a model for 
the next generation. It is only right and just that this be done.
    However, the current effort by some of the state's congressional 
representatives to rename the Cape Cod National Seashore's Salt Pond 
Visitor Center in his honor is as misguided as it is well intentioned.
    The logic behind the honor is understandable. Although his house in 
Harwich was a second home, O'Neill often brought his considerable 
influence to bear on behalf of the Cape. He was a strong and early 
proponent for the creation of the National Seashore, as well as 
Chatham's Monomoy National Wildlife Refuge. He advocated for Harwich's 
town marina and was an erstwhile supporter of the Family Pantry.
    O'Neill also believed in compromise in a way that is difficult to 
imagine when one considers the ideological impasse that Washington, 
D.C., has become. In the 34 years in which O'Neill served in the House, 
it was not unusual for political opponents to battle over matters of 
policy by day and to share a beverage and a laugh or two the same 
evening. Reagan, who shared O'Neill's gregarious nature, if not his 
political persuasions, almost certainly respected his rival as much as 
he disagreed with him at times.
    After his death in 1994, O'Neill assumed almost legendary status 
within the Democratic Party, especially in Massachusetts, where he was 
particularly beloved for his mantra that ``all politics is local.'' 
Perhaps better than anyone before or since, O'Neill understood that one 
needed to look out for one's constituents if he expected to be returned 
to office. But O'Neill also understood that no one person is 
responsible for progress; that politics is a team sport, and that it is 
the team, not the individual, that celebrates any victory, or 
commiserates over any loss.
    The National Seashore Advisory Commission recently declined to take 
an official stance on the matter. Although a number of representatives 
said that they opposed the move on principle, some also suggested that 
it would be politically unwise to challenge the effort.
    There were hundreds of people at the local, state and national 
level, including U.S. Rep. Hastings Keith, Sen. Leverett Saltonstall 
and President Kennedy, who helped move the National Seashore from vague 
concept to vibrant reality. There is no question that O'Neill played a 
vital role in that process and should be remembered for his part in the 
effort. But to do so to the exclusion of the many others who put their 
reputations and lives into what can truly be called a national treasure 
would do a disservice, not only to them, but to a man who truly 
believed in a team effort.
                                 ______
                                 
 Statement of Brenda J. Boleyn, Truro, MA, Former Member CCNS Advisory 
                   Commission (1990-2011), on S. 2316
    To honor the late Tip O'Neill on the 100th anniversary of his birth 
is a laudable objective; to do so by renaming the Visitor Center at 
CCNS is a case of misguided site selection.
    Those who know the CCNS also know the many players who shaped its 
history.
    As I wrote in a letter last month to the House subcommittee 
reviewing this bill, the honor ``will be perceived as inappropriate 
recognition for work done by others. And I believe that, were he here, 
Mr. O'Neill would be uncomfortable with that reality.''
    This bill is ill-advised. I hope that it is not too late for its 
sponsors to find another way.
    Please vote NO on S 2316; leave the name of the Salt Pond Visitor 
Center unchanged.
    Thank you for receiving my testimony.
                                 ______
                                 
 Statement of Mary-Jo Avellar, Representative to the Cape Cod National 
                Seashore Advisory Commission, on S. 2316
    I am Provincetown's representative to the Cape Cod Advisory 
Commission and served for many years with Brenda Boleyn, whose 
correspondence follows.
    I am in full agreement with Ms. Boleyn and with the daughters of 
the late Rep. Hastings Keith who have also written you in opposition to 
the naming of the Salt Pond Visitor's Center in Eastham for the late 
Speaker Tip O'Neill.
    Although I recognize and respect the late Speaker for his enormous 
contributions to the country and the Commonwealth of Massachusetts, I 
feel that this bill is ill-advised at best and undermines the memories 
of so many others who were extremely instrumental in establishing the 
Cape Cod National Seashore. I cite in particular Pres. John F. Kennedy, 
Sen. Leverett Saltonstall and Rep.Hastings Keith.
    In addition, a federal building and the ``big dig'' tunnel have 
already been named in honor of Speaker O'Neill. It is my feeling and 
belief as Provincetown's representative to the CCNS Advisory Commission 
that naming this facility in honor of the Speaker without holding 
public hearings here on Cape Cod is a disservice to my town and to the 
other five towns who live within the confines of the Seashore. Those of 
us who live in these six communities remember very well those members 
of the Congress whose hard work and that of their staff members led to 
the creation of this beautiful Seashore 51 years ago. In the interests 
of fairness, citing one member of the Congress over the many others who 
worked as a team to make the Seashore a reality is an insult to the 
three primary individuals, namely Pres. Kennedy, Sen. Saltonstall and 
Rep. Keith.
    Please add my testimony to the Subcommittee hearing scheduled for 
June 27, 2012 and forward this testimony to Sens. Udall, Bingham, 
Murkowski and Paul.
                                 ______
                                 
  Statement of Thomas J. Cassidy, Jr., Vice President for Government 
Relations and Public Policy, National Trust for Historic Preservation, 
                               on S. 3300
    The National Trust for Historic Preservation appreciates the 
Committee on Energy and Natural Resources' Chairman Jeff Bingaman's 
leadership introducing S. 3300, legislation to establish the Manhattan 
Project National Historical Park. We are also grateful for Senators 
Lamar Alexander, Maria Cantwell, Tom Udall, and Patty Murray's 
leadership in co-sponsoring this legislation.
    I am Thomas J. Cassidy, Jr., National Trust for Historic 
Preservation's Vice President of Government Relations and Public 
Policy. The National Trust is a privately-funded nonprofit 
organization, working to protect America's historic places to enrich 
the lives of future generations. With headquarters in Washington, D.C., 
12 field offices, 27 historic sites, and partnering organizations in 50 
states, territories, and the District of Columbia, the National Trust 
provides leadership, education, advocacy and resources to a national 
network of people, organizations and local communities committed to 
saving places, connecting us to our history and collectively shaping 
the future of America's stories. For more than 20 years, the National 
Trust has advocated for the preservation and enhancement of historic 
and cultural resources on federal public lands.
    The top-secret Manhattan Project has been called ``the single most 
significant event of the 20th century.'' The Manhattan Project brought 
an end to World War II, altering the role of the United States in the 
world community and effectively setting the stage for the Cold War. The 
creation of the atom bomb brought an end to World War II fostering 
advances in the newly emergent fields of chemotherapy, high-speed 
computer technology, genomics, and bioengineering.
    The facilities associated with the Manhattan Project were top-
secret, hidden in rural locations and their perimeters bound with 
security fencing. The project's classified status demanded sites be 
situated beyond the range of enemy aircraft, isolated from population 
centers yet accessible to a ready labor supply as well as rail and 
motor transportation. Sites possessed enough land to erect laboratories 
and secret towns which would house scientists, construction workers, 
and their families. Specific laboratories--the Los Alamos Laboratory, 
New Mexico, the Oak Ridge Reservation, Tennessee, and the Hanford Site, 
Washington--were central to the mission and were established to support 
research. Constructed of wood-frame, masonry, and poured concrete, the 
laboratories were where these weapons were to be created and then be 
dismantled at war's end. The buildings that survive to the present day 
are important to the interpretation of the Manhattan Project and the 
round-the-clock drive to complete its mission. The laboratories 
retaining architectural integrity and are considered eligible for 
National Register of Historic Places and National Historic Landmark 
(NHL) designation. These sites, owned and managed by the U.S. 
Department of Energy (DOE), were listed on the National Trust for 
Historic Preservation's List of America's 11 Most Endangered Historic 
Places in 2009, with the Enola Gay Hangar at Utah's Wendover Airfield 
representing threatened Manhattan-era properties. In 2011, the National 
Trust named Manhattan Project resources to its National Treasures 
program, an initiative dedicated to saving the places that tell 
America's stories through the engagement of a wide range of people and 
partners in strategic campaigns to protect these irreplaceable places.
                      manhattan project background
    The Manhattan Project is the unparalleled story of a nation coming 
together for common cause. Work began modestly, but the initiative 
quickly grew to employ more than 130,000 people nationwide. Sixty 
percent of all expenditures for the Manhattan Project supported 
research occurring at Oak Ridge, Tennessee, which functioned as the 
project's administrative headquarters. It was the Oak Ridge Reservation 
which focused exclusively on three methods of uranium enrichment--
electromagnetic separation, gaseous diffusion, and liquid thermal 
diffusion.
    In 2000, the DOE named eight ``Signature Facilities'' of the 
Manhattan Project. DOE's goal was to move forward in preserving and 
interpreting these properties by integrating departmental headquarters 
and field activities and joining in a working partnership with all 
interested outside entities, organizations, and individuals, including 
Congress, state and local governments, the Department's contractors, 
and various other stakeholders. Though certainly a prestigious 
designation, the listing does not preclude building deterioration or 
demolition of historic facilities affiliated with the Manhattan 
Project.
    These eight ``Signature Facilities'' include Hanford's B Reactor 
and T Plant Chemical Separations Building; Oak Ridge's K-25 gaseous 
diffusion plant, Y-12 Beta-3 Racetracks, and X-10 Graphite Reactor; Los 
Alamos' V-Site Assembly Building/Gun Site; the Trinity Site owned by 
the Department of Defense and the Metallurgical Laboratory at the 
University of Chicago.
Oak Ridge
    Designed in 1943 to produce the enriched uranium necessary to an 
atomic weapon, K-25 was central to the Manhattan Project's mission and 
illustrates the enormous scale and ambition of the Manhattan Project. 
At the time of its construction, K-25 was the largest building in the 
world located beneath a single roof, its U-shaped footprint 
encompassing 43 acres. Purposed to enrich Uranium 235, and its 
scientists pressed to begin the uranium enrichment process, crews 
initiated construction before the building's overall design could be 
completed. However, the footprint and some of the skeletal structures 
and a small original portion may be preserved to convey the gigantic 
effort and resources. The small remains left of K-25 are currently 
threatened with demolition by the DOE.
    The Y-12 electromagnetic facility was the first to break ground in 
1943. With the region's former farmsteads removed in the fall of 1942, 
engineers initiated construction of Y-12's nine uranium enrichment 
buildings and the hundreds of warehouses, cooling towers, office 
buildings, and laboratories required to support the work. Construction 
advanced at such a rapid pace that in December 1945, the Engineering 
News Record described the achievement as the equivalent of having 
constructed the Panama Canal within a period of 12 months. Building 
9731 known as the Y-12 Pilot Plant for isotope separation and research 
was the first non-administrative building at the Y-12 complex. It was 
completed in only eight weeks, serving as a pilot building for 
experimenting with electromagnetic separation techniques. It is 
eligible for National Historic Landmark designation.
    The Y-12 facility which houses the Beta-3 Electromagnetic 
Separation Racetracks was state of the art technology for fifty years. 
It is one of only two plants in the world capable of producing over 200 
stable isotopes. Building 9204-3 houses working calutrons. The 
calutrons remaining at Y-12 today represent the only surviving 
production-level electromagnetic isotope separation facility in the 
United States. The enriched uranium produced by Y-12's calutrons 
ultimately created the weapon detonated over Hiroshima.
    The X-10 Graphite Reactor construction was begun in 1943. Designed 
as the pilot plant for reactors later constructed in Hanford, 
Washington, the Graphite Reactor produced the world's first significant 
amounts of plutonium, proving that plutonium production could be 
achieved. Hanford, Washington's B Reactor was subsequently completed in 
1944, becoming the world's first reactor to produce plutonium on a 
large-scale. The X-10 Graphite Reactor is in its original condition and 
currently serves as a museum where visitors can examine the reactor 
face and control panels.
Los Alamos
    The laboratories erected at Los Alamos, New Mexico, were 
constructed on the grounds of the former Los Alamos Ranch School, a 
boy's boarding school which was situated approximately 40 miles from 
Santa Fe. Established in 1928, the school's 800-acre campus contained 
Fuller Lodge, a rustic log-constructed building which met the school's 
administrative needs and a scattering of rustic outbuildings. Acquired 
by the Army in 1942 for inclusion in the Manhattan Project, the 
school's rural campus was soon overrun by barracks and chemistry and 
physics laboratories.
    By 1944, Los Alamos was home to the ``V-Site,'' the lab in which 
the world's first plutonium bombs were assembled. ``The Gadget,'' code 
name of the prototype ``Fat Man'' bomb detonated over Nagasaki, was 
assembled here. Today, the community retains historic residential 
buildings and public spaces dating from the World War II period. Los 
Alamos' visitors will have unique opportunity to walk the same paths as 
the giants of 20th century physics.
Hanford
    The B Reactor was completed 1944, becoming the world's first 
reactor to produce plutonium on a large-scale. The B Reactor was built 
on a significantly larger scale at 250 megawatts compared with the X-10 
Graphite Reactor which produced only 4,000 kilowatts of power. Two 
additional Reactors, D and F were built and the three lined the banks 
of the Columbia River in order to have access to the water used as a 
coolant at the reactors.
    The B Reactor has over two-thousand aluminum tubes and two hundred 
uranium slugs. The water from the Columbia River was first treated and 
then pumped through the aluminum tubes around the uranium slugs at the 
rate of 75,000 gallons per minute through huge motor-driven pumps. 
These three reactors produced plutonium for the Trinity device, the 
Nagasaki weapon and Cold War weapons. The D and F Reactors have been 
demolished and entombed, but the B Reactor building is currently 
accessible via limited, ticketed public tours. The TPlant was one of 
two chemical separation plants at Hanford designed to remove the 
plutonium from the uranium slugs. Only one atom in every 4,000 was 
converted to plutonium in the process so chemical processing was 
necessary to separate the elements by dissolving the uranium and 
processing the solution through several process cells. The elements 
were too radioactive to be handled directly so all processing was 
through remote control and closed circuit television. The T Plant was 
later used for other work, but it still stands at Hanford today.
               permanent preservation and interpretation
    On October 18, 2004, President George W. Bush approved Public Law 
108-340, ``The Manhattan Project National Historical Park Study Act.'' 
The act directed the Secretary of the Department of the Interior, in 
consultation with the Department of Energy, to conduct a study for the 
preservation and interpretation of historic sites associated with the 
Manhattan Project. At its conclusion in July 2011, the Feasibility 
Study determined resources located in Los Alamos, Oak Ridge, and 
Hanford possessed the national significance required for designation 
and were suitable for inclusion in the National Park System. The 
National Trust for Historic Preservation fully endorses this 
conclusion.
    We recognize this designation will be accompanied by controversy. 
History is often fraught with complexity, and it is for this reason the 
National Trust supports creation of the Manhattan Project National 
Historical Park. Anyone who has visited National Park Service units 
like Little Bighorn, Manzanar, Andersonville or Little Rock Central 
High School, understands that these National Parks are authentic 
sites--the places where history happened--and not places of 
celebration. The National Park Service's mission in these locations is 
to preserve and objectively interpret what is often complex and 
contentious history, so current and future Americans have opportunity 
for a deeper understanding of seminal events.
    The National Trust believes historic sites associated with the 
Manhattan Project are no less worthy of National Park recognition. 
Present and future generations of Americans all deserve the opportunity 
to see and learn about our nation's history through the unbiased and 
balanced interpretation of the National Park Service and to draw their 
own conclusions about how the Manhattan Project changed the world. 
Recognizing that sites associated with the Manhattan Project are places 
of commemoration, Pulitzer-prize winning historian Richard Rhodes 
describes these authentic places in this way: ``The factories and bombs 
that Manhattan Project scientists, engineers, and workers built were 
physical objects that depended for their operation on physics, 
chemistry, metallurgy, and other natural sciences, but their social 
reality--their meaning, if you will--was human, social, political. The 
same is true of Williamsburg and Bandelier and the Declaration of 
Independence.''
        national trust for historic preservation recommendations
    We respectfully request the Senate also consider the following 
recommendations:

  <bullet> Authorize user/entrance fees. The National Trust supports 
        language recognizing DOE's responsibility to maintain its 
        assets. We respectfully request legislation authorizing a 
        modest entry/user fee purposed for assisting with the long term 
        stewardship needs of non-DOE-owned assets.
  <bullet> Donations authority should be broad. The National Trust 
        requests legislation ensure the acceptance of both personal 
        property and financial donations to support the National 
        Historical Park and tours of the sites. We suggest language 
        establish the necessary structure ``to accept, hold, 
        administer, and use gifts, bequests, and devises (including 
        real and personal property, labor and services), for the 
        purpose of preserving and providing access to, historically 
        significant resources.''

    The National Trust for Historic Preservation applauds the National 
Park Service and the Department of Energy for their successful 
collaboration. We anticipate this innovative partnership will bring 
many benefits to the Manhattan Project National Historical Park, 
creating a model which may be replicated by other agencies. We look 
forward to working with you, and request that National Park designation 
be completed by the close of the 112th Congress.
                                 ______
                                 
                            American Civil Liberties Union,
                                     Washington, DC, July 11, 2012.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Committee on Energy & Natural 
        Resources, 304 Dirksen Senate Office Building, Washington, DC.
Hon. Rand Paul,
Ranking Member, Subcommittee on National Parks, Committee on Energy & 
        Natural Resources, 304 Dirksen Senate Office Building, 
        Washington, DC.
RE: ACLU Concerns with S. 3078, World War II Memorial Prayer Act

    Dear Chairman Udall and Ranking Member Paul: On behalf of the 
American Civil Liberties Union (ACLU), a non-partisan organization with 
more than a half million members, countless additional activists and 
supporters, and 53 affiliates nationwide dedicated to the principles of 
individual liberty and justice embodied in the U.S. Constitution, we 
write to express concerns with S. 3078, which would require that an 
inscription of President Franklin D. Roosevelt's D-Day prayer be added 
to the WWII Memorial. This attempt to play politics with religion 
detracts from the stated purpose of the memorial--national unity.\1\
---------------------------------------------------------------------------
    \1\ American Battle Monuments Commission (AMBC), National WWII 
Memorial, Facts, http://www.wwiimemorial.com/
default.asp?page=facts.asp&subpage=intro (``Above all, the memorial 
stands as an important symbol of American national unity, a timeless 
reminder of the moral strength and awesome power that can flow when a 
free people are at once united and bonded together in a common and just 
cause.'').
---------------------------------------------------------------------------
    Memorials are designed to bring our country together in a unified 
reflection of our past. S. 3078, however, endorses the false notion 
that all veterans are honored by a war memorial that includes a prayer 
given from a specific religious viewpoint. During this subcommittee's 
June 27 hearing on S. 3078, the bill's lead sponsor, Senator Rob 
Portman, stated that the inclusion of the prayer would reflect our 
country's ``Judeo-Christian heritage and values.''\2\ But, our nation 
is, and always has been, extraordinarily religiously diverse; this is 
one of our nation's great strengths. Department of Defense reports show 
that nearly one-third of all current members of the U.S. Armed Forces 
identify as non-Christian.\3\ Likewise, many of our veterans and 
citizens come from a variety of religious backgrounds, or have no 
religious belief. Instead of being something that unites us as we 
remember the sacrifice of those who served, the inclusion of a prayer 
on the memorial, which is described as reflective of specific religious 
beliefs is divisive: It ``sends a strong message of . . . exclusion'' 
to those who do not share the same religious beliefs.\4\ The First 
Amendment affords special protections to freedom of religion. Because 
of these protections, each of us is free to believe, or not believe, 
according to the dictates of our conscience. These beliefs are too 
precious to be used for political purposes, as this bill would do.
---------------------------------------------------------------------------
    \2\ Misc. National Parks Bills Hearing Before the Subcomm. on 
National Parks of the S. Comm. Energy & Natural Resources, 112th Cong. 
(2012) (Statement of Senator Rob Portman) available at http://
www.energy.senate.gov/public/index.cfm/hearings-and-business-
meetings?ID=a64e4f88-18d3-4489-96a0-b1a89b2b51e6 (86:15).
    \3\ Religious Diversity in the U.S. Military, Military Leadership 
Diversity Comm'n, Issue Paper No. 22 (June 2010).
    \4\ See Trunk and Jewish War Veterans v. City of San Diego, 629 F. 
3d 1099, 1124-25 (9th Cir. 2011), cert. denied, 567 U. S. ---- (2012). 
Senator Joseph I. Lieberman, a co-sponsor of this bill, stated on the 
Senate floor that in offering this prayer, President Franklin D. 
Roosevelt was "bring[ing] faith and God in a very inclusive and 
nondiscriminatory way into our public life." 158 Cong. Rec. S3748 (June 
6, 2012) (floor statement of Sen. Lieberman). However, including this 
prayer in the World War II Memorial will exclude those veterans and 
other visitors who do not share those beliefs.
---------------------------------------------------------------------------
    The memorial, as it currently stands, appropriately honors those 
who served and encompasses the entirety of the war. The World War II 
Memorial Commission and the American Battle Monuments Commission (ABMC) 
carefully chose the thirteen inscriptions already included on the 
memorial. The inscriptions contain quotes spanning from the beginning 
of U.S. involvement in the war following the attacks on Pearl Harbor to 
the war's end, and already include a quote from D-Day and two quotes 
from President Roosevelt.\5\ These commissions thoroughly deliberated 
which inscriptions to include, selecting quotations that honor those 
who served and commemorate the events of World War II.\6\ ``The design 
we see today was painstakingly arrived upon after years of public 
deliberations and spirited public debate.''\7\ Not surprisingly, the 
ABMC and National Capital Memorial Advisory Commission, which was 
designated by Congress to consult on the design of the Memorial,\8\ 
have stated that ``no additional elements should be inserted into this 
carefully designed Memorial.''\9\ Senator Portman's assertion that the 
World War II Memorial needs to be improved to provide ``historical 
context to [the] memorial'' and add ``another layer of 
commemoration''\10\ is simply not the case. This bill should be seen 
for what it is, playing politics with religion.
---------------------------------------------------------------------------
    \5\ AMBC, National WWII Memorial Inscriptions, http://
wwiimemorial.com/archives/factsheets/inscriptions.htm.
    \6\ National Parks Service, World War II Memorial Inscription 
Controversy available at http://www.nps.gov/wwii/photosmultimedia/
upload/WWII%20Memorial%20Inscription%20Controversy%20web.pdf. This is 
not the first time that religion has generated controversy regarding 
inscriptions on the WWII Memorial. After the World War II Memorial 
Commission and the ABMC selected quotations to inscribe in the 
memorial, there was a ``maliciously generated and widely distributed 
notion'' that the phrase ``so help us God'' was removed from the quote 
selected from President Roosevelt's address before a joint session of 
Congress following the Pearl Harbor attacks. In fact that phrase was 
never part of the speech at all and was, therefore, not omitted from 
the quotation. Id.
    \7\ Legislative Hearing on H.R. 1980, H.R. 2070, H.R. 2621, and 
H.R. 3155 Before the Subcomm. on National Parks, Forest and Public 
Lands of the H. Comm. on Natural Resources, 112th Cong. (2012) 
(Statement for the Record from National Park Service, U.S. Department 
of the Interior) available at http://www.doi.gov/ocl/2006/
HR2070_110311.htm.
    \8\ Commemorative Works Act, 40 U.S.C. Sec. Sec.  8901-09. Although 
S. 3078 would apply the Commemorative Works Act, it is written to 
sidestep the Act's provisions. It would either override the authority 
established under the Act to approve the WWII Memorial's design by 
adding an additional element nearly a decade after the memorial was 
dedicated or, if the prayer inscription is to be considered a new 
memorial, it would circumvent the Act's stipulation that new memorials 
not ``interfere with, or encroach on, an existing commemorative work.'' 
40 USC Sec. Sec.  8904-05; see also House Hearing, Statement for the 
Record from National Park Service. The House version of this bill (H.R. 
2070) would exclude the prayer inscription from the Commemorative Works 
Act.
    \9\ House Hearing, Statement for the Record from National Park 
Service.
    \10\ Senate Hearing, Statement of Senator Rob Portman.
---------------------------------------------------------------------------
    Please contact Legislative Counsel Dena Sher at (202) 715-0829 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e3a2d363b2c1e3a3d3f3d322b70312c39">[email&#160;protected]</a> if you would like to discuss the ACLU's concerns with 
S. 3078.
            Sincerely,
                                           Laura W. Murphy,
                           Director, Washington Legislative Office.
                                              Dena S. Sher,
                                               Legislative Counsel.
                                 ______
                                 
Statement of Chris Long, President, Ohio Christian Alliance, on S. 3078
    We are honored to submit this letter of support for S. 3078, the 
WWII Memorial Prayer Act, legislation that will include FDR's D-Day 
Landing Prayer at the WWII Memorial in Washington, D.C. We would like 
to express appreciation to Senators Portman and Lieberman for their 
cosponsorship of this legislation.
    Sixty-eight years ago, on the morning of June 6, 1944, as Allied 
forces were landing on the beaches in Normandy, President Roosevelt 
went to the airwaves and prayed with our nation for God's blessing and 
protection upon our brave fighting men. He prayed, ``Almighty God: Our 
sons, pride of our nation, this day have set upon a mighty endeavor, a 
struggle to preserve our Republic, our religion, and our civilization, 
and to set free a suffering humanity. . ..''
    President Roosevelt's prayer articulated the great crusade that was 
underway to liberate millions suffering under tyranny. He honored the 
war effort and paid respect to the fallen and those veterans who fought 
courageously in the conflict. It is only fitting that succeeding 
generations learn of this prayer that was offered at that most poignant 
moment in our nation's history. We are encouraged by the support that 
this legislation is receiving. Veterans and veterans groups across the 
nation are in support of adding FDR's D-Day Landing Prayer to the WWII 
Memorial in Washington, D.C. This prayer represents an important piece 
of American history. Historians indicate that President Roosevelt hand 
wrote the prayer which was an inspiration to a nation engaged in a 
great world war of which the outcome was still very much uncertain. The 
prayer gave hope to millions of Americans.
    We therefore urge members of this subcommittee to support the WWII 
Memorial Prayer Act and pass the legislation that will allow its 
placement at the WWII Memorial in Washington, D.C. We commend Senators 
Portman and Lieberman, and the co-sponsors of this historic 
legislation.
                                 ______
                                 
   Statement of Americans United for Separation of Church and State, 
                               on S. 3078
    Founded in 1947, Americans United is a nonpartisan educational 
organization dedicated to preserving the constitutional principle of 
church-state separation as the only way to ensure true religious 
freedom for all Americans. We fight to protect the right of individuals 
and religious communities to worship as they see fit without government 
interference, compulsion, support, or disparagement. Americans United 
has more than 120,000 members and supporters across the country.
    We submit this written statement to express our objections to S. 
3078, which calls for the installation of a plaque or inscription with 
a prayer at the World War II Memorial in the District of Columbia, 
which was dedicated in May 2004. We believe that inserting the prayer 
acts contrary to the Memorial's goal of uniting Americans and defies 
the design judgments reached through a rigorous process.
    It is true that ``each visitor views the memorial through their own 
experience, which sometimes results in their questioning aspects of the 
design.''\1\ But this questioning, no matter how heartfelt, should not 
reopen the design process. For example, since the Memorial's 
dedication, soldiers have requested amendments to add the Battles of 
Cassino, Bougainville and New Georgia; asked for changes to recognize 
the Canal Zone; and advocated for the inclusion of campaign ribbons.\2\ 
These requests were denied.\3\ As explained in a letter written in 2006 
by the American Battle Monuments Commission, ``The government agencies 
for the design of the memorial . . . consider it complete, recognizing 
that the full story can never be captured in a memorial.''\4\
---------------------------------------------------------------------------
    \1\ Letters from Michael G. Conley, Director of Public Affairs, The 
American Battle Monuments Commission, Complaint letters to The American 
Battle Monuments Commission (ABMC) from the public and/or members of 
Congress concerning battle monuments 3, http://www.governmentattic.org/
docs/ABMC_ComplaintLetters_2006-7.pdf (ABMC Response Letters).
    \2\ Id. at 3, 25, 37, 50.
    \3\ Id.
    \4\ Id. at 3.
---------------------------------------------------------------------------
  inserting this prayer contradicts the main message of the memorial--
                                 unity
    One of the main themes of the World War II Memorial is unity: ``The 
memorial serves as a timeless reminder of the moral strength and the 
awesome power of a free people united in a common and just cause.''\5\ 
Adding a prayer to the completed Memorial, however, does not serve the 
theme of unity. Instead, it introduces an element to the design on 
which many Americans disagree--religion.
---------------------------------------------------------------------------
    \5\ Thomas B. Grooms, U.S. General Services Administration's Design 
Excellence Program in the Office of the Chief Architect, World War II 
Memorial Online Book 25 (2004), http://www.wwiimemorialfriends.org/
docs/WWII_Memorial_Book_Completed.pdf; see also id. at 56 (explaining 
that the Memorial design was chosen because it "created a strong sense 
of unity-the bringing together the nation-with the two colonnades 
representing the states); id. at 65 (during the design process, 
``overall, the peers sought to keep the site as `green' as possible 
while ensuring the integrity of the design vision, particularly the 
theme of national unity . . . .'') (WWII Memorial Online Book).
---------------------------------------------------------------------------
    When Senator Rob Portman and Senator Joseph Lieberman spoke about 
the bill on the Senate floor upon its introduction, they both noted the 
religious significance of adding the prayer. Senator Portman explained 
that the new inscription will be a ``permanent reminder of . . . the 
power of prayer through difficult times.''\6\ And Senator Lieberman 
stated his belief that the prayer will ``remind us that faith in God 
has played a pivotal role in American history every day since the 
Declaration of Independence.''\7\
---------------------------------------------------------------------------
    \6\ ``Portman Commemorates D-Day with WWII Memorial Prayer Act on 
Senate Floor,'' June 6, 2012. http://www.youtube.com/
watch?v=SsTPINh9WHY.
    \7\ Id.
---------------------------------------------------------------------------
    But America's military, like the nation itself, is extraordinarily 
religiously diverse. Our veterans--like our currently serving troops--
come from many different religious traditions and some follow no 
spiritual path at all. Indeed, a 2009 report by the Department of 
Defense ``tracks 101 faiths for active-duty personnel'' and notes that 
``almost 281,710 claim[ed] no religion.''\8\
---------------------------------------------------------------------------
    \8\ Bob Smietana, Buddhist Chaplain is Army First, USA TODAY, Sept. 
8, 2009, http://www.usatoday.com/news/military/2009-09-08-buddhist-
chaplain_N.htm.
---------------------------------------------------------------------------
    Adding a prayer that represents some, but not all veterans and 
members of the military, defies the theme of unity, making many feel 
unrepresented by the Memorial. The current Memorial represents all 16 
million service members who served in our armed forces during World War 
II. There is no need to alter the Memorial to depict one particular 
view of God, causing some veterans to feel excluded.
 the designers of the memorial called for fewer inscriptions, not more
    The process of choosing the inscriptions for the World War II 
Memorial was exhaustive and done with expertise and should not be 
reopened. Robert Abbey, the director of the Bureau of Land Management, 
testified that ``the design we see today was painstakingly arrived upon 
after years of public deliberations and spirited public debate.''\9\ 
Indeed, ``the inscription selection and review process involved two 
American Battle Monuments Commissions (one appointed by President 
Clinton, one appointed by President Bush), the Memorial Advisory Board, 
military service and civilian historians, the Library of Congress, the 
National Park Service, and the Commission of Fine Arts.''\10\ During 
this process, ``the number, locations, words, and authors to be 
represented [on the memorial] changed often.''\11\
---------------------------------------------------------------------------
    \9\ Hearing on H.R. 1980, H.R. 2070, H.R. 2621, and H.R. 3155 
Before the Subcomm. on National Parks, Forests and Public Lands of the 
H. Comm. on Natural Resources, 112th Congress (2011) (testimony of 
Robert Abbey, Director of the Bureau of Land Management).
    \10\ ABMC Response Letters at 3.
    \11\ World War II Online Book at 76-79.
    \11\ Id. at 76.
---------------------------------------------------------------------------
    As part of the inscription approval process, the American Battle 
Monuments Commission created a Review Commission, whose membership 
included historians and retired Army Generals, to review proposed 
inscriptions for the monument.\12\ This Review Commission called for 
``Fewer Words--Less Inscriptions.''\13\ The Review Commission ``decided 
to reduce the number of inscription locations from 25 to 20 and to 
emphasize evocative quotations from World War II participants--
including Roosevelt, Truman, Marshall, Eisenhower, MacArthur, and 
Nimitz.''\14\
---------------------------------------------------------------------------
    \12\ Id. at 76-79.
    \13\ Id. at 76.
    \14\ Id. at 79.
---------------------------------------------------------------------------
    Adding additional inscriptions to the monument, therefore, goes 
against the vision, expertise, and design of those who designed the 
Memorial.
                      the commemorative works act
    As explained in our letter to Members of the Subcommittee, S. 3078 
defies the Commemorative Works Act (CWA). The original design process 
included ``more than two dozen public reviews,'' and ``numerous 
informal design review sessions with members of the evaluation board 
and design competition jury.\15\
---------------------------------------------------------------------------
    \15\ Id. at 65.
---------------------------------------------------------------------------
    And, as explained above, the inscriptions themselves were also 
subject to significant review. Adding additional inscription 
disrespects the original process and the current design.
    Statements at the hearing challenged this claim because S. 3078 
calls for the design of the new inscription or plaque to also go 
through the CWA process. The fact that the plaque itself must be 
approved through the CWA process does not undo the fact that the 
Memorial's design is being reopened and altered or that the painstaking 
decisions made in the original process are being overruled. The bill 
demands that a specific inscription be added. Even if the exact 
location and the font of the inscription will be reviewed under the 
CWA, it does not cure the fact that the insertion of the plaque 
violates the design process and, at a minimum, the spirit of the CWA.
              the mlk inscription on the lincoln memorial
    Statements were also made at the Subcommittee hearing challenging 
our claim that redesigning aspects of a Memorial more than a decade 
after its dedication is nearly unprecedented. Proponents of S. 3078 
claim that adding the prayer to the World War II Memorial is akin to 
adding an inscription at the Lincoln Memorial to commemorate Martin 
Luther King's ``I Have a Dream Speech.'' But the MLK plaque is wholly 
different.\16\ That plaque did not re-litigate the content and message 
of the Lincoln Memorial: it did not alter, remove, or add language, 
images, or emblems relating to the honoring of President Lincoln. It 
did not second guess the designers, historians, architects, or public 
input regarding the best way to honor Lincoln at the memorial. Instead, 
it left the Lincoln Memorial intact and commemorated it as the site for 
a historical event. In just a few words, the inscription commemorated 
Martin Luther King, Jr's speech: the inscription includes the words ``I 
HAVE A DREAM,'' and acknowledges the speaker, the event, and the date. 
Inserting a new inscription among those chosen for the memorial, 
therefore, is easily distinguishable from inserting the inscription 
marking the ``I Have a Dream'' speech onto the Lincoln Memorial.
---------------------------------------------------------------------------
    \16\ In addition, actions to fix spelling errors and misquotes or 
to add names to Vietnam Memorial are also easily distinguishable.
---------------------------------------------------------------------------
                               conclusion
    Our forefathers were wise when they called for our nation to 
separate church and state. It protects the autonomy of religious 
institutions and ensures that Americans have the right to believe--or 
not--as they choose without government intrusion or influence. A quick 
search on the internet on S. 3078 demonstrates why passing legislation 
imposing civil religion is dangerous for religious liberty--articles, 
blogs, and emails are riddled with inflammatory statements challenging 
the religion of government officials who opposed changing the Memorial 
and demonizing some as anti-prayer and anti-Christian.\17\ Even when 
unintended, such results are neither good for religious freedom nor our 
nation as a whole.
---------------------------------------------------------------------------
    \17\ In 2004, false information was also spread that the designers 
of the World War II Memorial purposefully deleted the words, ``so help 
us God'' from a sentence inscribed on the Memorial. In truth, the 
sentence from the speech that included those words was never even 
included on the Memorial and so claiming the words were omitted is 
misleading and false. ABMC Response Letters at 46 (``The inclusion or 
exclusion of religious references was never an issue, nor was it ever 
discussed''). But that falsehood is still being circulated today and is 
used to disparage certain officials as anti-religious, and hostile to 
God. Unfortunately, some of this rhetoric is being mixed into the 
messages pushing for the prayer inscription.
---------------------------------------------------------------------------
    The Memorial, as designed, is purposely short on words yet 
certainly evokes a powerful message of unity.\18\ And, in contrast to 
some of the rhetoric that is being generated by this debate, the 
monument already acknowledges that faith was important to many soldiers 
during the war.\19\ There is no need to take extraordinary steps to 
reopen the Memorial to add a prayer.
---------------------------------------------------------------------------
    \18\ Its goal ``was supposed to be a memorial to inspire, not a 
museum to teach.'' World War II Online Book at 66.
    \19\ The monument quotes Walter Lord: ``. . .Even against the 
greatest of odds, there is something in the Human Spirit--a magic blend 
of skill, faith, and valor--that can life men from certain defeat to 
incredible victory.'' World War II Online Book at 97 (emphasis added.).


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
